<html>
<title> - STRENGTHENING SCHOOL SAFETY THROUGH PREVENTION OF BULLYING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
       STRENGTHENING SCHOOL SAFETY THROUGH PREVENTION OF BULLYING

=======================================================================



                             JOINT HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                                and the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,

                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, JULY 8, 2009

                               __________

                           Serial No. 111-30

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                     




                  U.S. GOVERNMENT PRINTING OFFICE
50-733                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
[Vacant]                             Glenn Thompson, Pennsylvania

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Donald M. Payne, New Jersey          Michael N. Castle, Delaware,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Rush D. Holt, New Jersey             Thomas E. Petri, Wisconsin
Susan A. Davis, California           Peter Hoekstra, Michigan
Raul M. Grijalva, Arizona            Mark E. Souder, Indiana
Joe Sestak, Pennsylvania             Vernon J. Ehlers, Michigan
David Loebsack, Iowa                 Judy Biggert, Illinois
Mazie Hirono, Hawaii                 Todd Russell Platts, Pennsylvania
Jared Polis, Colorado                Cathy McMorris Rodgers, Washington
Pedro R. Pierluisi, Puerto Rico      Rob Bishop, Utah
Gregorio Sablan, Northern Mariana    Bill Cassidy, Louisiana
    Islands                          Tom McClintock, California
Lynn C. Woolsey, California          Duncan Hunter, California
Ruben Hinojosa, Texas
Dennis J. Kucinich, Ohio
Jason Altmire, Pennsylvania
Dina Titus, Nevada
[Vacant]
                            C O N T E N T S

                              ----------                              
                                                                   Page

Joint hearing held on July 8, 2009...............................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, prepared 
      statement of...............................................     7
        Additional submissions:
            Position paper, ``Performance Values: Why They Matter 
              and What Schools Can Do to Foster Their 
              Development,'' by the Character Education 
              Partnership........................................   106
            Statement of Jon C. Marshall, Ed.D...................   111
            Statement of Joseph W. Mazzola, executive director, 
              Character Education Partnership....................   112
            Statement of Sanford N. McDonnell, chairman emeritus, 
              Character Education Partnership....................   113
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas, prepared statement of......................    71
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     6
        Prepared statement of....................................     7
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     4
        Additional submissions:
            FBI report, ``Crime in Schools and Colleges: A Study 
              of Offenders and Arrestees Reported via National 
              Incident-Based Reporting System Data,'' October 
              2007, Internet address to..........................     3
            Policy brief, ``Bridging the Gap in Federal Law: 
              Promoting Safe Schools and Improved Student 
              Achievement by Preventing Bullying and Harassment 
              in Our Schools, June 2007..........................    92
            Letter, dated July 7, 2009, from the National School 
              Boards Association,................................    90
        Additional statements:
            The American Association of University Women.........    72
            The American Psychological Association...............    76
            The National Gay and Lesbian Task Force Action Fund..    78
            Jennifer Chrisler, executive director, Family 
              Equality Council...................................    79
            Meredith Fenton, COLAGE program director.............    80
            Stephanie Stines, executive committee member, DC 
              Concerned Providers Coalition......................    81
            Joan Cole Duffell, executive director, Committee for 
              Children...........................................    81
            Eliza Byard, Ph.D., executive director, Gay, Lesbian, 
              and Straight Education Network.....................    84
            The Girl Scouts of the USA...........................    85
            Joe Solmonese, president, Human Rights Campaign......    87
            Kate Kendell, Esq., executive director, National 
              Center for Lesbian Rights..........................    88
            Jody Huckaby, executive director, PFLAG National.....    99
            The Sikh American Legal Defense and Education Fund 
              (SALDEF)...........................................   102
            Luis Sierra, special projects manager, Youth Crime 
              Watch of America, Inc..............................   103
            Randi Weingarten, president, American Federation of 
              Teachers...........................................   104
    Platts, Hon. Todd Russell, Ranking Member, Subcommittee on 
      Healthy Families and Communities...........................     5
        Prepared statement of....................................     5
    Sanchez, Hon. Linda T., a Representative in Congress from the 
      State of California:
        Prepared statement of....................................    72
        Questions submitted to Dr. Poland........................   114
        Questions submitted to Mr. Trump.........................   115

Statement of Witnesses:
    Andrews, Jacquelyn...........................................    25
        Prepared statement of....................................    26
    Andrews, Josie...............................................    23
        Prepared statement of....................................    24
    Kaufmann, Rona C., principal, William Penn Senior High 
      School, York, Pennsylvania.................................    27
        Prepared statement of....................................    28
    Poland, Scott, Ed.D., coordinator of the office of suicide 
      and violence prevention, Center for Psychological Studies, 
      Nova Southeastern University...............................    47
        Prepared statement of....................................    49
        Responses to questions for the record....................   114
    Riach, Steve, founder and board member, Heart of a Champion 
      Foundataion................................................    31
        Prepared statement of....................................    33
    Tetsworth, Cassady, national SAVE youth advisory board 
      member, student, Northwest Guilford High School............    44
        Prepared statement of....................................    46
    Trump, Kenneth S., M.P.A., president and CEO, National School 
      Safety and Security Services, Inc..........................    11
        Prepared statement of....................................    12
        Responses to questions for the record....................   116
    Walker, Sirdeaner, mother of bullied child, school safety 
      advocate...................................................    40
        Prepared statement of....................................    42


                      STRENGTHENING SCHOOL SAFETY
                     THROUGH PREVENTION OF BULLYING

                              ----------                              


                        Wednesday, July 8, 2009

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Subcommittee on Early Childhood,
                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittees met, pursuant to call, at 10:04 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the Healthy Families and Communities 
Subcommittee] presiding.
    Present from the Early Childhood, Elementary and Secondary 
Education Subcommittee: Representatives Kildee, Payne, Scott, 
Davis, Loebsack, Pierluisi, Woolsey, Hinojosa, Sablan, Castle, 
and Petri.
    Present from the Healthy Families and Communities 
Subcommittee: Representatives McCarthy, Scott, Tonko, Platts, 
Guthrie, and Roe.
    Also present: Representatives Andrews and Sanchez.
    Staff present: Ali Al Falahi, Staff Assistant; Curtis 
Ellis, Legislative Fellow; Fred Jones, Staff Assistant, 
Education; Jessica Kahanek, Press Assistant; Lillian Pace, 
Policy Advisor, Subcommittee on Early Childhood, Elementary and 
Secondary Education; Rachel Racusen, Communications Director; 
Melissa Salmanowitz, Press Secretary; Margaret Young, Staff 
Assistant, Education; Kim Zarish-Becknell, Policy Advisor, 
Subcommittee on Healthy Families; Stephanie Arras, Minority 
Legislative Assistant; James Bergeron, Minority Deputy Director 
of Education and Human Services Policy; Robert Borden, Minority 
General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Kirsten Duncan, Minority Professional 
Staff Member; Susan Ross, Minority Director of Education and 
Human Services Policy; and Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel.
    Chairwoman McCarthy [presiding]. I want to recognize my 
colleague, Representative Linda Sanchez. She is going to be 
attending the hearing, and I ask unanimous consent for her to 
sit on the dais to listen to the testimony and ask questions.
    Welcome, Linda.
    I now recognize myself, followed by the Healthy Families 
and Communities Ranking Member Todd Platts, then Chairman Dale 
Kildee and Ranking Member Castle of the Early Childhood 
Elementary and Secondary Education Subcommittee.
    I would like to welcome our witnesses to the hearing on 
strengthening school safety in our schools. I spent over 30 
years as a nurse, and I have seen firsthand what violence can 
do to students and to their families.
    I came to Congress as a result of violence, and I have 
worked for years to try to reduce violence in our schools and 
in our country. Throughout this hearing we will explore the 
different areas of concern we have related to school safety and 
ideas on how to address them.
    I want to take a moment to give a special thanks to my 
colleagues Chairman Kildee and Ranking Members Platts and 
Ranking Member Castle. Each of you has had a great interest in 
keeping our young people safe, and I appreciate all the hard 
work you have done on this issue and on this hearing.
    While the overwhelming number of schools in this country 
are safe, it is a parent's worst nightmare to send a child to 
school only to learn the child has become the victim of a crime 
or other incident. We see acts of bullying that quickly 
escalate into outbreaks of violence. As a parent, knowing your 
child has been the victim of bullying can be heartbreaking. So, 
too, can learning that your child is a bully.
    These days, bullying and school violence can have dire 
consequences. Nearly one-third of youth are bullied at least 
once a month. Six out of 10 American teens witness bullying at 
least once a day.
    For children in grades six through 10, nearly one in six, 
or 3.2 million, are victims of bullying each day, and 3.7 
million children are bullies. And a lot of these children won't 
even go to school because of those incidents.
    Often acts of bullying can extend beyond the halls of our 
school buildings and have found a new home on the Internet. The 
emotional and physical impacts of bullying have become more 
severe than ever before, and we as parents need to be proactive 
in dealing with serious problem.
    Students cannot learn and teachers cannot teach in 
environments that aren't safe, or if they are frightening. 
Schools should be sanctuaries for our children to learn and get 
the tools they need to succeed in life, not places where 
children have to worry about physical or emotional violence.
    Growing up and going to school is hard enough. Fear and 
violence should not be added factors to bring more confusion 
and stress. The communities and school districts that were once 
immune to violence are now being forced to confront it head-on.
    On occasion we have seen students referred to the juvenile 
justice system for what used to be considered disciplinary 
infractions. Something must be done to reverse these trends and 
protect students and teachers alike. One of the problems I am 
concerned about is what do we actually know? How much violence 
is actually occurring in schools?
    Accurate data enables administrators and policymakers to 
assess the impact of school safety programs. A 2006 report from 
my home state of New York highlighted this issue. The New York 
comptroller's office found that at schools they had surveyed 
more than 80 percent of the documented incidents that were not 
reported to the state, including serious offenses such as 
sexual assault in the use of a weapon.
    There has been much speculation about why there is 
underreporting. Our concern is that labeling a school as 
dangerous is a terrible stigma and may even be misleading in 
certain cases. We need to change the labeling.
    We also need to enhance the source of information. The 
primary source of federal school crime and violence data is the 
annual Indicators of School Crime and Safety report. The 
Indicators report is based on surveys and research, but does 
not include law enforcement data.
    While the current data available is valuable, I believe it 
must be enhanced. A 5-year study by the FBI on crime in schools 
and colleges was released in October 2007. This study 
emphasizes the contribution incident-based data can bring to 
the table when we are looking at crime in our schools.
    Without objection I would like to submit a copy of this 
report for the record. Hearing, none, I submit it.
    [The report may be accessed at the following Internet 
address:]

     http://www.fbi.gov/ucr/schoolviolence/2007/schoolviolence.pdf

                                ------                                

    Chairwoman McCarthy. By increasing the accuracy of school 
violence reporting, we can make sure federal dollars are going 
to these schools that truly need it most.
    I am working to allot federal dollars for local school 
emergency preparedness planning. This is why I will be 
reintroducing legislation that calls for more accuracy, 
accountability and transparency in the reporting requirements 
for school safety.
    Another theme that I think is important and that you will 
be hearing running through this hearing is that effective 
safety efforts must include input between a variety of 
interested parties, especially the students.
    The students know what is happening and what is going on in 
schools. They know what is going on with their peers, and often 
before adults do. They are critical partners in any school 
safety efforts, and I look forward to hearing ideas on this.
    Violence and bullying prevention is necessary to a 
successful academic career. We need to take these threats 
seriously and we must act on them to prevent further tragedies.
    I want to thank you all for being here, and I look forward 
to your testimony.
    I now recognize the distinguished ranking member of the 
Healthy Families and Communities Subcommittee, Mr. Platts, for 
his opening statement.
    Mr. Platts?
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I'd like to welcome our witnesses to this hearing on strengthening 
safety in schools.
    As a nurse for over 30 years, I have seen firsthand what violence 
does to students and their families. I came to Congress as a result of 
violence, and I have worked for years to prevent it.
    Through this hearing we will explore the different areas of concern 
we have related to school safety and ideas on how to address them.
    I want to take a moment to give a special thanks to my colleagues 
Chairman Kildee and Ranking Members Platts and Castle. Each of you has 
a great interest in keeping our young people safe and I appreciate all 
the hard work you have done on this issue and on the hearing.
    While the overwhelming number of schools in this country are safe, 
it is a parent's worst nightmare to send a child to school only to 
learn that the child has become the victim of a crime or other 
incident. We see acts of bullying that quickly escalate into outbreaks 
of violence.
    As a parent, knowing your child has been the victim of bullying can 
be heartbreaking, so too can learning that your child is a bully.
    These days, bullying and school violence can have dire 
consequences. Often, acts of bullying can extend beyond the halls of 
our school buildings and has found a new home on the internet. The 
emotional and physical impacts of bullying have become more severe than 
ever and we as parents need to be proactive in dealing with this 
serious problem.
    Students cannot learn and teachers cannot teach in environments 
that are unsafe and frightening. Schools should be sanctuaries for our 
children to learn and get the tools they need to succeed in life, not 
places where children have to worry about physical or emotional 
violence.
    Growing up and going to school is hard enough, fear and violence 
should not be added factors that bring more confusion and stress. 
Communities and school districts that were once immune to violence are 
now being forced to confront it head on.
    On occasion we have seen students referred to the juvenile justice 
system for what used to be considered a disciplinary infraction. 
Something must be done to reverse these trends and protect students and 
teachers alike.
    One of the problems I am concerned about is that we do not know how 
much violence is actually occurring in schools. Accurate data enables 
administrators and policy makers to assess the impact of school safety 
programs.
    A 2006 report from my home state of New York highlighted this 
issue. The New York Comptroller's Office found that at schools they had 
surveyed more than 80 percent of the documented incidents were not 
reported to the State, including serious offenses such as sexual 
assault and the use of a weapon.
    There has been much speculation about why there is underreporting. 
One concern is that labeling a school as dangerous has a terrible 
stigma and may even be misleading in certain cases. We need to change 
the labeling. We also need to enhance the source of incident 
information.
    The primary source of federal school crime and violence data is the 
annual, ``Indicators of School Crime and Safety,'' report. The 
Indicators report is based on surveys and research, but does not 
include law enforcement data. While the current data available is 
valuable, I believe it must be enhanced.
    A 5 year study by the FBI on crime in schools and colleges was 
released in October 2007. This study emphasized the contribution 
incident-based data can bring to the table when we are looking at crime 
in schools. Without objection I would like to submit a copy of this 
report for the record.
    By increasing the accuracy of school violence reporting, we can 
make sure federal dollars are going to those schools that truly need it 
most. I am also working to allocate federal dollars for local school 
emergency preparedness planning.
    This is why I will be reintroducing legislation that calls for more 
accuracy, accountability and transparency in the reporting requirements 
for school safety.
    Another theme that I think is important and that you will hear 
running through this hearing is that effective safety efforts must 
include a thought and input between a variety of interested parties, 
especially the students. The students know what's happening to them and 
to their peers, and often before adults do. They are critical partners 
in any school safety efforts and I look forward to hearing ideas this.
    Violence and bullying prevention is necessary to a successful 
academic career. We need to take these threats seriously and we must 
act on them to prevent further tragedies.
    Thank you all for being here and I look forward to your testimony.
                                 ______
                                 
    Mr. Platts. Thank you, Madam Chair. Honored to join you and 
Chairman Kildee and Ranking Member Castle, when he arrives, as 
well as other members. I will submit my written statement for 
the record, but do want to thank you for holding this very 
important hearing.
    I think the safety of our nation's children is probably one 
of our most, if not most important responsibilities of 
government. And as a parent, I can tell you that I don't know 
if there is any more powerful feelings than that protective 
gene wanting to ensure my 10 and 13-year-old sons are safe and 
secure, and sometimes to the displeasure of my 10-year-old, who 
thinks I am overprotective in looking after him and his 
brother.
    But as parents, when we send our children off to school, we 
are certainly wanting that environment to be a safe 
environment, and so today's hearing about safety in our 
schools, and especially the issue of bullying in our schools, 
is vitally important to us a feeling that responsibility of 
ensuring the safety of our children.
    I do want to recognize our colleague, Ms. Sanchez, for her 
leadership on the issue and the sponsorship of legislation 
dealing with bullying in particular and how we can better 
assist our schools at the local level to fulfill that 
responsibility of ensuring safe learning environments for all 
of our nation's children.
    I am honored again this morning to join with you in 
welcoming all eyewitnesses and to thank each and every one of 
you for your efforts, not just in your testimony here today, 
but in and day out for the work you are doing in your 
communities and for the good of our nation's children.
    Thank you, Madam Chair. I yield back.
    [The statement of Mr. Platts follows:]

    Prepared Statement of Hon. Todd Russell Platts, Ranking Member, 
            Subcommittee on Healthy Families and Communities

    Good morning. Welcome to our hearing. Today we are here to discuss 
the safety of our Nation's schools, with particular regard to bullying.
    While the issue of bullying is not new, its ever-changing face has 
unfortunately kept it prevalent in our Nation's schools. According to 
the United States Department of Health and Human Services, between 
fifteen and twenty-five percent of United States students admitted to 
being bullied ``sometimes'' to ``more often.'' While we are aware of 
the effect that bullying has on the mental health of students, 
attention is not always given to the significant impact bullying has on 
students' academic performance and physical health. Recent studies have 
shown that lower rates of school attendance can be attributed to 
bullying. Children who are bullied are also more likely to have lower 
self-esteem; higher rates of depression, loneliness, anxiety, and 
suicidal thoughts. The physical effects of bullying can result in a 
multitude of health problems, including headaches, sleeping problems, 
and stomach ailments. Certain research even suggests that adults who 
were bullied as children are more likely than their non-bullied peers 
to suffer from depression and low self-esteem as adults.
    Within the last ten years, the occurrences of bullying have become 
more difficult to detect as it has reached beyond the physical walls of 
our classrooms through the increased use of technology. E-mail, text 
messages, chat rooms and websites have provided a quick and often 
anonymous means of cyber bullying. In national surveys of ten to 
seventeen year-olds, twice as many youth indicated that they had been 
victims and perpetrators of online bullying in 2005 compared to 1999. 
Thirty-six percent of twelve to seventeen year-olds reported that 
someone said threatening or embarrassing things about them through e-
mail, instant messages, web sites, chat rooms, or text messages.
    A number of initiatives have been created to educate and prevent 
bullying. Organizations and educators have made parents more aware of 
the warning signs of bullying. Information has been made available to 
parents on how to prevent cyber bullying through increased monitoring 
of technology at home. Today, we will hear from Ms. Rona Kaufmann, 
Principal of William Penn Senior High School in my Congressional 
District. Ms. Kaufmann will share how the character education program 
implemented at her school has reduced the incidence of bullying.
    I look forward to hearing the testimony from all of our witnesses 
today. As we move forward, it is vitally important that we all remain 
committed to ensuring that each and every student has the opportunity 
to be educated in an environment without fear, intimidation, or severe 
and pervasive insults. Thank you Chairwoman McCarthy.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    I now recognize the distinguished chairman of the Early 
Childhood, Elementary and Secondary Education Subcommittee, Mr. 
Kildee, for his opening statement.
    Mr. Kildee. Thank you, Madam Chairman.
    I am pleased to welcome all to this hearing on 
strengthening school safety through the prevention of bullying. 
As a father, a grandfather and a former teacher, I believe 
there is nothing more important than ensuring the safety of our 
schoolchildren.
    But according to the National Center for Education 
Statistics, more than 75 percent of our nation's schools 
experienced a violent incident last school year. These 
incidents, which range from bullying to gang activity, threaten 
the safety of our children and seriously compromise the 
learning environment.
    While one incident is one too many, we must do something 
immediately to address this widespread problem. We must better 
understand the causes of school violence and give our educators 
the tools they need to protect children from dangerous 
situations.
    A safe learning environment is an essential component for 
the success of high-achieving schools. During today's hearing, 
we will hear testimony from a student and parent who have 
witnessed bullying firsthand, from experts in the field who 
train educators and prepare school districts to address the 
problems of school violence, and from a student who helps lead 
a successful school safety program in her own high school.
    Each perspective represents an important voice in this 
discussion. We will hear about the importance of student and 
parent engagement, teacher training, development of emergency 
preparedness plans, community engagement in the collection of 
accurate data. All of these pieces play a critical role in a 
comprehensive approach to school safety.
    We will also hear about the importance of teaching positive 
behavior skills, such as self-management, self-awareness and 
responsible decision-making. These social and emotional skills 
contribute to conflict resolution, reducing violent behavior in 
school settings.
    I look forward to the testimony today and working with 
Chairwoman McCarthy, Ranking Member Platts and Castle, and all 
the members of the committee as we work to reauthorize the 
Elementary and Secondary Education Act and explore other 
critical school safety policies.
    I now yield, if he is present, to our ranking Republican 
member of the Education Subcommittee, Mr. Castle.
    Mr. Platts, I yield to you.
    [The statement of Mr. Kildee follows:]

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    I'm pleased to welcome my fellow subcommittee members, the members 
of the Healthy Families and Communities Subcommittee, the public, and 
our witnesses to this hearing on ``Strengthening School Safety through 
Prevention of Bullying.''
    As a father, a grandfather, and a former teacher, I believe there 
is nothing more important than ensuring the safety of our school 
children.
    Yet, according to the National Center for Education Statistics, 
more than 75 percent of our nation's schools experienced a violent 
incident last school year.
    These incidents--which range from bullying to gang activity--
threaten the safety of our children and seriously compromise the 
learning environment.
    While one incident is one too many, we must do something 
immediately to address this widespread problem.
    We must better understand the causes of school violence and give 
our educators the tools they need to protect children from dangerous 
situations.
    A safe learning environment is an essential component of a 
successful and high-achieving school.
    During today's hearing, we will hear testimony from a student and 
parent who have witnessed bullying firsthand, from experts in the field 
who train educators and prepare school districts to address the 
problems of school violence, and from a student who helps lead a 
successful school safety program in her own high school.
    Each perspective represents an important voice in this discussion.
    We will hear about the importance of student and parent engagement, 
teacher training, development of emergency preparedness plans, 
community engagement, and the collection of accurate data.
    All of these pieces play a critical role in a comprehensive 
approach to school safety.
    We will also hear about the importance of teaching positive 
behavioral skills such as self management, self awareness, and 
responsible decision-making.
    These social and emotional skills contribute to conflict 
resolution, reducing violent behavior in school settings.
    I look forward to the testimony today and working with Chairwoman 
McCarthy, Ranking Members Platts and Castle, and all the members of the 
Committee as we work to reauthorize the Elementary and Secondary 
Education Act and explore other critical school safety policies.
    I now yield to Ranking Member Castle for his opening statement.
                                 ______
                                 
    Mr. Platts. Thank you, Mr. Kildee. Mr. Castle will be 
arriving shortly, but is detained and has asked me to submit 
his opening statement for the record, if no objection.
    [The statement of Mr. Castle follows:]

    Prepared Statement of Hon. Michael N. Castle, Senior Republican 
   Member,Subcommittee on Early Childhood, Elementary and Secondary 
                               Education

    Good morning and thank you Chairwoman McCarthy and Chairman Kildee 
for holding this important hearing. I am pleased to be here today 
examining strengthening school safety through the prevention of 
bullying.
    I am sure we can all agree that our nation's schools should be safe 
havens for teaching and learning, free of crime and violence, yet 
research in this area has shown that criminal incidents, including 
bullying, are prevalent in our nation's public elementary and secondary 
schools.
    The most recent data from the U.S. Department of Education's Digest 
of Education Statistics found criminal incidents in about 86 percent of 
public elementary and secondary schools. Additionally, bullying and 
being bullied are associated with key violence-related behaviors, 
including carrying weapons, fighting, and sustaining injuries from 
fighting. We hear more each day about bullying occurring in schools and 
online. In fact, in 2007, 32 percent of 12-18 year old students 
reported being bullied at school and 4 percent of students reporting 
being cyber-bullied.
    The issues of school crime and safety impact every state and 
Congressional district, no matter the size of the state or school 
location. Although my home state of Delaware enacted a bully prevention 
law last year, has a school crime reporting law in place, and an unsafe 
choice option policy was created after the passage of No Child Left 
Behind, 22 violent felonies and 572 cases of bullying statewide were 
reported to the Delaware Department of Education.
    At the federal level, Congress has taken important steps towards 
reducing school crimes and violence to improve school safety with the 
enactment of the No Child Left Behind (NCLB) Act and the 
reauthorization of the Juvenile Justice and Delinquency Prevention Act 
(JJDPA) in 2002.
    The No Child Left Behind Act contains a number of provisions 
designed to provide states and school districts with resources to 
address school safety at elementary and secondary schools. This 
includes the Safe and Drug-Free Schools and Communities Act to provide 
federal funds to states and school districts to support drug and 
violence prevention efforts; provisions related to persistently 
dangerous schools, in which students may transfer to safer schools if 
they attend a school identified as being persistently dangerous; and 
the Partnerships in Character Education program, which provides funds 
to states and school districts to design and implement effective 
character education programs.
    Additionally, the reauthorized Juvenile Justice and Delinquency 
Prevention Act makes an effort to reduce juvenile crime through the 
funding of prevention programs and activities which hold juveniles 
accountable for their actions, and by providing technical assistance, 
research, and dissemination of information on effective programs for 
combating juvenile crime. Additionally, the JJDPA provides assistance 
to state and local governments to address the problems of runaway and 
homeless youth.
    The actions taken by states and the reauthorization of these bills 
have been major stepping stones in improving school and youth safety. 
The crime statistics, however, continue to alarm me, and I am hopeful 
that through this hearing, we can learn ways in which those at the 
federal, state, and local levels can continue to promote and improve 
school safety and prevent bullying and other school crimes in our 
nation's schools.
    Thank you again. I yield back.
                                 ______
                                 
    Chairwoman McCarthy. Pursuant to committee rule 12A, any 
member may submit an opening statement in writing at this 
point, which will be made part of the permanent record. Without 
objection, all members will have 14 days to submit additional 
materials or questions for the hearing record.
    Let me explain the lighting system that we have before I 
make the introduction of--in front of you you will see a black 
box. When you start speaking, it will be 5 minutes. When it 
gets down to the yellow, that means you have about a minute 
left to finish your thoughts. And then obviously, red means try 
to finish up your sentence and so we can go forward.
    I would like to briefly introduce our very distinguished 
panel of witnesses here with us this afternoon. The complete 
bios of the witnesses will be inserted for the record.
    Our first witness will be Mr. Ken Trump. He is the 
president of National School Safety and Security Services, of 
Cleveland, Ohio, based national firm specializing in K-12 
schools security and emergency preparedness training and 
consulting.
    He began his school safety career as an officer 
investigator and youth gang unit supervisor for the Cleveland 
city schools safety division, after which he served as suburban 
Cleveland schools security director and assistant gang 
assistance force director. And he has testified before this 
committee before, and we appreciate that.
    Mr. Andrews--and I ask unanimous consent for a member of 
the full committee, Mr. Andrews, to introduce the first two 
witnesses, Josie and Jackie Andrews, Mr. Andrews?
    Mr. Andrews of New Jersey. Thank you, Madam Chairwoman. I 
want to thank you and Chairman Kildee and Mr. Platts and Mr. 
Castle for extending me the courtesy of attending this morning.
    I have known these two witnesses their entire life, so I 
feel uniquely qualified to introduce them. Jackie Andrews is 16 
years old. She is a high honors student at the Lawrenceville 
School in Lawrenceville, New Jersey. She is a nationally ranked 
crew athlete.
    And most importantly for this morning's purposes, she has 
engaged in the last 3 years in the development of a curriculum 
and program to teach people how to avoid bullying and how to do 
something better. We are immensely proud of her achievement in 
that area. She has also worked with her sister in helping to 
write music for a project that her sister is going to talk 
about.
    Josie Andrews is 14 years old. She is the creator and 
songwriter and scriptwriter for a project called ``Milo J High: 
An Anti-Bullying Musical,'' a story about a bullying problem in 
a junior high school. She is a student at Stanford University's 
education program for gifted youth, an online education 
experience, and she is going to talk about her ideas and 
achievements as well.
    We are also honored this morning to be joined by some 
friends who have assisted in this effort, who are constituents 
and friends from New Jersey, Nicole Rodis and Danielle Jones--
Danielle Janco--excuse me--and Megan Jones.
    And finally, Madam Chair, with your indulgence, the person 
who has really taught these witnesses about how to conduct 
themselves as young women is their mother, my wife, Camille 
Andrews, who is here.
    My daughters have never doubted for a millisecond that 
anything is possible in their lives and careers, because they 
have a mother who has shown them that. And I am very grateful 
for her excellent raising of these children, usually in the 
absence of their congressman father, who is off doing other 
things.
    I also am delighted by the fact, Madam Chair, but I 
understand the rules of the committee permit us to put the 
witnesses under oath and require them to answer questions, so 
every----
    [Laughter.]
    Chairwoman McCarthy. Don't push it. [Laughter.]
    Mr. Andrews of New Jersey. Okay. Every parent of a teenager 
welcomes this opportunity, but I thank you very much for your 
courtesies this morning.
    Chairwoman McCarthy. And I thank you, Mr. Andrews.
    Now I would like to yield to Ranking Member Mr. Platts, who 
will introduce our next witness, Ms. Kaufmann.
    Mr. Platts. Thank you, Madam Chair.
    I am honored to introduce Rona Kaufmann, who is principal 
at William Penn Senior High School in York, Pennsylvania, my 
hometown, and especially as principal of William Penn, the alma 
mater of both my mom and dad, class of 1947 and 1951, proud 
Bill Penn graduates, they would say.
    Rona has almost 30 years in the education field, including 
about 20 years in the classroom. Prior to being principal at 
William Penn, was principal at our largest middle school in 
York, Hannah Penn, and has been instrumental in the character 
and education program in our schools.
    And we very much look forward to your testimony, and again, 
appreciate you being here and the work you are doing every day 
with the children of York. So thanks for being part of this 
hearing.
    You back, Madam Chair.
    Chairwoman McCarthy. Thank you.
    Our next witness is Mr. Steve Riach, who is the founder and 
board chairman, Heart of Champion Foundation. The Heart of 
Champion Foundation provides character education curriculum to 
nearly 100 schools.
    The program teaches students about character, using lessons 
that consistently reinforce positive character traits by giving 
examples of persons with high character. These stories are told 
through print and video stories and mainly focus on athletes 
that embody individual traits.
    Thank you for being here and welcome.
    Our next witness is Ms. Walker from Springfield, 
Massachusetts.
    Welcome.
    She will discuss her own personal tragic story about what 
the consequences of bullying can be on children.
    Our next witness is Cassady Tetsworth, a soon to be senior 
from Northwest High School in Greensboro, North Carolina. 
Cassady has been active in school safety efforts for the last 6 
years to her involvement with the Student Groups against 
Violence Everywhere, or SAVE.
    Currently, Cassady is the vice chair of SAVE's national 
youth advocacy board. In 2005 she received the President's 
Volunteer Service Award and the Win-Win Resolution Young 
Peacemaker Award.
    She is a peer tutor and active in volunteer and service 
activities. She is also active in her church youth group and is 
working towards her gold medal in Girl Scouts.
    Finally, we will hear from Dr. Scott Poland.
    Welcome again.
    Dr. Poland is a faculty member and coordinator of the 
Suicide and Violence Prevention Office at Nova Northeastern 
University in Fort Lauderdale, Florida. Dr. Poland is a 
nationally recognized expert on school crisis, school violence, 
suicide intervention, self-injury, school safety, threat 
assignment, parenting and the delivery of psychological 
services to our schools.
    He has lectured and written extensively on the subject and 
presided over 1,000 workshops in every state, numerous foreign 
countries, and serves on the president's roundtable on youth 
violence.
    Dr. Poland is the past president of the National 
Association of School Psychologists and was the director of 
psychological services, 1982 to 2005, for a large Texas school 
district that received numerous state and national awards for 
its exemplary psychological services.
    He will touch on characteristics of effective prevention 
and intervention programs, mental health issues related to 
school safety, and how they fit in the big picture of our 
school safety in our schools.
    For those again that have not testified before Congress, I 
have already gone through the lighting. Everyone knows that 
they will get 5 minutes. The green light means for you to go. 
Yellow means to start to finish up. The red means to please 
stop. Be certain as you testify to turn on and speak into the 
microphone that is in front of you.
    We will now hear from our first witness.
    Mr. Trump?

   STATEMENT OF KENNETH S. TRUMP, PRESIDENT, NATIONAL SCHOOL 
                  SAFETY AND SECURITY SERVICES

    Mr. Trump. Chairwoman McCarthy, Chairman Kildee, Ranking 
Members Platts and Castle, and distinguished subcommittee 
members, thank you for dedicating your time and leadership to 
the number one concern of parents and education nationwide. As 
a father myself, part of that is the safety and security of our 
children.
    April 20th, 2009, marked the 10th anniversary of the 1999 
Columbine High School attack, and our experience and analysis 
shows a mixed bag of lessons learned and implemented well, with 
still some glaring gaps and a lot of work remaining on school 
safety.
    Two areas I wish to address in today's hearing: number one, 
opportunities for improving federal school safety policy by 
strengthening school safety data, and I have got some comments 
on the importance of framing a comprehensive approach to school 
safety policies and programming.
    On the data, there are serious gaps in federal data on 
school crime and violence. Federal data is limited to a mixed 
collection of a half a dozen or so academic surveys reflected 
by Congresswoman McCarthy, and that data, as she indicated, 
lacks incident-based data to supplement the survey-based data.
    The Indicators report can include data 2 to 6 years behind 
the actual time that the report is submitted to Congress and 
the public, and the report in itself, while a valiant effort to 
put the picture together, is peppered with disclaimers and 
limitations of the survey data, including limitations on self-
report surveys, difficulties and comparing data across the 
different sources, and the inability to really discuss trends 
because of the different sources of the data.
    That limited data can have an impact on federal school 
safety policy and programming and funding issues, oftentimes 
directing attention, perhaps, where an emphasis may not be 
needed and taking away from areas that may require more 
attention.
    There are also data flaws in the Gun-Free Schools Act. Some 
of the loopholes include requiring local--the act requires 
local education agencies to report to state education agencies 
the number of students expelled for firearms and guns on 
campuses, the key words being ``students'' and ``expelled.''
    Non-students who are arrested on campus with firearms are 
not necessarily included in those reports to the state. 
Students who were expelled for other offenses, but come on 
campus with guns, may not be reported.
    And special education students, who may be placed in 
modified educational services instead of technically being 
expelled, incidents involving those students may not be 
included as well, which means even our Gun-Free Schools Act 
data that you receive could understate the extent of those 
incidents on campus.
    The bottom line is the federal data grossly underestimates 
the extent of school violence. Public perception often 
overstates it. Reality exists somewhere in between, but 
statistically in real numbers we don't know where that 
someplace actually is.
    Developing accurate data has been important in academic 
achievement. We need to apply that same emphasis to school 
safety data. And last session, H.R. 354, introduced by 
Congresswoman McCarthy, the SAVE Act, called for meaningful and 
practical steps to improve accountability, accuracy and 
transparency in reporting school crime and called for 
improvements in tightening those loopholes in the Gun-Free 
Schools Act, which we support and encourage everyone to revisit 
this session.
    The SAVE Act also included including available NIBRS data 
the congresswoman requested earlier, and it would be the first 
time that incident-based data is brought into the conversation 
in that side in our federal discussion of school safety policy 
and is a very important thing to accompany the surveys that we 
have.
    It reflects no invasion of privacy. It is incident-based 
data, not individual data. And it creates no bureaucracies, a 
major cost, but would be very helpful in our analysis of school 
safety.
    Today's picture on school safety must include a 
comprehensive approach. Today's school administrators must be 
prepared to deal with threats, including bullying, verbal and 
physical aggression and fighting on one end of the continuum, 
all the way to weather and natural disasters, nonstudent 
intruders on campus, irate parent violence, spillover of 
community incidents, gang activity, school stabbings, 
shootings, and even terrorism, on threat potentially to 
schools.
    Just as these threats are a wide range and on a continuing, 
so must be our policies, programming and resources to deal with 
these threats. The key words are ``comprehensive'' and 
``balanced.'' And while some school safety advocates will call 
for more prevention or better security, we advocate for more 
prevention and better security. We have to have a secure 
environment to deliver the educational prevention and 
intervention services.
    What consists of a comprehensive and balanced program is 
detailed in my written testimony. I would also encourage 
Congress and the administration to look to see and some other 
ways that they could help provide guidance with the recent 
stimulus funding to school administrators, to how that may be 
used to support school safety and security efforts.
    I again encourage, as you look at reauthorizing No Child 
Left Behind, at how you could incorporate strong and supportive 
school safety, security and emergency preparedness components 
into the reauthorization, ensure that federal school safety 
policies and programming of funding again are comprehensive and 
balanced.
    And when programs are deemed ineffective, look at how those 
ineffective programs could be replaced with new programs that 
could continue in sustaining safe schools efforts.
    Thank you, and I look forward to answering any questions.
    [The statement of Mr. Trump follows:]

  Prepared Statement of Kenneth S. Trump, M.P.A., President and CEO, 
           National School Safety and Security Services, Inc.

    Chairwoman McCarthy, Chairman Kildee, Ranking Members Platts and 
Castle, and distinguished subcommittee members, thank you for 
dedicating your time and this hearing to the number one school concern 
of parents nationwide: The safety and security of their children.
    My name is Kenneth Trump and I am the President and CEO of National 
School Safety and Security Services, Incorporated, a Cleveland (Ohio)-
based national consulting firm specializing in school safety, security, 
and school emergency preparedness consulting and training. I have 
worked with K-12 school officials and their public safety partners in 
urban, suburban, and rural communities from all 50 states during my 
full-time 25 years in the school safety profession.
    In addition to my consulting experience, my background includes 
having served over seven years with the Cleveland City School 
District's Safety and Security Division as a high school and junior 
high school safety officer, a district-wide field investigator, and as 
founding supervisor of its nationally-recognized Youth Gang Unit that 
contributed to a 39% reduction in school gang crimes and violence. I 
later served three years as director of security for the ninth-largest 
Ohio school district with 13,000 students, where I also served as 
assistant director of a federal-funded model anti-gang project for 
three southwest Cleveland suburbs. My full biographical information is 
on our web site at www.schoolsecurity.org/school-safety-experts/
trump.html.
    I have authored two books and over 50 professional articles on 
school security and emergency preparedness issues. My education 
background includes having earned a Bachelor of Arts degree in Social 
Services (Criminal Justice concentration) and a Master of Public 
Administration degree from Cleveland State University; special 
certification for completing the Advanced Physical Security Training 
Program at the Federal Law Enforcement Training Center; and extensive 
specialized training on school safety and emergency planning, terrorism 
and homeland security, gang prevention and intervention, and related 
youth safety topics.
    I am honored to have this fourth opportunity to present 
Congressional testimony. In 1999, I testified to the Senate Health, 
Education, Labor, and Pensions (HELP) Committee as a school safety and 
crisis expert. In 2007, I testified to the House Committee on Education 
and Labor. I also testified on school emergency preparedness issues in 
2007 to the House Committee on Homeland Security.
    My national work has included providing expert testimony to the 
National Association of Attorneys General (NAAG) Task Force on School 
and Campus Safety in 2007. In April of 2008, I was invited by the U.S. 
State Department to provide a briefing to teachers, school officials, 
and community partners in Israel on school safety, school violence 
prevention, school security, and school emergency preparedness as 
coordinated by the U.S. Embassy in Tel Aviv. I was an invited attendee 
at the White House Conference on School Safety in October of 2006. I 
also served in 2006-2007 as the volunteer Chair of the Prevention 
Committee and as an Executive Committee member for Cleveland's 
Comprehensive Anti-Gang Initiative, one of six Department of Justice-
funded federal and local collaborative model projects to address gangs 
through enforcement, prevention, and reentry strategies.
    School districts and other organizations engage our services to 
evaluate school emergency preparedness plans, provide professional 
development training on proactive school security and crisis prevention 
strategies, develop and facilitate school tabletop exercises, conduct 
school security assessment evaluations, and consult with school 
administrators and board members on management plans for school 
violence prevention and improving school safety. While our work is 
largely proactive and preventative, we have increasingly found 
ourselves also called to assist educators and their school communities 
with security and preparedness issues following high-profile incidents 
of school violence. In the past several years alone, we have worked in 
a school district where a student brought an AK-47 to school, fired 
shots in the halls, and then committed suicide; in a private school 
where death threats raised student and parental anxiety; in a school 
district where a student brought a tree saw and machete to school, 
attacked students in his first period class, and sent multiple children 
to the hospital with serious injuries; and most recently in a school 
district experiencing student and parental school safety concerns after 
a student was murdered in a gang-related community incident.
    My testimony provides unique perspectives on school safety. I am 
not an academician, researcher, psychologist, social worker, law 
enforcement official, or government agency representative. Instead, I 
bring a perspective of 25 years of full-time, front-line experience in 
directly working with public and private schools, their public safety 
and community partners, students, and parents on K-12 school safety, 
security, and emergency preparedness issues.
    Most importantly, I am a father. Like most parents, I want my 
children to achieve academically at school. But even more importantly, 
I want them to be safe from harm and well protected in the hands of 
school leaders who have the resources and skills for creating and 
sustaining schools that are emotionally and physically safe, secure, 
and well prepared for preventing and managing emergencies. As members 
of Congress, I encourage you and your colleagues to make all of your 
school safety policy and funding decisions not only with the wisdom of 
skilled legislators, but also with the heart and concern of a caring 
and concerned parent.
The state of school safety 10 years post-Columbine
    This past April 20, 2009, marked the 10th anniversary of the 1999 
attack at Columbine High School in Colorado. Our experience and 
analysis shows a mixed bag of lessons learned and implemented, with 
many glaring gaps and a lot of work remaining on school safety issues.
    The good news is that progress made on school safety in the past 
decade has included improved school climates, better threat assessment 
protocols, enhanced physical security measures, and a heightened 
awareness of the importance of school safety. Schools have also created 
crisis plans and teams, added new drills, and enhanced relationships 
with first responders. In general, there is a greater awareness and 
recognition of school safety threats today than there was pre-
Columbine, and school administrators deal more with safety issues now 
than in decades past.
    The bad news is that while many schools have invested in security 
technology, they have been investing less time and effort in their 
people. Time and training for school safety and emergency planning is 
harder to come by than money in many districts. Limited investment on 
the people end of school safety has created a significant need to go 
back to the basic, fundamentals of violence prevention, security, and 
emergency planning. The first and best line of defense is always a well 
trained, highly alert school staff and student body.
    Every adult has a responsibility for school safety. Too often many 
key adults, such as school custodians, food service workers, and 
secretaries, are missing from school safety training and crisis teams. 
Students and parents are key, but often missing, partners in school 
safety programs.
    School safety officials continue to fight against complacency. Time 
and distance from high profile incidents breed complacency and denial. 
Too many people still believe, `It can't happen here because it has not 
happened here'.''
Improve Federal school safety policy by strengthening school safety 
        data
            Overview
    There are serious gaps in federal data on school crime and 
violence. Federal data is primarily limited to a mixed collection of a 
half-dozen or so academic surveys and research studies. The data used 
by Congress, the Administration, and others to make policy and funding 
decisions lacks adequate incident-based data on actual crime and 
violence incidents in schools, and thereby increases the risks of 
flawed federal school safety policy and funding decisions.
    The over-reliance on surveys with little-to-no data on actual 
school-based crimes results in a very limited, skewed, and understated 
picture of crime and violence in our nation's schools. Federal school 
safety data grossly underestimates the extent of school crime and 
violence, while public and media perception tends to overstate the 
problem. Reality exists somewhere in between these two parameters, but 
no one, especially at the federal level, can identify where in real 
numbers.
    Congress can improve federal school safety data by incorporating 
incident-based data into federal school safety data collection. The 
Department of Education should continue to collect the currently 
reported perception and self-report academic surveys. The addition of 
incident-based data would provide a more accurate and comprehensive 
data picture upon which our elected officials can rely for making 
improved federal school safety policy and funding decisions.
            Recent Incidents Illustrate the Need for a Renewed Focus on 
                    K-12 School Safety
    Recent incidents of violence at school, as well as to and from 
school, have plagued a number of larger, urban school districts and 
their school-communities. School districts in Chicago, Detroit, 
Memphis, Milwaukee, and Philadelphia have repeatedly been in the news 
over the past three years for high-profile gang violence, school 
fights, violence against students and staff, weapons incidents, student 
shootings, and/or student deaths to and from school. These incidents 
continue, despite outrage and outreach by school and city officials.
    In my monitoring of news stories on school safety incidents around 
the nation, in talking with school board members and administrators 
from across the nation at our workshops, and in email inquiries we 
receive, we are seeing a particular uptick in gang-related issues 
affecting schools and school communities in many parts of the country. 
This particularly appears to be the case in large urban school 
districts and in urban/suburban school communities.
    School violence is, however, by no means limited to large school 
districts and urban areas. Recent higher-profile incidents illustrate 
that school-associated violence and safety concerns strike all 
communities: Urban, suburban, and rural. For example, just in the past 
three months:
    <bullet> Detroit, Michigan: June 30, 2009--Seven teens, the 
majority summer school students, were struck by gunfire after school at 
a bus-stop near a Detroit high school. Two weeks prior a 16-year-old 
female student was reportedly shot in the chest after leaving another 
city school in an unrelated incident;
    <bullet> Parkersburg, Iowa: June 24, 2009--A nationally-recognized, 
award-winning high school football coach was shot and killed, allegedly 
by a 24-year-old former student, while supervising a weightlifting 
activity at the school;
    <bullet> Blauvelt, New York: June 9, 2009--The school district's 
superintendent tackled and disarmed an irate 37-year-old father with a 
gun who barged into the district's middle school, angry over 
information the district put out about swine flu;
    <bullet> Cleveland Heights, Ohio: June 1, 2009--11 students were 
arrested for aggravated rioting after a larger altercation that began 
during lunch hour and spilled out in the street;
    <bullet> Thibodaux, Louisiana: May 18, 2009--An armed 15-year-old 
male middle school student stormed into a classroom, fired a shot over 
a teacher's head, and then shot himself in the head in a school 
bathroom. He later died. Police report he had plans to kill four 
students and then himself;
    <bullet> Sheboygan, Wisconsin: May 1, 2009--A 17-year-old male high 
school senior received a self-inflicted gunshot wound to the abdomen 
while in the school's parking lot about 40 minutes after school 
dismissal. Over 100 students still inside the school went into 
lockdown;
    <bullet> Waterloo, Iowa: April 29, 2009--One day after the stabbing 
death of a high school student in a fight involving large groups at a 
community park, 400 to 500 parents went to a district high school to 
remove their children from school following rumors and fears of gang 
retaliation violence;
    <bullet> Silver Spring, Maryland: April 28, 2009--Police arrested 
two high school juniors for allegedly setting three fires at their 
Montgomery County High School. Police also charged the males for 
conspiracy to commit murder after they discovered an alleged plot to 
kill their principal with a nail-filled bomb and set off a major 
explosion inside the school; and
    <bullet> Rockford, Illinois: April 20, 2009--A 14-year-old male 
high school student was shot in the leg across the street from the 
school while walking to school. Police subsequently arrested an 18-
year-old suspect. Three area schools went into lockdown as a result of 
the shooting and parents.
    These are only a sample of incidents. The list goes on and on. See 
our web page on School-associated Violent Deaths at 
www.schoolsecurity.org/trends/school--violence.html and our most recent 
sample listing of school year incidents (2008-2009 school year) at 
www.schoolsecurity.org/trends/school--violence08-09.html.
            Federal School Crime and Violence Data is Limited Primarily 
                    to Surveys, Not Incident-based Data; Major Flaws 
                    Exist with Federal School Safety Data
    The sad reality is that most of the aforementioned incidents would 
never be reflected in federal data collected on school safety as the 
bulk of federal school safety data comes from academic type survey-
based data and not incident-based data. Yet Congress and the 
Administration rely heavily upon the survey-based data presented by the 
U.S. Department of Education and other agencies to make critical school 
safety policy and funding decisions.
    The truth is that there is no comprehensive, mandatory federal 
school crime reporting and tracking of actual school crime incidents 
for K-12 schools. Federal school crime and violence data consists 
primarily of a hodgepodge collection of over a half-dozen academic 
surveys and research studies. This data is often mistakenly perceived 
by policymakers, the media, and others as a reflection of the number of 
actual crime and violence incidents, and as credible trend indicators 
of school crime and violence occurring in our schools.
    The primary source of federal school crime and violence data is the 
annual, ``Indicators of School Crime and Safety,'' report. The latest 
published report entitled, ``Indicators of School Crime and Safety: 
2008,'' carries a cover date of April 2009 and was released on the web 
about two and one-half months ago on April 21, 2009.
    The Executive Summary of this April 2009 report describes, in part, 
the sources and dates of the data as follows: ``This report is the 
eleventh in a series of annual publications produced jointly by the 
National Center for Education Statistics (NCES), Institute of Education 
Sciences (IES), in the U.S. Department of Education, and the Bureau of 
Justice Statistics (BJS) in the U.S. Department of Justice. This report 
presents the most recent data available on school crime and student 
safety. The indicators in this report are based on information drawn 
from a variety of data sources, including national surveys of students, 
teachers, and principals. Sources include results from a study of 
violent deaths in schools, sponsored by the U.S. Department of 
Education and the Centers for Disease Control and Prevention; the 
National Crime Victimization Survey and School Crime Supplement to the 
survey, sponsored by the BJS and NCES, respectively; the Youth Risk 
Behavior Survey, sponsored by the Centers for Disease Control and 
Prevention; and the Schools and Staffing Survey and School Survey on 
Crime and Safety, both sponsored by NCES. The most recent data 
collection for each indicator varied by survey, from 2003-04 to 2007. 
Each data source has an independent sample design, data collection 
method, and questionnaire design or is the result of a universe data 
collection. All comparisons described in this report are statistically 
significant at the .05 level. In 2005 and 2007, the final response rate 
for students ages 12-18 for the School Crime Supplement (60 percent),1 
fell below NCES statistical standards; therefore, interpret the 2005 
and 2007 data from Indicators 3, 8, 10, 11, 17, 18, and 21, with 
caution. Additional information about methodology and the datasets 
analyzed in this report may be found in appendix A.'' For this summary 
and links to the report, see http://nces.ed.gov/programs/
crimeindicators/crimeindicators2008/index.asp
    Page 4 of this report identifies eight surveys used in this report: 
National Crime Victimization Survey (NCVS); The School-Associated 
Violent Deaths Surveillance Study; School Crime Supplement (SCS) to the 
National Crime Victimization Survey; School Survey on Crime and Safety 
(SSOCS); Schools and Staffing Survey (SASS); Supplementary Homicide 
Reports (SHR); Web-based Injury Statistics Query and Reporting System 
Fatal; and Youth Risk Behavior Surveillance System (YRBSS).
    The authors state that, ``This report presents the most recent data 
available on school crime and student safety.'' The report also 
indicates that, ``The most recent data collection for each indicator 
varied by survey, from 2003-04 to 2007.'' While several surveys 
identify 2007 as their latest survey year, a number of last survey 
dates range in the 2003-2004 to 2005-2006 school year time period. This 
means data provided in the ``2008'' Indicators report (published in 
April of 2009) can be anywhere from two to six years behind the actual 
time the report is provided to legislators and the public. Even Table 
1.2 on school-associated violent deaths (page 75) footnotes that the 
2006-07 school death, ``Data are preliminary and subject to change.''
    The authors of the report are commended for their valiant effort to 
provide legislators, educators, and others a single point document on 
school crime and violence statistics. Readers who pay attention to the 
footnotes and disclaimers, however, will unfortunately find it 
difficult to easily make sense of the numbers, make meaningful 
comparisons, or identify long-term trends. Still, there is some value 
in continuing these surveys, and I support continuation of the surveys 
with the suggestion that the authors attempt to create some long-term 
stability in definitions, data comparisons, and trend analysis.
    [As a side note, it is more important for local education agencies 
to conduct annual, ongoing surveys of students, staff, parents, safety 
officials, and others in their local school communities. These surveys 
should be developed to gauge key issues related to school safety 
threats and strategies, to identify local trends, and to develop 
prevention strategies. Federal funding for use in creating local and 
regional surveys on school safety and associated issues is encouraged.]
    With respect to the federal Indicators report, the most important 
points in this annual document rest in the footnotes, appendices, and 
narratives describing the limitations of the data. The report is 
peppered with disclaimers and limitations of the data therein, 
including warnings such as:
    ``The report is not intended to be an exhaustive compilation of 
school crime and safety information * * *;''
    ``The dashed horizontal line indicates a break in trend due to a 
redesign of the methods used to measure victimization in the 2006 
National Crime Victimization Survey (NCVS). Due to this redesign, 
please use caution when comparing 2006 estimates with estimates of 
earlier years;''
    ``Several indicators in this report are based on self-reported 
survey data. Readers should note that limitations inherent to self-
reported data may affect estimates * * * These and other factors may 
affect the precision of the estimates based on these surveys.''
    ``Data trends are discussed in this report when possible. Where 
trends are not discussed, either the data are not available in earlier 
surveys or the wording of the survey question changed from year to 
year, eliminating the ability to discuss any trend;'' and
    ``The combination of multiple, independent sources of data provides 
a broad perspective on school crime and safety that could not be 
achieved through any single source of information. However, readers 
should be cautious when comparing data from different sources. While 
every effort has been made to keep key definitions consistent across 
indicators, differences in samples procedures, populations, time 
periods, and question phrasing can all affect the comparability of 
results * * * In addition, different indicators contain various 
approaches to the analysis of school crime data and, therefore, will 
show different perspectives on school crime.''
    These are only a sample of disclaimers. Appendix A to the document 
contains the data and report disclaimers. See more online at http://
nces.ed.gov/programs/crimeindicators/crimeindicators2008/pdf/2009022--
app--a.pdf
    Unfortunately, policymakers, educators, the media, and others 
looking at school crime and violence data and trends often fail to read 
the ``small print'' in the footnotes and appendices. Instead, due to 
the busy nature of their work, they typically take at face value quick 
facts or trends gleaned in a snippet from the report. The end product 
is policy and funding decisions made based upon extremely limited data 
and claimed trends, often with policy emphasis on issues that may not 
warrant such attention, and funding cuts to school safety programs 
where sustained or expanded funding may actually be what is needed on 
the front lines in our schools.
    Many in Congress are also likely unaware that data from the Gun 
Free Schools Act (GFSA) passed by Congress many years ago is limited 
due to loopholes in reporting. The GFSA requires local education 
agencies to report to their state education agencies the number of 
students expelled for gun offenses on campuses. The key words are 
``students'' and ``expelled.''
    Schools do not have to report non-students (adults, trespassers, 
parents, etc.) arrested on campuses with firearms because they are not 
students. Reporting would also not be required for students who are 
already expelled due to other offenses but return to campus with a 
firearm. There are also questions as to whether special education 
students apprehended with firearms are all being reported under GFSA 
since their disabilities may technically not result in an ``expulsion'' 
from school, but instead may result in modified educational placements 
and services at home or elsewhere which do not technically constitute 
an ``expulsion'' per se.
    This means that even the federal data from GFSA reports understate 
the actual number of cases of firearms cases occurring on our nation's 
K-12 school campuses.
    School crimes are also underreported to police, states, and local 
school communities. It is commonly accepted by most school safety 
professionals that school officials have historically underreported to 
local police crimes which occur on campus. While this sometimes has 
occurred because school officials honestly fail to distinguish crimes 
from violations of school rules, it also has occurred far too often 
because school officials are concerned about protecting the image of 
their schools and believe they will draw adverse media and public 
attention to their school by reporting incidents to the police.
    I conducted four annual surveys of over 700 school-based police 
officers per year, for each year from 2001 through 2004. In these four 
surveys, I found 84% to 89% of school-based officers indicating it is 
their professional belief that crimes occurring in schools have gone 
unreported to law enforcement. See www.schoolsecurity.org/resources/
nasro--survey--2004.html
    We also know that school discipline and crime data is often 
inaccurately reported to state education agencies which require local 
districts to file such reports annually. While many local districts are 
quick to claim innocent misunderstandings of report definitions and 
problems with the reporting mechanisms, it is fair to believe that some 
intentional underreporting is occurring as well. For a number of 
investigative news stories and more background on school crime 
underreporting, see our web page at www.schoolsecurity.org/trends/
school--crime--reporting.html
    I have no desire to be alarmist or to overstate the extent of 
school crime and violence in our nation's schools. However, it is clear 
school crime is underreported in general, and federal statistics 
grossly understate the extent of crime and violence on our nation's 
campuses. Policymakers relying upon such data are at high risk of 
making faulty school safety policy and funding decisions.
            Congress Can Strengthen School Safety by Improving Federal 
                    School Safety Data
    Improved federal school safety data would improve federal school 
safety policy and funding decisions. We cannot accurately identify 
school crime trends, and in turn develop meaningful prevention and 
intervention programs, without more accurate data.
    Developing accurate data has been a fundamental focus of 
establishing academic performance standards in No Child Left Behind and 
other educational discussions, and the same importance should also 
apply to school safety data.
    If we do not have accurate and timely federal data on high-profile 
violent crimes in schools such as school-associated violent deaths, 
robberies, sexual assaults, weapons incidents (firearms, bladed 
weapons, etc.), how will we ever expect to begin collecting more 
accurate data to address lower-level aggression and violence in schools 
such as bullying, verbal threats, fighting, etc.?
    Last session, H.R. 354, the Safe Schools Against Violence in 
Education (The ``SAVE'' Act), was introduced by The Honorable 
Congresswoman Carolyn McCarthy. I strongly encourage the Committee 
members and your colleagues to approve this type of act in the future. 
The SAVE Act called for meaningful and practical steps to improve 
accountability, accuracy, and transparency to our nation's parents and 
educators in the reporting of school crimes and violence. It also 
called for much better guidance on reporting school crimes, tightening 
of loopholes in the Gun Free Schools Act reporting, and the use of 
incident-based data (instead of just perception and opinion-based data 
from surveys) in determining safe climates for academic achievement.
    The SAVE Act would close the loopholes in the Gun Free Schools Act 
by including reporting requirements for students who are already 
expelled, removed or suspended from school, as well as non-students who 
may bring a firearm on campus or on a school bus. Current law only 
requires reporting on students who have been expelled. The Act also 
required certification that data is accurate and reliable, an important 
component for improving accountability of those who report school crime 
data who may otherwise be tempted to underreport.
    The SAVE Act required states to use already available data from the 
FBI's National Incident Based Reporting System (NIBRS) in determining 
what is now known as ``persistently dangerous schools'', a label that 
The SAVE Act would modify to ``safe climate for academic achievement'' 
options to remove the stigma of ``persistently dangerous'' which 
encourages underreporting by local schools. The introduction of NIBRS 
data into school safety policy and funding decisions would provide the 
first meaningful effort to shift the conversation on school safety from 
one based upon perception and opinion surveys, to incident-based data 
on real crimes that actually occur at our nation's schools. Congress, 
state legislators, and local educators could have a data source on 
school crime based upon real incidents occurring in our schools, rather 
than solely relying on the perceptions and opinions of a limited 
population tapped for academic surveys.
    The SAVE Act required no new bureaucracies or overwhelming 
budgetary expenditures to collect school incident data. It simply 
called for breaking out existing data in a manner to identify crimes 
occurring at K-12 schools. It reflects no invasion of privacy, and 
focused on incident-based data, not individual-based data (a record of 
the number of incidents that occur).
Comprehensive school safety policies, programs, and funding
            Framing a Comprehensive Approach to School Safety
    There is no single cause of school violence, nor is there any 
single solution. Too often, genuinely concerned individuals ranging 
from parents to legislators blame one particular factor for causing 
school violence (gangs, bullying, deficient home lives, etc.) and one 
particular solution (more metal detectors and security equipment, more 
anti-bullying programs, more prevention, etc.). High-profile incidents 
in the media often lead to ``legislation by anecdote'' and, 
corresponding policy and appropriation decisions of a single-issue and 
single-program focus.
    Today's school administrators must be prepared to deal with a broad 
continuum of school safety threats. These threats to safe schools 
include bullying, verbal and physical aggression, and fighting on one 
end of the continuum, to weather and natural disasters, non-student 
intruders on campus, irate parent violence, spillover of community-
originating violence, to-and-from school attacks on students, gang 
violence, stabbing incidents, school shootings, and terrorist threats 
to schools on the other extreme. Just as these threats span a wide, 
broad continuum, so must the scope and depth of school safety 
prevention, intervention, security, and emergency preparedness 
strategies to prevent and manage these threats.
    Federal school safety policy, programs, and funding, just like that 
at the state and local education level, must therefore be based upon an 
approach and framework which is comprehensive and balanced. Too often, 
school safety advocates call for ``more prevention'' OR ``better 
security.'' The real answer should be ``more prevention'' AND ``better 
security.'' Effective approaches to school safety include prevention, 
security, and preparedness measures, not a curriculum-only or security-
only approach. An overemphasis and narrow focus on bullying or gangs 
alone is no more effective than an overemphasis on security equipment 
or more police in schools alone.
    Approaches to school safety must also be comprehensive in looking 
at where threats to student and staff safety may arise. Crime and 
violence impact students and the entire school-community not only 
within the school campus boundaries, but also to-and-from school, on 
school buses, and at school-sponsored events. Too often we have seen 
education officials quick to point out which side of the school 
property line a student shooting occurred (across the street or a block 
away instead of inside the campus property line), yet shootings at the 
bus stop, incidents to-and-from school, athletic event violence, etc. 
has a profound disruptive impact on school operations due to student, 
parent, and staff anxiety and fear from the incident.
    While our discussions herein focus on K-12 settings, we must also 
recognize that a growing number of pre-school, Head Start, and other 
early childhood programs face safety threats. Non-custodial parent 
issues, stranger danger, and other threats to our youngest of children 
warrant consideration in school safety prevention, security, and 
preparedness planning. Many early childhood programs operate within 
elementary and secondary school buildings where regular classes are 
occurring, in separate K-12 school district stand alone buildings, and 
in community-based sites such as former businesses and store-fronts 
with challenging physical facilities, poor physical security measures, 
and no emergency preparedness training or plans.
    We cannot have rollercoaster school safety policy and funding at 
any level of government. Throwing money at school safety after a high-
profile incident is no wiser than is cutting school safety funding when 
there is not a tragedy in the headlines. School safety policy, 
programming, and funding must be ongoing, sustained, and reasonably 
funded for the long haul.
            Bullying, Discipline, and School Climate
    Bullying is a serious issue worthy of reasonable attention, 
awareness, and action. Bullying is one of many factors which must be 
taken into consideration in developing safe schools prevention, 
intervention, and enforcement plans. Bully-prevention efforts and 
initiatives are one of many strategies that should be included in a 
comprehensive school safety program.
    Anti-bullying strategies should include prevention and intervention 
programs, and also adult supervision and security measures. Dr. Ronald 
Pitner, Ph.D., assistant professor of social work at Washington 
University in St. Louis, concluded in a bullying study that schools 
must focus on the physical context of the school. Dr. Pitner noted that 
bullying and school violence in general typically occur in predictable 
locations within schools, specifically unmonitored areas such as 
hallways, restrooms, stairwells, and playgrounds. He found schools can 
cut down on violence if they identify specific ``hotspots'' within 
schools where students feel violence is likely to occur.
    ``Although this approach will not completely eliminate bullying, 
research has shown that it would at least cut down on the areas where 
violence is likely to occur,'' he was attributed as saying. His 
recommendation: ``This focus underscores the importance of viewing 
school bullying as both an individual- and organizational-level 
phenomenon.''
    There is also a relationship between anti-bullying efforts and 
school discipline. In a study conducted by psychiatrists at The 
Menninger Clinic in Houston, nearly half of elementary school teachers 
admitted to bullying students. Most attributed it to a lack of 
classroom discipline, according to one news report on the study. While 
I absolutely do not believe that our teachers are intentionally harming 
or intimidating students, the reference to classroom discipline 
warrants recognition as one important contributor in providing 
emotionally and physically safe schools.
    In the past decade, we have heard of ``zero tolerance'' policies 
which result in the administration of questionable disciplinary action 
against students in our schools. No one can dispute that there have 
been a number of anecdotal cases of questionable discipline where 
students have been given extreme disciplinary consequences 
(suspensions, expulsions, criminal prosecution referrals, etc.) for 
what appear to be relatively minor offenses. The vast majority of 
school principals, assistant principals, deans, and related 
administrators I have met in my career strive for firm, fair, and 
consistent discipline applied with good common sense.
    It is impossible to legislate common sense. We must also be careful 
not to foster environments where educators fear administering 
reasonable discipline out of pressure to keep their disciplinary 
statistics low and their image on the high. Therefore, we must insure 
that schools have well designed and clearly published due process 
mechanisms for students and parents to engage to challenge questionable 
disciplinary action. Effective school due process/appeals measures, 
along with our courts of law, will be the most logical forum for 
questionable discipline to be challenged.
    Legislative bodies can, however, help improve school discipline and 
prevent extreme disciplinary actions by supporting professional 
development training for school administrators on school discipline, 
student behavior management, violence prevention, proactive school 
security, and crisis preparedness issues. There is substantial turnover 
in school principals, assistant principals, and deans today due to a 
wave of career school administrators who are retiring out. New school 
administrators cannot simply be handed the building keys, a two-way 
radio, and a student handbook, and told, ``Go for it.'' They need 
professional development training, coaching, and support to be the most 
effective and fair administrators possible.
    ``Bullying'' often refers to verbal, physical, or other acts 
committed by a student to harass, intimidate, or cause harm to another 
student. The behaviors attributed to bullying include verbal threats, 
menacing, harassment, intimidation, assaults, extortion, disruption of 
the school environment, and associated disorderly conduct. In defining 
bullying, the focus should be on specific inappropriate behaviors 
rather than a generic, undefined label of bullying.
    The vast majority, if not all, schools in the nation have 
disciplinary policies to address behaviors such as making verbal 
threats, harassment, assaults, intimidation, extortion, disruptive 
behavior, etc. School policies, parent/student handbooks, and related 
student conduct codes typically outline such inappropriate behaviors 
and corresponding disciplinary consequences.
    Schools nationwide have also implemented school climate, prevention 
and intervention programs, and other school improvement strategies to 
prevent and manage bullying behaviors and improve overall school 
climate, especially post-Columbine. In many school districts, 
superintendents and principals are required to submit school climate, 
school safety, and school improvement plans each year which are 
included in their annual performance reviews. Anti-bullying and school 
climate strategies are emphasized in the vast majority of schools we 
work in each school year.
    The aforementioned studies, along with my 25 years of experience in 
school safety, reinforce that having firm, fair, and consistent 
discipline enforcement in our schools reduces the likelihood of crime 
and violence, including bullying. School climate and improvement plans 
should also include anti-bullying strategies. Discipline and school 
climate strategies, combined with balanced and reasonable security 
measures targeting ``hot spots'' where bullying occurs, can create a 
safer and more secure climate. This can in turn reduce the likelihood 
of bullying, disciplinary violations, violence, and school crime.
    We must also invest in providing better physical and mental health 
support to our students. Two recently released books, one by Dr. Peter 
Langman, a Pennsylvania child psychologist, and another widely cited 
book by journalist Dave Cullen, emphasize that mental health disorders 
were largely attributable to the Columbine shooters and other school 
violence perpetrators. One lesson learned from many of the school 
shootings and other acts of school violence is that the perpetrators 
often have undiagnosed and/or untreated mental health issues.
    Children also cannot be expected to focus on academics if they have 
unaddressed physical health issues. Thus, the importance of our school 
counselors, psychologists, and nurses must be reflected in school 
support service staffing. Their services are directly related to 
providing safe schools. Too often these professional support personnel 
are grossly understaffed and spread so thinly across school districts 
that it is nearly impossible to provide the scope and depth of services 
needed to reasonably serve students.
            Elements of a Comprehensive School Safety Program
    Elements of a comprehensive and balanced school safety program 
include:
    <bullet> School climate strategies stressing order and structure, 
respect, trust, diversity, school ownership, peaceful resolution of 
conflicts, and related characteristics
    <bullet> Incident-based data collection and analysis of discipline, 
crime, and violence incidents, supplemented by student, staff, and 
school-community survey-based data
    <bullet> Firm, fair, and consistent discipline
    <bullet> Adult supervision, adult visibility, and positive adult 
relationships with students
    <bullet> Effective prevention and intervention programs
    <bullet> Mental and physical health support services
    <bullet> Strong academic programs with diverse extracurricular 
activities
    <bullet> Student-led school safety involvement and safety training
    <bullet> Parental and community involvement and networking, and 
parent training
    <bullet> Professional development training for teachers, 
administrators, and school support staff (secretaries, custodians, bus 
drivers, food service staff, security and police staff, etc.)
    <bullet> Proactive security measures (physical security measures, 
security technology, security/ police staffing, crime prevention 
policies and procedures, awareness training, etc.)
    <bullet> Emergency / crisis preparedness planning, exercising, and 
training
    <bullet> Strong partnerships with police, fire, emergency medical 
services, emergency management agencies, mental health providers, 
public health agencies, local and regional public officials, and other 
key community-based organizations.
    Security technology can be a helpful component of a comprehensive 
school safety program. However, any security equipment must be a 
supplement to, but not a substitute for, a more comprehensive school 
safety approach. The first and best line of defense in school safety 
will always be a well-trained, highly-alert staff and student body.
    Federal school safety policies, programming, and funding must 
reflect a framework which is comprehensive and balanced. An 
overemphasis on any single approach will detract from productive, 
sustained, and meaningful long-term school safety policy.
How Congress and the administration can improve school safety
    This Congress and administration have a unique opportunity to 
stimulate a renewed priority and redefined approach to federal school 
safety, security, and emergency preparedness policy, programming, and 
funding.
    Before discussing what schools need, it worth noting what schools 
do NOT need related to school safety. School and public safety 
officials do NOT need more studies, manuals, guides, templates, web 
sites, and regurgitation of best practices. They also do NOT need more 
centers, institutes, or federal contracted technical assistance 
providers.
    Best practices in school safety, security, and emergency 
preparedness are well documented. Schools need the limited federal 
resources for school safety to be channeled directly to local education 
agencies to help them implement these best practices. While schools 
cannot look at school safety as a grant-funded luxury and should 
incorporate prevention, security, and preparedness measures into their 
operating budgets in the long term, federal and state grants provide 
the seed money to stimulate school safety programs which otherwise may 
not be developed in a timely manner in many school districts.
    Congress and the Administration can further strengthen school 
safety, security, and emergency preparedness by:
    1. Providing school administrators with specific guidance from the 
U.S. Department of Education on how federal stimulus funds may be used 
for school safety, security, and emergency preparedness needs. 
Discussions and documents on the education stimulus funds to date have 
focused on academic achievement and school operations.
    2. Improving federal school safety data by incorporating more 
incident-based data into federal school safety data collection and by 
filling gaps and loopholes as described above in this testimony (see 
The SAVE Act and related recommendations). Improved federal school 
safety data will lead to improved federal school safety policy and 
funding.
    3. During the reauthorization of No Child Left Behind (NCLB):
    a. Address the unintended consequences of the ``persistently 
dangerous schools'' component of the original version of NCLB, which 
has encouraged the non-reporting of school crimes. ``Persistently 
dangerous'' has promoted crime underreporting, and puts forth a 
punitive label with no resources for improving school safety in those 
schools receiving this label.
    b. Incorporate strong and supportive school safety, security, and 
emergency preparedness components into the reauthorized NCLB. Aside 
from the ``persistently dangerous school'' component, the original NCLB 
contained nothing significant about safe schools.
    A reauthorized NCLB should include reasonable requirements and 
resources for comprehensive school safety, security, and emergency 
preparedness programs. School safety is directly related to academic 
achievement. Students cannot learn and teachers cannot teach at their 
maximum capacities if their thoughts and environments are consumed with 
concerns about safety. A strong school safety component in a 
reauthorized NCLB would benefit the whole child and would in turn 
strengthen opportunities for improved academic achievement.
    4. Ensure federal school safety policies, programming, and funding 
reflect a comprehensive and balanced framework designed around a 
continuum of threats to school safety and a corresponding continuum of 
comprehensive school safety strategies.
    a. Avoid single-cause, single-strategy legislation.
    b. Create a permanent interagency working group of representatives 
from the Departments of Education, Health and Human Services, Justice, 
and Homeland Security to establish a formal structure for 
communication, planning, policy, and funding decisions combining their 
respective expertise areas and disciplines related to school safety, 
security, and emergency preparedness. A periodic conversation or 
meeting, or a joint publication from these agencies is not enough. 
While each agency may in itself have a number of good school safety 
initiatives, coordination across agencies can lead to a more 
coordinated, comprehensive, and balanced federal approach to school 
safety. A permanent interagency working group, supported by state, 
local, and front-line experts in K-12 school safety, security, and 
emergency preparedness, can improve federal policy, program, and 
funding decisions on school safety and preparedness issues.
    c. Encourage coordination, collaboration, and cooperation on school 
safety issues by the Congressional Committee members and staff 
overseeing Education, Health and Human Services, Homeland Security, and 
Justice legislation and oversight.
    d. Increase requirements for federal school safety grant recipients 
to form partnerships, protocols, training, and joint planning among 
schools, first responders, mental health, public health, and other 
community partner agencies.
    e. Require education agency representation on federal, state, and 
local Homeland Security and emergency management advisory and 
coordinating committees. Schools and first responders must plan, 
prepare, and practice together.
    5. Provide improved support for existing federal school safety 
programs which work and, modify or replace programs deemed ineffective 
with new programs. When we identify ineffective programs, it is in the 
best interest of our students to replace them as soon as possible with 
programs that do work. We have a responsibility to prioritize school 
safety funding and ensure that our students benefit from effective 
programs.
    a. Two federal programs with very comprehensive approaches to 
school safety are the Readiness and Emergency Management for Schools 
(REMS) program (formerly Emergency Response and Crisis Management, 
ERCM), and the Safe Schools/Healthy Students program. The Department of 
Education is involved in funding of these programs. These programs 
encourage prevention, security, and preparedness strategies, long-term 
sustainability plans, and multi-agency collaboration on school safety, 
in their awarded grants. They have been well received by local school 
district recipients who have made meaningful progress under their grant 
awards. Funds for both programs declined over the past decade and 
should be considered for enhanced Congressional appropriations.
    b. The Secure Our Schools (SOS) grant under the Department of 
Justice has proven to be helpful to recipient school districts to 
address school security and emergency preparedness equipment and 
related needs. Congress should continue to support this program.
    c. Other helpful federal school safety funded initiatives have 
included School Resource Officer staffing and training programs 
(Justice); school transportation security (Homeland Security); and 
other drug and violence prevention programs (Education and, Health and 
Human Services) not referenced above.
    d. While Department of Education school safety programs funded 
under the ``National Programs'' component provide useful direct 
resources to local school district recipients, they can also 
unintentionally limit the access to federal school safety funds by 
smaller, rural and suburban school districts that do not have full-time 
professional grant writers or the resources and/or ability to contract 
professional grant writing services for pursuing national program 
competitive grants. Larger, urban school districts, and those more 
affluent school districts with professional grant writing resources, 
often have a skewed advantage over smaller, rural and suburban schools. 
Methods for leveling the playing field should be explored if Congress, 
the Administration, and the Department of Education continue to add 
competitive national programs over other types of funding.
Concluding comments
    Parents will forgive school and other public officials if school 
test scores go down. Parents are much less forgiving if something 
happens to the safety of their children which could have been prevented 
or better managed if it does occur. School safety is perhaps the only 
education priority over academic achievement in the eyes of parents, 
who understand that children must first be safe in order to learn.
    Congress and the Administration have a wonderful opportunity to 
reinvigorate and redefine federal school safety, security, and 
emergency preparedness data, policy, and programming. Congress and the 
Administration are well positioned to reverse a decade-long trend of 
reduced funding for school safety programs. I encourage you to act 
swiftly on school safety.
    I thank all of you for the honor of your invitation to present at 
this joint hearing today. I appreciate your leadership in holding this 
hearing, and would especially like to recognize Chairwoman McCarthy for 
her extraordinary leadership efforts and ongoing genuine commitment to 
school safety issues.
    I stand available to answer any questions now or in writing 
subsequent to this hearing.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Trump.
    Ms. Andrews?
    Could you move closer to the microphone?

  STATEMENT OF JOSIE ANDREWS, STUDENT, SCHOOL SAFETY ADVOCATE

    Ms. Josie Andrews. I wrote the screenplay and all songs for 
the movie with help from my sister, Jackie, as a co-author of 
the two songs. And I know that you said, Ms. Chairwoman, that 
parents need to become proactive about bullying, but I also 
think that children do.
    I wrote ``Milo J High'' because bullying has become an 
extremely important issue for kids and teens. Almost everyone 
goes through it in some form, including me.
    Some kids experience bullying as a victim, being tormented 
physically and emotionally. Victims sometimes seem to be 
victims because they can't or won't stand up for themselves, 
but bullying is not the fault of the victim. Very often, when 
victims attempt to stand up for themselves, they are attacked 
verbally and physically, and they suffer terrible consequences.
    There is always a ringleader who initiates bullying of the 
victim. Bullies aren't necessarily always the boy who is bigger 
than all the other kids and takes people's lunch money. The 
bully can also be the girl who makes mean comments about and to 
everyone and seems to get away with it and still be very 
popular.
    But I don't think either of these two classifications of 
kids is the most important when we talk about understanding 
bullying. I think the people who play the most important part 
in bullying are the bystanders, the 99 percent of all the other 
kids, who know that it is wrong, but don't do anything about 
it. Those are the kids who can make the difference, and these 
are the kids who are the target audience of ``Milo J High.''
    In most anti-bullying programs I have seen go through my 
school, the bully always gets caught in the end or realizes 
what they are doing is wrong, or the victim all of a sudden 
overthrows the bully and tells an adult, who solves the 
problem.
    Or these approaches don't really work in real life. The 
victim is a victim because they can't stand up for themselves 
by themselves, and no one ever helps them. A lot of bystanders 
in a bullying situation will say, ``I am just staying out of 
this,'' making parents and teachers proud of how they avoid the 
drama.
    In reality, their non-involvement is increasing the 
problem. By doing nothing when you know something is wrong, you 
are making the problem a lot worse. A lot of kids don't want to 
say anything to the bully, because they are friends with the 
bully or they don't want to lose popularity.
    The story of the bystanders is what ``Milo J High'' is 
about. And if one person tries to stand up, they will be 
crushed just like the victim. But when the 99 percent of the 
school, who knows bullying is wrong, stands for what together 
what they think is right, the bully doesn't have a fighting 
chance.
    Bullying can start as something, making a hurtful comment, 
or building emotional scars for life, even murder and suicide. 
Bullying continues because the victims feel like they are 
alone. If the bystanders do what is right, even if by less 
popularity or losing friends who weren't even your friends in 
the real first place, the bullies--or the victims will realize 
that they are never really alone.
    That is the message of ``Milo J High,'' and that is the 
basis of the work my sister and I have done together. And now I 
am going to turn it over to her.
    [The statement of Ms. Andrews follows:]

                  Prepared Statement of Josie Andrews

    My name is Josie Andrews. I am the writer of the screenplay and 
music of ``Milo J High,''' an upcoming musical movie about bullying. I 
wrote the screenplay and all ten songs for the movie, with help from my 
sister Jackie as a coauthor of two songs.
    I wrote Milo J High because bullying has become an extremely 
important issue for kids and teens. Almost everyone goes through it in 
some form. Some kids experience bullying as a victim, being tormented 
physically and emotionally. Victims sometimes seem to be victims 
because they can't or won't stand up for themselves, but bullying is 
not the fault of the victim. Very often when victims attempt to stand 
up for themselves, they are attacked verbally and physically and they 
suffer terrible consequences. There is always a ring leader who 
initiates the bullying of the victim. Bullies aren't necessarily always 
the boy who is bigger than all the other kids and takes peoples' lunch 
money. The bully can also be the girl who makes mean comments about and 
to everyone and seems to get away with it and still be very popular. 
But I don't think either of these two classifications of kids is the 
most important when we try to understand bullying. I think the people 
who play the most important part in bullying are the bystanders--the 
ninety-nine percent of the kids who know that bullying is wrong but who 
don't do anything about it. Those are the kids who can make the 
difference.-and these kids are my target audience in Milo J High.
    In most anti bullying programs I've seen go through my school, the 
bully always gets caught in the end, or realizes what they're doing is 
wrong, or the victim all of the sudden overthrows the bully or tells an 
adult who solves the problem. These approaches almost never work in 
real life. The victim is a victim because they can't stand up for 
themselves by themselves and no one ever helps them. A lot of 
bystanders in a bullying situation will say ``I'm staying out of this'' 
making parents and teachers proud of how they avoid drama. In reality, 
their non-involvement is what is increasing the problem. By doing 
nothing when you know something is wrong, you are making the problem a 
lot worse. A lot of kids don't want to say anything to the bully 
because they are friends with the bully and don't want to lose their 
popularity.
    The story of the bystanders is the key to the story of. ``Milo J 
High.'' The main character is an eighth grader named Josie. Josie's 
really a nice person, but she's in the popular group and one of the 
bully (Bryce's) best friends. When an overweight new girl, Wendy, moves 
to town, all she is looking for is to make a friend. She tries to 
befriend the popular girls who bluntly blow her off. When Wendy is 
persistent at trying to become friends with the ``it girls,'' they 
start targeting and aggressively making fun of her. When a popular girl 
named Kay starts to feel bad and tries to be nice to Wendy, she loses 
all of the popular girls as friends. Josie is too scared after seeing 
what happened to Kay to stand up for Wendy, so she starts instant 
messaging her through a restricted screen name as her secret friend, 
signing off with her signature ``xoxo pink.'' Wendy carries the print-
outs of these conversations around at school like her only friend and 
when the popular girls discover Josie's signature at the bottom, they 
are outraged because she's betrayed them and they decide that Josie 
deserves pay back. They tell Wendy that her secret friend is Josie and 
that Josie's messages were just part of a cruel joke. Wendy is very 
saddened by this news, and almost commits suicide until Josie promises 
her it's not a joke and that she will show Wendy her true friendship at 
the dance that night. Josie befriends every kid who has ever been 
bullied by the popular clique and walks into the dance to see her 
conversations with Wendy projected on the walls--but she also realizes 
that half of the conversations weren't from her. To everyone's 
surprise, it turned out a lot of kids, even some of the popular ones, 
had also been Wendy's secret friends. They were all afraid to be her 
friend publicly for the same reason Josie was afraid. But when Josie 
stands up for Wendy, all the other bystanders join in, stand up, and 
tell the bully that her power over them is gone.
    If one person tries to stand up, they will be crushed just like the 
victim. But when that 99 percent of the school who knows bullying is 
wrong stands together for what is right, the bully doesn't have a 
fighting chance. Bullying can start as someone making a hurtful comment 
and build to emotional scars for life or even murder or suicide. 
Bullying continues because the victims feel like they are alone. If the 
bystanders do what's right, even if that risks popularity, or losing 
friends who weren't even real friends, everyone will realize that 
they're never alone. That is the message of Milo J High and that is the 
basis of the work my sister and I have done together in our anti-
bullying campaign. Thank you and I look forward to your questions.
                                 ______
                                 

STATEMENT OF JACQUELYN ANDREWS, STUDENT, SCHOOL SAFETY ADVOCATE

    Ms. Jacquelyn Andrews. Thank you.
    My name is Jacquelyn Andrews. I am 16 years old, and I go 
to the Lawrenceville School. I have spent the last 3 years 
focusing on a program that focuses on the 99.9 percent of the 
people who can make a difference in the bully in the victim's 
life, the bystanders.
    I would like to tell you about a personal experience. In my 
grade school I knew this one girl who she and her best friend 
were the most popular girls in school. One day in fourth grade, 
her best friend was bullying this girl who was slightly 
overweight. This girl was disgusted by her best friend's 
actions and she did not take for this, so she went and said 
something to her best friend.
    I, too, have experienced the pain. I was the victim of 
bullying myself. I have experienced the pain and the suffering 
caused by a bully from a bully in fourth grade, even though at 
school I used to be best friends with this girl.
    One day in fourth grade, my best friend was brutally 
picking on this girl who was slightly overweight. Disgusted by 
my friend's actions, I decided to stand up for the victim, 
which ultimately led me to be the victim myself. If just one 
other person had stood up behind me, the bully never would have 
prevailed. But no one did.
    Ironically, the victim stood up--ironically, the victim I 
had stood up for became the bully's best friend, and I became 
the target. The bystanders just watched.
    The anti-bullying curriculum that I have created is based 
on a three-step program focusing on grades three through four, 
five through six, and seven through eight. While much bullying 
occurs in grades five and in eight--I believe it is crucial 
that we reach students in third and fourth grade.
    The programs are designed for 30 hours per year. The lower 
grade curriculum includes requiring students to draw and write 
picture books about how to form alliances against bullies, 
creating and signing creeds, posted--and buddy systems.
    The higher grade curriculum includes requiring students to 
read and summarize entries by bullied students on international 
Web sites and to create stories about how these students suffer 
in the end. So I also agree about what my curriculum emphasizes 
on how bystanders can make the right choice and become a part 
of the solution to the bullying crisis.
    This group can grow out of the message of my sister's 
upcoming movie, ``Milo J High.'' After I co-wrote some of the 
songs for the movie, I decided to take the next step and 
develop the program, which hopefully will lead to major 
improvements in the way that our school teaches about the 
academic of bullying.
    Bystanders need to stand up to a bully and change another 
life. Each day each one of us can be that person who takes a 
stand. Every day we have decisions to make. Yesterday another 
person was bullied because no one chose to do anything. Today 
is the day we stand up. Tomorrow, one less child is a victim.
    Thank you for this opportunity.
    [The statement of Ms. Andrews follows:]

                Prepared Statement of Jacquelyn Andrews

    My name is Jackie Andrews, and I am 16 years old. I am from Haddon 
Heights, New Jersey, and I am a student at The Lawrenceville School. I 
am here today to talk about my work against the national epidemic of 
bullying.
    When it comes to bullying, it takes ONE VOICE.
    It's not about the victim who needs a voice or the bully who the 
bully to find a brain, it's about the 99.9% who know that bullying is 
wrong, yet do nothing.
    A victim is a victim because he can't stand up for himself. Bullies 
take the actions they do because they don't know what they are doing is 
wrong. What this world needs is to stop focusing only on the victim's 
effort to stand up for himself or the bully's effort to realize what he 
is doing is wrong and become nice--we have tried these approaches in 
the past and they too often have been ineffective. A future without 
bullying is dependent on the 99.9% of the people who can make a 
difference--the people who know that bullying is wrong, but who have 
thus far have done nothing to stop it. In my book, this 99.9 percent is 
as bad as the bully himself because the bully doesn't know better * * * 
they do.
    We are experiencing an epidemic of bullying among the young people 
of our nation. Shocking numbers of young people report frequent and 
recurring instances of verbal and psychological abuse. Bullying is a 
problem that cuts across racial, economic, religious and other social 
categories, and results in the mounting tragedy of depression, 
substance abuse, suicide, and retaliatory violence. In recognition of 
this problem, at least 28 states have adopted a legal requirement that 
schools incorporate anti-bullying programs into their curricula. To 
date, these programs have largely failed to stem the tide of the 
bullying epidemic.
    I have spent the last three years creating an anti-bullying program 
that focuses more on the 99.9% of the people who can make a difference 
in a bully and a victim's life: the bystanders. My program is based on 
painful personal experiences. I was a victim of bullying myself. I have 
experienced the pain and suffering caused by a bully from as early as 
4th grade. In grade school, I used to be best friends with the school's 
bully. One day in 4th grade, my best friend was brutally picking on 
this girl who was slightly overweight. Disgusted by my friend's 
actions, I decided to stand up for the victim, which ultimately led me 
to be the victim myself. If just one person other person had stood 
behind me, the bully never would have prevailed. But no one did. 
Ironically, the victim I stood up for stopped being the target and soon 
became the new best friend of the bully, while I became the target. The 
bystanders, meanwhile, just watched.
    The anti-bullying curriculum I have created is based on a three 
step program focusing on grades 3-4, 5-6 and 7-8. While much bullying 
occurs in grades 5-8, I believe it is crucial that we reach students in 
the 3rd and 4th grade. The programs are designed for 30 hours per year. 
The lower grade curriculum includes requiring students to draw and 
write picture books about how to form alliances against bullies, 
creating and signing creeds, poster contests, and ``buddy systems.'' 
The higher grade curriculum includes requiring students to read and 
synopsize entries by bullied students on international websites and to 
create stories about how these students' suffering began. For all three 
grade levels, my curriculum emphasizes how bystanders can make the 
right choice and become a part of the solution to the bullying crisis. 
This curriculum grew out of the message of my sister's upcoming movie 
``Milo J High.'' After I co-wrote some of the songs in the movie, I 
decided to take the next step and to develop my program, which 
hopefully will lead to major improvements in the way our schools teach 
about the epidemic of bullying.
    Bystanders need to stand up to a bully and change another's life 
forever. Each day, each one of us can be that person who takes a stand. 
Every day we have decisions to make. Yesterday one more person was 
bullied because one more person chose to do nothing. Today is the day 
we stand up. Tomorrow, one less child is a victim.
    Thank you for this opportunity, and I look forward to your 
questions.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    Ms. Kaufmann?

STATEMENT OF RONA KAUFMANN, PRINCIPAL, WILLIAM PENN SENIOR HIGH 
                             SCHOOL

    Ms. Kaufmann. Chairwoman McCarthy, Ranking Member Platts 
and members of this Subcommittee on Healthy Families and 
Communities and the Subcommittee on Early Childhood Elementary 
and Secondary Education, thank you for inviting me to testify 
today.
    I am Rona Kaufmann, principal of William Penn Senior High 
School in York, Pennsylvania. A longtime educator--28 years, 
the last 6 as a secondary principal--I can tell you I have a 
sincere passion for urban education. The middle school that I 
served from 2003 to 2008 contains a diverse population of 
students with excessive discipline problems, and upon my 
arrival I found there to be violence, intimidation and gang 
presence.
    There was, however, a core group of teachers there. We 
formed a school leadership team and believed that character 
could be delivered by everyone in the school. Our basic beliefs 
about school climate and its connection to character education 
drove us on a path that took us about 5 years.
    We infused character education into our daily routines and 
rituals. We started this slowly with morning announcements--
make it a great day or not, the choice is yours--with lots of 
wisdom from lots of wise people.
    We recognized and model positive character traits and 
incorporated them into our daily practice. We taught decision-
making skills, facilitated discussions about and practice of 
proper manners, and delivered lessons on establishing trust and 
building relationships, also on community building and being a 
part of something larger than yourself.
    We encouraged student participation in and ownership of our 
school. We created a student news desk that delivered news 
daily and focused on positive things that were happening in our 
school. We also created a student security team, students who 
patrolled our halls and made sure that everything was going 
well.
    We held community events and celebrated our diversity, from 
``Dancing with the Stars'' for National Hispanic Heritage Month 
to our soul food cook-off during Black History Month. We asked 
the community to join us in our efforts.
    And then something miraculous happened. We opened our 
character education room. We talked self-discovery, self-
control. We taught students how to personally interact with 
each other in a positive way. We examined real urban 
neighborhood problems with our students and developed and 
expanded their repertoire of positive social and interpersonal 
skills.
    Those universal values that we all know and love--we 
emphasize those throughout the school with character education 
rooms serving as our hub. We initiated a school wide effective 
behavior support program, gave students incentives for doing 
good things.
    We reinstituted a peer mediation program and conflict 
resolution program. Our home-school communication encouraged 
our community members to engage. We had a healthy backpack 
initiative and sponsored other service learning projects--as a 
result, 60 percent reduction in discipline referrals.
    They went from 5,000 upon my arrival, and that is annually, 
to less than 1,200. It was a climate shift--positive 
descriptions of students. There was no vandalism, no graffiti. 
The halls were quieter and calmer. They were fewer physical 
confrontations and less reported incidents of bullying in our 
school.
    Our character education teacher, Angela Kirkessner, was 
nominated for an award to the Pennsylvania Rising Star of 
Teaching in September of 2008, and we now serve at Hannah Penn 
as a model program for other urban middle schools in 
Pennsylvania.
    I have expanded it to our high school, because I wanted to 
take it with me when I transferred there in September. Serious 
incidents were down this year. The number of fights were 
significantly reduced this year. Our district is hoping to 
expand our character ed initiative to our other secondary 
schools, including our alternative building.
    The core purpose of public education is to prepare our 
students for citizenship in a democratic and diverse society. 
Cooperative learning, direct teaching of social and emotional 
skills, and mentoring are key pieces of any character education 
program.
    Relationship building forms the foundation of a caring 
community, where values are practiced daily in and out of the 
classroom, and service learning abounds. True learning 
community is what can be created with character education as 
its hub in creating an environment in which every student can 
be respected and valued as a unique individual.
    Thank you.
    [The statement of Ms. Kaufmann follows:]

Prepared Statement of Rona C. Kaufmann, Principal, William Penn Senior 
                    High School, York, Pennsylvania

    Chairwoman McCarthy, Ranking Member Platts and members of the 
Subcommittee on Healthy Families and Communities and the Subcommittee 
on Early Childhood, Elementary and Secondary Education, thank you for 
inviting me to testify today. I am Rona Kaufmann, Principal of William 
Penn Senior High School in York, Pennsylvania.
Demographics and Research-Based Background Information
    The School District of the City of York encompasses five square 
miles and is responsible for educating approximately 6,000 students in 
Kindergarten through grade 12. The district is comprised of six 
elementary buildings, two middle schools, an alternative school serving 
students in grades six through nine, and one high school. From 2003 
until 2008, I served as the principal of Hannah Penn Middle School, the 
larger of the two district middle schools. Hannah Penn is a Title I 
school; 80% of the families are economically disadvantaged. The student 
population is 85% minority with a steadily growing Latino population.
    Discipline referrals for the first two years of my tenure totaled 
in excess of 5,000 annually and included 1,200 external and internal 
suspensions. We buried three students, two from gun shots. Staff 
turnover was historically high; however, there was a core group of 
strong, compassionate, dedicated teachers in the building. The School 
Leadership Team was formed.
    We agreed on some basic beliefs. We believe that we are all 
character educators, that individually and collectively, we help shape 
the character of the students with whom we come in contact daily. We 
also believe, as Greer (2007) suggests, that character education is 
directly connected to the school climate and takes time to develop. 
Together, we began to promote some traditions, rituals, and ceremonies. 
In addition, we pursued implementation of new programs and 
initiatives--one of those initiatives being the introduction of 
character education.
    We began to infuse character education into our daily routines 
slowly at Hannah Penn. Morning announcements included daily messages 
from Project Wisdom (2004), providing students with ``something to 
think about * * *'' as a start to their day. The school's physical 
environment was carefully maintained by the custodial department and 
staff members were expected to model positive character traits, two 
indicators found to be common across schools with high levels of 
academic achievement and thoughtful character education programs 
(Benninga, Berkowitz, Kuehn, & Smith, 2006). Students were introduced 
to common character traits, and designed and displayed posters 
representing these same character traits in the school cafeteria.
    From those basic beginnings, our character education initiative 
evolved and became more fully infused into the school curriculum. 
Students engaged in ethical decision making, were prompted and coached 
to exhibit proper manners, and received lessons on proper behavior and 
establishing community--keys to effective character education (Gilness, 
2003). Students were also expected to contribute to the school in 
meaningful ways. A Hannah Penn News Desk, from which morning 
announcements were delivered via close circuit, and an organized 
Student Security Team, a group of students who were responsible for 
patrolling the hallways and common areas for the safety of everyone, 
allowed students to gain ownership of their school. We celebrated our 
diversity with student-led programs in honor of National Hispanic 
Heritage Month and Black History Month. By design, the community played 
a significant role in our celebrations.
    During the 2007-2008 school year, our in-school suspension room was 
converted to a Character Education Room, staffed by a certified 
teacher, in which students were actively engaged in developing 
strategies to manage their attitudes, values, anger, and interactions 
with others. The character education teacher also engaged students in 
activities designed to promote self-discovery. Storytelling, use of 
picture books, and the incorporation of moral dilemmas into the 
curriculum provided opportunities for students to practice ethical 
decision-making and problem-solving. Real urban neighborhood problems 
were analyzed and openly discussed, as students were encouraged to 
expand their repertoire of positive social and interpersonal skills. 
Citizenship and service learning were components of the Character 
Education Room curriculum as well, both serving not only to make school 
and education more relevant to students, but to deepen learning through 
a process that provides time for reflection (Berger-Kaye, 2006).
    Universal values were introduced and integrated throughout the 
academic curriculum of the school, all connected back to the character 
hub of the school, the Character Education Room. The character 
education teacher initiated the discussion centered on the value for 
the month and shared ideas and strategies for its infusion across all 
content areas with the rest of the professional staff. For example, 
true historical stories in the Social Studies classroom were useful in 
engaging students to reflect upon values (Sanchez, 2006). Our character 
education teacher encouraged such storytelling and values-related 
discussions. In addition, school-wide behavior supports, including 
student recognition and a variety of incentives, were implemented to 
encourage students to make positive behavior choices. Peer mediation 
and conflict resolution skills were incorporated into the school 
culture. We tried to insure that good choices consistently yielded 
students positive recognition and privileges.
    Principal's Newsletters reserved space each month for character 
education topics and suggestions for follow-up activities or 
discussions at home. Parents were informed and expected to reinforce 
the desired behaviors and attitudes. This provided a more consistent, 
unified approach to the improvement of student behavior and school 
culture. We have engaged our surrounding community in supporting our 
efforts with regard to character education. For example, students 
worked in conjunction with the local food bank to deliver healthy food 
to needy families. Others participated in community-based service 
learning projects. By bridging social capital, we established shared 
responsibility for student character development and created links with 
social agencies so that student needs beyond the scope of the school 
community could be effectively addressed.
Evaluation and Additional Program Development
    At Hannah Penn, there was a 60% reduction in the number of 
discipline referrals in the school during the 2007-2008 school year. 
This was a noticeable and welcomed change. There was a significant 
climate shift in the building, one that was obvious to the staff 
members who had been present during the five years of my tenure.
    In end-of-the-year surveys, leadership team members described our 
students as more respectful, helpful, honest, and responsible. 
Vandalism in the school had virtually disappeared, students were 
quieter and calmer in the hallways, and there were fewer physical 
confrontations. Students reported less incidents of perceived bullying. 
Other urban middle schools sent staff members to visit our school and 
used our Character Education Room as a model on which to base their own 
programs. In September, Angila Kirkessner, the Hannah Penn character 
education teacher, received the Pennsylvania Rising Stars of Teaching 
award from the U.S. Department of Education.
    When I was reassigned to William Penn Senior High School at the 
beginning of the 2008-2009 school year due to the sudden resignation of 
the former principal, I was determined to take the character education 
initiative with me. I immediately began to infuse character education 
into the daily routine by delivering a Project Wisdom (2004) message 
using our WPTV news network each morning. The current central 
administration supported my request for the creation of a character 
education position for the high school and in January, our Character 
Education Room officially opened at William Penn. Staff feedback was 
very positive and the numbers of serious incidents and student fights 
significantly decreased during the school year.
    Due to the positive results from both the Hannah Penn and William 
Penn programs, the character education initiative in our district will 
be expanded for the upcoming school year. A second position has been 
created at the high school, and positions have also been created for 
the second middle school, Edgar Fahs Smith, as well as our district-
operated alternative school. Through collaborative work, the district 
character education teachers will be able to research, share, and 
implement best teaching practices aimed at our district's mission--to 
empower all learners to become responsible, productive citizens.
Conclusions and Recommendations
    The core purpose of public education is to prepare students for 
citizenship in a democratic and diverse society. Academic achievement 
and character education are critical to this core purpose and must 
exist side by side. In addition to delivering strong academic content 
through effective instructional strategies, teachers must model 
professionalism and caring behaviors. They must ask students to 
demonstrate caring for others, and exhibit positive character traits in 
the school setting.
    Effective programs build in structures for ongoing professional 
development. Character education is no exception. Cooperative learning, 
direct teaching of social-emotional skills, mentoring, and use of 
multiple strategies, along with integration into the academic 
curriculum, are all key components of character education programs. Of 
equal importance is a commitment to a multi-year process, as character 
education requires time and patience.
    Effective character education in the future is likely to be 
designed holistically, with integration of character traits and ethical 
thinking into every aspect of school life. In the School District of 
the City of York, we will continue to work towards this full infusion 
of character education into every aspect of our school community. 
Relationship building forms the foundation of any school and building a 
caring community captures the essence of the character education 
movement. In such a community, values become part of everyday lessons 
and are instructed and practiced in and out of the classroom. 
Hypothetical questions are posed and lead to productive ethical 
discussions. Service learning affords opportunities for transforming 
experiences, in addition to connecting students to the community at 
large. These are the key components of character education, the common 
denominator that will help schools reach their goals now and in the 
future.
                               references
Benninga, J.S., Berkowitz, M.W., Kuehn, P., & Smith, K. (2006, 
        February). Character and academics: What good schools do 
        [Electronic version]. Phi Delta Kappan, 87(6), 448-452.
Berger-Kaye, Cathryn. (2006). Service learning and literature: Creating 
        a dynamic, engaging school culture. Middle Ground, 10(2), 34-
        38.
Davidson, M., Lickona, T., & Khmelkov, V. (2007, November 14). Smart 
        and good schools: A paradigm shift for character education 
        [Electronic version]. Education Week, 27(12), 31, 40.
Gilness, J. (2003, November). How to integrate character education into 
        the curriculum. Phi Delta Kappan, 85(3), 243-245.
Greer, P.R. (2007, November 14). Character education on the cheap 
        [Electronic version]. Education Week, 27(12), 32, 40.
Project wisdom: Helping students make wiser choices. Series 2. (2004). 
        Bellaire, TX.
Sanchez, T. R. (2006). Harry Truman and the atomic bomb: An excursion 
        into character education through storytelling. American 
        Secondary Education, 35(1), 58-65.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Kaufmann.
    Mr. Riach?

STATEMENT OF STEVE RIACH, FOUNDER AND BOARD CHAIRMAN, HEART OF 
                     A CHAMPION FOUNDATION

    Mr. Riach. Chairwoman McCarthy, Chairman Kildee and Ranking 
Member Platts and distinguished members of the committee, I 
want to thank you for giving me the opportunity to come and 
share my testimony with you this morning. It is an honor to be 
here and share with you about our successful character 
development program called ``Heart of a Champion.''
    As the father of four, ages 18 to 5, I am not only good and 
busy, but I am also very thankful for all of you taking this 
subject very seriously and wanting to strengthen school safety, 
which is vitally important for our kids and for the future of 
our nation.
    Let me tell you a bit about Heart of a Champion. It is a 
nonprofit organization that was founded in 1997 by business 
leaders and sports team owners and other concerned individuals 
around the country, who had a desire to impact the lives of 
young people.
    In 1997 we began 4 years of extensive research with 
educators around the country and the Department of Education 
and other organizations, people like Linda McKay, who is in 
this room today, to find out what the landscape of character 
education was like in America. And we learned some very 
interesting things during that time that helped us shape our 
program.
    We were told by the undersecretary of education at that 
time that if we could hit on all five markers that we had 
learned about during our research time, that we would create a 
program that would be able to provide measurable results. And 
thankfully, over the last 8 years in 23 states and public 
schools, private schools, afterschool programs, juvenile 
justice facilities, we have seen just that.
    Let me tell you why I think I am here. It is to tell you 
what we have learned. One of the things that we have learned in 
our research was that students themselves recognize that the 
issue of school safety is not just an issue of what can be done 
with security guards, metal detectors and surveillance cameras.
    We conducted, along with two distinguished members from our 
home state, the state of Texas, state schools summits during 
our research time. And in those state schools summits, 
students, much like the Andrews sisters here, told us that 
emotional safety was every bit a concern as physical safety to 
them.
    In fact, when those students were polled about which items 
would create a safer environment on their campus, when they 
were asked about metal detectors and security guards and 
surveillance cameras, those individual items drew responses of 
between 11 and 23 percent of the students saying that they felt 
those would create a safer environment on their schools.
    When they were asked about a consistent character education 
program deployed consistently over a long period of time, that 
number shot up to 74 percent. Seventy-four percent of those 
students told us that in order to create a safe school 
environment, a consistent character education program was the 
real solution.
    Essentially, what they told us was if you can change the 
heart of the student sitting at the desk next to me, you will 
create a safer school. With that information we launched our 
program and have been privileged to work with wonderful 
partners, who have made this program very successful.
    The second thing that we learned was that we needed 
partners to make it successful, because education funding is at 
a minimum. Typically, when they go to a school and they look at 
our content, or they ask us to come and look at our curriculum, 
they say this is the best character education program we have 
ever seen. How much does it cost?
    When we tell them it is only $10 a student for the entire 
year, a 9-month curriculum used on a weekly basis, sometimes a 
daily basis throughout the school, and they say, ``That is 
amazing. How can you do it for $10 a student?'' And we say, 
``Well, we really truly are a nonprofit.''
    But then they say, ``We might not be able to afford that. 
We can only afford $1 or $4 or $3 a student. Can you help us 
find funding?''
    Thankfully, we have had partners like the Kansas City 
Chiefs or Houston Texans, NFL football teams or Express 
Employment Professionals or Coca-Cola or, in the case of one 
individual, Torii Hunter, a major league baseball player from 
the Los Angeles Angels in Anaheim, who said, ``I will put money 
in to underwrite my old school District in Pine Bluff, 
Arkansas, and I will also underwrite Orange County, where I 
play now, and Minneapolis, where I used to play, and Las 
Vegas'', where we work with the Andre Agassi Preparatory 
Academy.''
    It has been those sources, because funding has been cut, 
and I believe this year's budget zeroed out character 
education, those sources that have enabled students to receive 
this program. So that is the second thing we learned is that we 
need help in funding.
    The third thing we learned is that character education 
works; if it is effective, it creates change. Our program has 
created change across the board with attitudinal and behavioral 
changes positively in students of all types, all genders, all 
races, in high economic areas and in underserved areas.
    We have seen change. We have seen attitudinal and 
behavioral change. We have seen a decrease in violent 
behaviors. We have seen a decrease in referrals. We have seen a 
decrease in bullying. We have seen an increase--92 percent--in 
self-esteem in individuals. We have also seen, as a byproduct, 
an increase in GPAs by 47 percent.
    What we have learned throughout the process is that if we 
are really committed to seeing change in violent activities on 
school campuses, it takes more than addressing those issues 
that would be solved by security guards, surveillance cameras 
and metal detectors.
    It takes a dedicated effort to change the heart, as those 
students told us, the heart of the individual sitting in the 
desk next to me. And if I can change the heart, I can change 
the culture. And we have seen that from Grand Rapids, Michigan, 
to San Diego, California, to Tacoma, Washington, to New York 
City, to Rikers Island prison with the most violent teen 
offenders in the state of New York.
    Everywhere we have been, we have seen that change. And by 
changing the heart, we have changed the behavior and decreased 
violent behavior. I thank you so much for allowing me to be 
here, and I am happy to answer questions. And thank you for 
what you are doing.
    [The statement of Mr. Riach follows:]

Prepared Statement of Steve Riach, Founder and Board Member, Heart of a 
                          Champion Foundataion

    Chairwoman McCarthy, Chairman Kildee, Ranking Members Platts and 
Castle, and distinguished members of the Committee: It is an honor for 
me to provide testimony to you today on our very successful character 
development program called ``Heart of a Champion''. I wish to commend 
each of the Members for spending your time today on the topic of 
strengthening school safety which is vitally important to our children 
and the future of our nation.
    I was asked to testify today because the Heart of a Champion 
program is applicable to and proven to be equally successful in school 
environments, after-school programs, and juvenile justice settings. It 
has a proven record of success whose results have been independently 
verified and qualitatively measured. It is my view that bullying in our 
nation's schools can only effectively be minimized by addressing all of 
the underlying factors that a comprehensive character development 
program like Heart of a Champion identifies.
    Heart of a Champion Foundation is a nonprofit organization founded 
in 1997 by a group of business leaders and sports team owners who 
shared a common concern for the nation's youth and sought to find a way 
to make a positive impact on their culture. As we began to conduct 
extensive research, it became apparent that one of the most significant 
areas of need was for quality, effective character development programs 
that would instill character and ethics into young people.
    Our board and staff spent nearly four years researching and 
collaborating with educators from across the country, the Department of 
Education, and other agencies, to understand the landscape of character 
education in the U.S. These efforts provided us with answers to 
questions of efficacy regarding content, presentation and delivery of a 
successful character program. We came to the following five 
conclusions:
    1) In terms of demographics, the greatest area of need is at the 
middle school and junior high level. This was confirmed by the vast 
majority of educators with whom we worked, as well as the three-year 
study conducted by the United States Secret Service in the aftermath of 
the rash of school shootings in the late 1990's.
    2) Most character education programs lack the ability to engage 
students, particularly with this generation that we have called the 
``sight and sound'' generation.
    3) Most programs lack substantive content--content that would not 
only teach concepts, but also teach application of those concepts in a 
relevant way.
    4) Most programs lack a delivery model that was consistent and 
deployment that was long-term.
    5) Most programs have no mechanism to determine their efficacy.
    The Under Secretary of the Department of Education at that time 
made it clear to us that any program which could effectively address 
these deficiencies had a substantial chance to be successful in 
actually producing behavioral change.
    In 2001, following those guidelines after nearly four years in 
research and development, we launched the Heart of a Champion program 
in Plano, Texas and Brooklyn, New York, with two very diverse 
populations. One involved upper middle class students while the other 
involved underserved and predominantly minority students. The results 
in both cases were nearly identical in terms of attitudinal and 
behavioral change. The data validated that we had indeed achieved what 
had been asked to deliver.
    Since 2001, we have deployed the program to 23 states, with similar 
measurable results.
    What does this have to do with school safety issues? A lot, 
actually.
    At the genesis of our program we collaborated with two Members of 
Congress in our home state of Texas on Safe School Summits. At each of 
these summits 500 secondary school students convened to discuss school 
safety issues. The data derived from the students amazed even the 
Members.
    At both of these Safe School Summits, the students told us that 
when they go to school on a daily basis, they don't feel physically 
unsafe. The vast majority were not fearful of a Columbine incident, or 
of being accosted in the restroom. However, the vast majority did 
express feelings of emotional insecurity. Many felt there was no one 
they could trust, that they were not accepted, of that they couldn't 
connect. It was clear that greater safety issues were from emotional 
rather than physical concerns.
    When students were asked what elements would make them feel safer 
on campus, their answers corresponded to this revelation. When asked 
about security guards, hall monitors, surveillance cameras, and metal 
detectors 11-23% of students said each of these items would make them 
feel safer. Yet, when they were asked about the consistent deployment 
of a character program on campus, 74% of these students said this would 
make them feel safer.
    In post-survey focus groups, students summarized issues addressed 
at the Safe School Summit by explaining that only by changing the heart 
of the student sitting beside them could you create a safe school. 
Thus, the impetus for us to create the Heart of a Champion character 
development program.
    It was clear to us that students recognized that the heart of the 
problem was itself a heart problem. Physical safety is a byproduct of 
emotional safety.
    Much has been said and written about social and emotional 
intelligence over the past few years, but based on our work over the 
past 8 years, we believe that this is clearly the key to safer schools. 
Rather than focus on symptoms, the focus of programs must be on root 
cause behaviors to create any substantive and enduring change. We have 
seen this play out from the program's inception.
    Our assessments have produced empirical data which demonstrates 
that students who participate in the Heart of a Champion program 
realize significant attitudinal and behavioral change. In addition, our 
data also demonstrates a decrease in violent behavior, a decrease in 
drug and alcohol use, a decrease in referrals and in bullying 
incidents, and an increase in grade point averages. In addressing root 
cause issues and providing training in social and emotional 
intelligence, we are seeing proven, measureable change which we believe 
to be profound.
    The Heart of a Champion program is a comprehensive three-year 
curriculum, designed for implementation throughout a student's entire 
middle or junior high school experience. The program is taught 
throughout each nine-month school year, focusing on nine different core 
character traits each month: Commitment, Leadership, Perseverance, 
Teamwork, Respect, Integrity, Responsibility, Self Control or 
Compassion.
    Under each of these traits the curriculum highlights real people 
who have exemplified these attributes, and details the consequences of 
their actions. Rather than telling students what not to do, the Heart 
of a Champion program provides them with examples--or role models if 
you will--of those who have made good choices, and allows them to learn 
about, and discover first-hand, the results of such choices. The 
curriculum includes some recognizable individuals from sports and 
entertainment industries, such as Indianapolis Colts head coach Tony 
Dungy and musician Bono from the band U2. Some lesser known 
individuals, like Louis Daniels--a homeless student who ended up 
receiving a scholarship to Yale--are also highlighted in the program. 
There are even a few members of Congress in our materials.
    The men and women profiled in the program serve as models for the 
students and give them an ideal to shoot for and an idea of what they 
themselves can achieve. One of those role models has chosen to join me 
this morning and she is sitting right behind me. Anne Abernathy is a 6-
time Olympian known fondly as ``Grandma Luge'' she is the only female 
to compete in 6 Olympics and is the oldest female Olympic competitor in 
the history of the Games. Her story as an overcomer has captivated many 
students. She has beaten cancer once and has overcome 12 knee surgeries 
and several broken bones. She is now in the process of overcoming 
cancer a second time. She has joined me this morning in support of 
character education and in particular Heart of a Champion as a solution 
to the problem of school safety. Anne, thank you for being here.
    In the Heart of a Champion program, during each month, students 
work through a curriculum workbook focusing on one of the specific 
trait mentioned earlier. Each workbook contains weekly lessons delving 
deeply into a different aspect of that trait. With video segments, 
posters, online applications, critical thinking and decision-making 
exercises, and rewards and reinforcement elements being utilized on a 
weekly--and sometimes daily basis--students learn about character with 
the same frequency they do in any of their core subjects. With this 
degree of emphasis and consistency, students intuitively see that 
society values their depth of character as much their level of 
performance in the classroom.
    Heart of a Champion directly trains and certifies teachers, helping 
them to deliver the program as a normal part of their daily classroom 
activities, and proving to enhance the relationships that teachers have 
with students. Many have said, ``I feel like I am more than just a 
teacher now, I feel like I am making a greater impact in my students' 
lives.''
    The program's impact is not only seen through such anecdotal data 
such as this, but also through empirical data derived through pre and 
post program assessments. Beyond ROI, a leader in diagnostic and 
measurement services with organizations across the U.S., provides 
complete pre and post measurements and data reports. The data 
demonstrates significant attitudinal and behavioral change in students 
participating in the program. Moreover, the program is also proven to 
deliver critical measurable results such as reduced referrals, reduced 
alcohol and drug use (as much as 40%), 92% increase in self-esteem, 
decreased violent behaviors including bullying, and increased grade 
averages--as much as 47%.
    What has been so exciting for us is that we are not only seeing 
these results in public schools in the 23 states we now deploy the 
program, but also in after-school outlets such as the Boys & Girls 
Clubs, and in juvenile justice facilities such as Rikers Island prison 
in New York, a maximum security facility that houses the most violent 
teen offenders in New York, ages 16-18. Heart of a Champion is also 
deployed to the Gainesville State School in North Texas, another 
maximum security facility which houses the most violent teen offenders 
ages 13-19. In fact, Warden Edmund Duffy at Rikers Island emailed me a 
couple of weeks ago to tell me that the guards who oversee the unit 
where the Heart of a Champion program is deployed recently asked him 
``what have you done to these kids? They are changing.''
    Regardless of the population--schools, after school or juvenile 
justice--the program continues to produce similar results. It is 
changing the ``hearts'' of the students. As it changes the ``heart'', 
changes in attitude, behavior and performance result. We are seeing 
what the students of those Safe School Summits suggested--if you change 
the heart of the student in the desk next to me, you will create a 
safer environment at our school.
    We have seen that this approach works to create change--change that 
is demonstrated, measurable and sustained. When schools deploy such an 
approach, they see the school culture change. The school becomes a 
safer and better place.
    Heart of a Champion has been labeled a model program. For that we 
are appreciative. However, we are most grateful that it is working. We 
are also grateful for the partners who have provided for such results.
    Because funding for education has been tight in the majority of 
schools and school districts we serve, and because character education 
funding specifically has been zeroed in this year's federal budget, we 
have developed a series of successful private-public partnerships to 
generate funding for the program. We have great corporate partners in 
NFL teams like the Kansas City Chiefs and the Houston Texans, whose 
owners (The Hunt and McNair families) are completely committed to 
impacting the lives of kids. Another example is Express Employment 
Professionals, whose owner Bob Funk shares the same passion. In other 
areas we have partners like Coca-Cola, energy companies, and private 
foundations to assure students can benefit from the program.
    We even have caring individuals who have stepped in to make sure 
students can receive the program. Working with Major League Baseball 
All-Star Torii Hunter of the Los Angeles Angels of Anaheim California, 
we created the Torii Hunter Project. Torii personally underwrites the 
cost of the program for every middle school student in Pine Bluff, 
Arkansas, where Torii grew up, as well as students in Orange County, 
California--where the Angels match Torii's contributions. In 
Minneapolis, Minnesota, and Las Vegas, Nevada, we have partnered with 
the Andre Agassi Preparatory Academy.
    In all of these locations, as in a total of 23 States, we are 
privileged to work with schools and other locations to deploy the 
program and we continue to see measurable positive change. From the 
poorest schools of New York City, to more affluent ones in Orange 
County, California. From inner city Philadelphia to Grand Rapids, 
Michigan. From Chesapeake, Virginia to Mesa, Arizona. From San Antonio 
to Houston to Lubbock to Dallas. From Brooklyn to Las Vegas to Tacoma, 
Washington. Urban or rural, upper class or underserved, east or west, 
male or female, school or prison--the data demonstrates this program 
works to create heart change no matter the population. And when heart 
change occurs, a culture is transformed.
    This is why Heart of a Champion exists--to change culture. It is 
successful because of the focus on root-cause issues rather than 
symptoms. Heart of a Champion has learned that if we truly wish to see 
results--in creating safer schools and safer kids--then we must change 
the heart. We are grateful to have the opportunity to see that change 
occur.
    Again, I thank you for your leadership and for the opportunity to 
come and share with you this morning what we have learned. I would be 
happy to discuss with any of the Members or your staff how the Heart of 
a Champion program can be used in schools and juvenile facilities in 
your Congressional Districts or States, or to provide advice on what 
actions could be taken through future legislation to make it easier for 
school districts and juvenile facilities to adopt effective character 
development programs like Heart of a Champion.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Riach.
    Ms. Walker?

STATEMENT OF SIRDEANER WALKER, MOTHER OF BULLIED CHILD, SCHOOL 
                        SAFETY ADVOCATE

    Ms. Walker. Good morning. I want to thank the distinguished 
members of Congress----
    Chairwoman McCarthy. Could you bring the mic a little bit 
closer to you?
    Ms. Walker. I want to thank the distinguished members of 
Congress here today for inviting me to speak at this important 
hearing. My name is Sirdeaner Lynn Walker, and 4 months ago I 
would not have dreamed that one day I would be testifying on 
Capitol Hill.
    I was an ordinary working mom, looking after my family and 
doing the best I could as a parent. But my life changed forever 
on April 6th, 2009. That night I was cooking dinner when my 
son, Carl Joseph Walker-Hoover, went to his room, where I 
imagined he would be doing his homework or playing his video 
games. Instead, I found him hanging by an extension cord tied 
around his knack. He was 11 years old.
    Carl liked football and basketball and playing video games 
with his little brother. He loved the Lord, and he loved his 
family. What could make a child his age despair so much that he 
would take his own life? That question haunts me to this day, 
and I will probably never know the answer.
    What we do know is that Carl was being bullied relentlessly 
at school. He had just started secondary school in September, 
and we had high hopes. But I knew something was wrong almost 
from the start. He didn't want to tell me what was bothering 
him, but I kept at him, and he finally told me.
    The kids at school were pushing him around, calling him 
names, saying he acted gay, and calling him faggot. Hearing 
that, my heart just broke, and I was furious. So I called the 
school right away, and I told them about the situation. I 
expected they would be just as upset as I was, but instead they 
told me it was just an ordinary social interaction and that it 
would work itself out. I desperately wish they had been right, 
but it just got worse.
    I did everything that a parent is supposed to do. I chose a 
good school. I joined the PTA. I went to every parent teacher 
conference. I called the school regularly, and I brought the 
bullying problem to the staff's attention. The school did not 
act. The teachers did not know how to respond.
    After Carl died, I could have stayed home and mourned, but 
instead I have chosen to get involved, to speak out about 
school bullying. And I have learned in a short time that the 
most important thing I have learned is that bullying is not an 
inevitable part of growing up. It can be prevented, and there 
isn't a moment to lose.
    Since my son died, I met the mother of another 11-year-old 
boy, who was also being seriously bullied and killed himself. 
And now I know that there are others. This has got to stop. 
School bullying is a national crisis, and we need a national 
solution to deal with it. That is why I am here today.
    Educators need additional support and clear guidance about 
how to ensure that all our kids feel safe at school. Congress 
can make sure they have the guidance and support by making 
anti-bullying policies mandatory at all our nation's schools. 
Every school should have one, and we shouldn't rest until they 
do.
    The Safe Schools Improvement Act would help achieve this 
goal, and it is supported by over 30 national education, 
health, religious and other organizations. I urge the 
subcommittees to move this legislation forward. We cannot 
afford to wait for another child to drop out of school, to 
struggle academically, or even worse, take his own life before 
we take this problem seriously.
    Before I finish, I want to say one more thing. Very soon 
after Carl died, I heard from an organization called GLISTEN, 
which stands for Gay, Lesbian and Straight Education Network. 
They were offering their sympathy and support, and it meant a 
lot to me to learn that I wasn't alone, that other families had 
gone through this. But I have to admit I at first was very 
nervous.
    My son was only 11 years old. He didn't identify as gay or 
straight or anything like that. He was a child. Those kids at 
his school called him those names, because they were probably 
the most hurtful things they could think of to say, and they 
hit their mark.
    So I didn't know what to expect when my contact with 
GLISTEN brought me together with a diverse group of students, 
some of whom had been victims of bullying. It was the National 
Day of Silence, a day that gets young people involved in 
raising awareness about bullying.
    These were kids from a wide range of backgrounds. And what 
amazed me the most was how much common ground we had. We shared 
our stories, and it gave me hope and the courage to speak out 
on behalf of my son Carl.
    I know that bullying is not a gay issue or a straight 
issue. It is a safety issue. It is about what kind of learning 
environment we want our children to have and how far we are 
willing to go to protect and teach them. That was the first day 
I started to believe you could do something about this problem. 
And believe it or not, that day would have been Carl's 12th 
birthday on April 17th.
    I would like to think he rested just a little easier, 
knowing that all these brave young people are out there 
fighting for him and all the children like him.
    So in closing, I want to thank you once again for the honor 
of this opportunity. I ask you to please do everything--
everything--in your power to make sure that no other family has 
to go through what my family went through. Please help us to 
stop school bullying. Please help our children--all of our 
children--who are suffering in our schools today. Thank you 
very much.
    [The statement of Ms. Walker follows:]

Prepared Statement of Sirdeaner Walker, Mother of Bullied Child, School 
                            Safety Advocate

    Good morning. I want to thank the distinguished members of Congress 
here today for inviting me to speak and for holding this important 
hearing.
    My name is Sirdeaner Walker, and four months ago, I would not have 
dreamed that one day I would be testifying on Capitol Hill. I was an 
ordinary working mom, looking after my family and doing the best I 
could as a parent.
    But my life changed forever on April 6, 2009.
    That was the night I was cooking dinner when my son, Carl Joseph 
Walker-Hoover, went to his room where I imagined he'd be doing his 
homework or playing his videogames. Instead, I found him hanging by an 
extension cord tied around his neck.
    He was 11 years old.
    Carl liked football and basketball and playing video games with his 
little brother. He loved the Lord and he loved his family. What could 
make a child his age despair so much that he would take his own life?
    That question haunts me to this day, and I will probably never know 
the answer.
    What we do know is that Carl was being bullied relentlessly at 
school. He had just started secondary school in September, and we had 
high hopes, but I knew something was wrong, almost from the start.
    He didn't want to tell me what was bothering him, but I kept at 
him, and he finally told me that kids at school were pushing him 
around, calling him names, saying he acted ``gay,'' and calling him 
``faggot.''
    Hearing that, my heart just broke for him. And I was furious. So I 
called the school right away and told them about the situation. I 
expected they would be just as upset as I was, but instead, they told 
me it was just ordinary social interaction that would work itself out.
    I desperately wish they had been right. But it just got worse. By 
March, other kids were threatening to kill him.
    I did everything that a parent is supposed to: I chose a ``good'' 
school; I joined the PTO; I went to every parent-teacher conference; I 
called the school regularly and brought the bullying problem to the 
staff's attention. And the school did not act. The teachers did not 
know how to respond.
    After Carl died, I could have stayed at home and mourned him, but 
instead, I've chosen to get involved, to speak out about school 
bullying--and I have learned a lot in a short time.
    And the most important thing I've learned is that bullying is not 
an inevitable part of growing up. It can be prevented. And there isn't 
a moment to lose.
    Since my son died on April 6, I met the mother of another 11-year-
old boy who was also being seriously bullied at school and killed 
himself. And I know there are others. This has got to stop.
    School bullying is a national crisis, and we need a national 
solution to deal with it. That is why I am here today. Teachers, 
administrators and other school personnel need additional support and 
clear guidance about how to ensure that all kids feel safe in school. 
Congress can make sure they have that guidance and support by making 
anti-bullying policies mandatory at all or our nation's schools.
    Policies that make it clear exactly what kind of behavior will not 
be tolerated. Policies that include training teachers and other school 
personnel to recognize bullying and harassment and enforce the rules 
with immediate, appropriate discipline. Policies that recognize that to 
prevent bullying, we have to teach young people to treat each other 
with respect.
    Studies show that schools that have these policies also have fewer 
reported incidents of bullying, and that students generally feel safer. 
Every school should have one, and we shouldn't rest until they do. And 
when I say every school, I mean public schools and charter schools--any 
school that gets federal funding.
    The Safe Schools Improvement Act would help achieve the goals I 
have outlined today and I urge the subcommittees to move this 
legislation forward. The bill is supported by over 30 education, 
health, religious and other organizations that formed the National Safe 
Schools Partnership to address this terrible problem. We cannot afford 
to wait for another child to drop out of school, struggle academically 
or even worse, take his own life before we take this problem seriously.
    Before I finish, I want to say one more thing, because I think it's 
important.
    Very soon after Carl died, I heard from someone at an organization 
called GLSEN, which stands for Gay, Lesbian and Straight Education 
Network. They were offering their sympathy and support and it meant a 
lot to me to learn that I wasn't alone, that other families had gone 
through this.
    But I have to admit, I felt a little nervous. My son was only 11. 
He didn't identify as gay or as straight or anything like that. He was 
a child. Those kids at his school called him those names because they 
were probably the most hurtful things they could think of to say. And 
they hit their mark.
    So, I didn't really know what to expect when my contact with GLSEN 
brought me together with a diverse group of students, some of whom had 
been the victims of bullying. It was the National Day of Silence, a day 
that gets young people involved in raising awareness about bullying. 
These were kids from a pretty wide range of backgrounds. And what 
amazed me the most was not how different we all were, but how much 
common ground we had. We shared our stories, and it gave me hope and 
the courage to speak out on behalf of my son, Carl.
    I know now that bullying is not a gay issue, or a straight issue. 
It's a safety issue. It's about what kind of learning environments we 
want for our children and how far we're willing to go to protect and 
teach them.
    That was the first day I started to believe we could do something 
about this problem. And believe it or not, that day would have been 
Carl's 12th birthday. I like to think he rested just a little easier, 
knowing that all these brave young people are out there fighting for 
him and all the children like him.
    So in closing, I thank you once again for the honor of this 
opportunity, and I ask you to please do everything in your power to 
make sure that no other family has to go through what my family went 
through. Please help us to put a stop to school bullying.
    Thank you.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Walker.
    Ms. Tetsworth?

 STATEMENT OF CASSADY TETSWORTH, NATIONAL SAVE YOUTH ADVISORY 
         BOARD, STUDENT, NORTHWEST GUILFORD HIGH SCHOOL

    Ms. Tetsworth. Chairwoman McCarthy, Chairman Kildee, and 
other members of this distinguished panel, it is my pleasure to 
speak to you today from a student perspective on safety 
enhancement to violence prevention.
    My name is Cassady Tetsworth, and I will be a senior at 
Northwest Gilbert High School. This is my second year serving 
on the National Youth Advisory Board Of Students against 
Violence Everywhere. I will be 17 years old, and this is my 
sixth year of being involved in SAVE, and there will also be 
the president of my school's chapter.
    I was drawn to SAVE because I can voice my opinions about 
how to stop youth violence. I remember my first year as a SAVE 
member in middle school and how it hooked me to help as my 
friends are being bullied and harassed. I thought it was 
amazing to see so many kids coming together for one cause.
    The National Association of Students against Violence 
Everywhere, a public nonprofit peer-to-peer organization, is a 
student-initiated and student-led organization. SAVE is 
dedicated to providing students with the information and 
resources necessary to make a positive difference in safety 
efforts in schools and communities.
    The National Association of SAVE serves as a national 
clearinghouse for SAVE materials, provides training and 
technical assistance, coordinates chapters across the country, 
sponsors the national youth summit, and works with students, 
counselors, teachers, administrators, law enforcement and 
community agencies to establish and maintain SAVE chapters.
    SAVE's slogan is ``Youth Voices, Grown-up Choices.'' SAVE's 
mission is to decrease the potential for violence in schools 
and communities by promoting meaningful student involvement, 
education and service opportunities and efforts to establish, 
support and grow SAVE chapters.
    We want to actively involve students in their own safety. 
They were group of volunteers and resource for student members, 
SAVE chapters are growing and making a positive difference 
across the nation. SAVE is a unique and powerful approach to 
school safety, because it recognizes the role that students can 
take in making schools and communities safer by reducing 
bullying.
    Because SAVE chapters are established and operated by 
students, they have the opportunity to spread the message of 
how to prevent and reduce bullying among their peers. Focusing 
on crime prevention, conflict management and service projects, 
SAVE students are providing positive peer influences in 
bullying and violence prevention efforts.
    Recent evaluations reflect the successful efforts of SAVE 
students working to improve school connectedness, build respect 
and establish a safer physical environment, as well as 
decreasing harassment and bullying at their schools.
    I am proud to be part of an organization that has been 
successfully implemented at Northwest Gilbert High School, as 
well as other urban, suburban and rural schools, juvenile 
justice facilities, colleges and community-based settings.
    SAVE works because students like to fit in with the group 
by listening to and paying attention to what other kids do and 
say. SAVE allows kids to choose safe and healthy behaviors over 
unsafe and unhealthy behaviors, to use the power of positive 
peer influence.
    This year my chapter did ``Fall into SAVE'' at our school's 
band competition. We set up a table with SAVE information for 
visitors to learn about our chapter and help recruit members. 
As a service project, we collected items to donate for troops, 
and we also sent letters to a battered women's home.
    We were also in charge of ensuring a safe prom night for 
all students, so we had students sign a pledge saying they 
would not drink or participate in any crime or violent 
behaviors on prom night.
    Also, every year my club has Grim Reaper Day. We each wear 
all black, and we each wear a shirt with a violent statistic on 
it. Each member of our club represents a victim to violence. 
This means students in our school can not only hear statistics, 
but see it.
    The reason that our SAVE chapter makes a positive 
difference is that we emphasize the following SAVE goals. We 
engage, empower, educate and encourage. You can educate 
students by getting them involved and active. This makes them 
care more about the cause. This is evident in our school's SAVE 
rock-a-thon. Seeing others participate that wanted to make a 
difference make them want to make a difference also.
    SAVE empowers youth with skills necessary to provide the 
service to their community and their school. My chapter role-
plays possible bullying situations during our meetings. This 
way students can be better equipped as to what they should do 
if someone else is being bullied.
    SAVE encourages positive peer influences. When students 
outside of SAVE see our members helping and being active in 
violence prevention, they are more apt to be curious and want 
to help. This can be seen through anything as simple as wearing 
our SAVE shirts or putting up posters around the school.
    SAVE educate students about the effects and consequences of 
bullying and violence with presentations, role-playing and 
other activities. It also teaches safe activities for students, 
parents and the community.
    Safety is enhanced when SAVE chapters exist in schools and 
communities. I recommend that a student involvement component, 
such as SAVE, be a part of every school's comprehensive safety 
plan. Students should be given a real voice in their own 
safety.
    I also believe ways to obtain more accurate data on school 
crime, bullying and other violent incidents should be explored 
so that schools will have the information that is needed to 
plan for a safer environment for all students. Data is often 
outdated by the time it is ready to be used.
    There also needs to be student input. The student voice 
should be heard. If you don't know what your real and perceived 
challenges are, how can you make successful plan to overcome 
them?
    Finally, with your help, SAVE's vision for all students 
everywhere can be realized. Schools and communities will be 
safer and more secure, free of fear and bullying, and more 
conducive to learning as a result of students being actively 
involved in meaningful violence prevention efforts.
    Thank you.
    [The statement of Ms. Tetsworth follows:]

 Prepared Statement of Cassady Tetsworth, National SAVE Youth Advisory 
         Board Member, Student, Northwest Guilford High School

    Chairwoman McCarthy, Chairman Kildee, and other members of this 
distinguished panel, it is my pleasure to speak to you today from a 
student perspective on strengthening school safety through bullying.
    I am Cassady Tetsworth, a rising senior at Northwest Guilford High 
School in Greensboro, North Carolina. I am 17 years old and a returning 
member of the Youth Advisory Board of the National Association of 
Students Against Violence Everywhere (SAVE). Next year I will also 
serve as President of my school's SAVE chapter. I was drawn to SAVE 
because I can voice my opinions about how to stop youth violence. I 
remember my first year as a SAVE member in middle school and how it 
hooked me to help, as my friends were being bullied and harassed. I 
thought it was amazing to see so many kids coming together for a cause.
    The National Association of Student's Against Violence Everywhere 
(SAVE), a public nonprofit, peer to peer organization, is a student-
initiated and student-directed organization. SAVE is dedicated to 
providing students with the information and resources necessary to make 
a positive difference in safety efforts in schools and communities. The 
National Association of SAVE serves as the national clearinghouse for 
SAVE materials; provides training and technical assistance; coordinates 
chapters across the country; sponsors a national youth summit; and 
works with students, counselors, teachers, administrators, law-
enforcement and community agencies to establish and maintain SAVE 
chapters.
    SAVE's slogan is Youth Voices * * * Grown-up Choices!
    SAVE's mission is to decrease the potential for violence and 
bullying in schools and communities by promoting meaningful student 
involvement, education, and service opportunities in efforts to 
establish, support and grow SAVE chapters. We want to actively involve 
students in their own safety.
    Through a group of volunteers and resourceful student members, SAVE 
chapters are growing and making a positive difference across the 
nation. SAVE is a unique and powerful approach to school safety because 
it recognizes the role that young people can take in making schools and 
communities safer by reducing bullying. Because SAVE chapters are 
established and operated by students, they have the opportunity to 
spread the message of how to prevent and reduce bullying among their 
peers. Focusing on crime prevention, conflict management and service 
projects, SAVE students are providing positive peer influences in 
bullying and violence prevention efforts. Recent evaluations reflect 
the successful efforts of SAVE students working to improve school 
connectedness, build respect, and establish a safer physical 
environment, as well as decreasing harassment and bullying at their 
schools.
    I am proud to be part of an organization that has been successfully 
implemented at Northwest Guilford High School, as well as other urban, 
suburban, and rural schools, juvenile justice facilities, colleges, and 
community-based settings. SAVE works because kids like to fit in with 
the group by listening to and paying attention to what other kids do 
and say. SAVE allows kids to choose safe and healthy behaviors over 
unsafe and unhealthy behaviors--to use the power of positive peer 
influences.
    My chapter did ``Fall into SAVE'' at our school's band competition. 
We set up a table with SAVE information for visitors to learn about our 
chapter and help us recruit members. As a service project, we collected 
items to donate to our troops and also sent them letters. We were also 
in charge of ensuring a safe prom night for all students, so we had 
students sign a pledge saying that they would not drink or participate 
in any crime or violent behavior on Prom night (Example of the Power of 
Positive Peer Influence). We made shirts that show statistics of people 
being victims of violence. We dress in all black and each member of our 
chapter represents someone who was a victim of violence. These projects 
focused on increasing interaction and appreciation between students, 
teachers, and other school personnel.
    The reason that our SAVE chapter makes a positive difference is 
that we emphasize the following SAVE goals:
Engage, Empower, Encourage, and Educate
            1. Engage
    You can engage students by getting them involved and active. This 
makes them care more about the cause. This was evident in our school's 
SAVE Rock-A-Thon. Seeing other students that want to make a difference, 
made them want to make a difference also (positive peer influence).
            2. Empower
    SAVE empowers youth with skills necessary to provide service to 
their community and school. My chapter role-plays possible bullying 
situations during meetings--so students can be better equipped as to 
what they should do when someone else is being bullied.
            3. Encourage
    SAVE encourages positive peer influences. When students outside of 
SAVE see our members helping and being active in violence prevention, 
they are more apt to be curious and want to help. This can be seen 
through anything as simple as wearing our SAVE shirts or putting up 
posters.
            4. Educate
    SAVE educates students about the effects and consequences of 
bullying and violence with presentations, role-playing, and other 
activities. It also teaches safe activities for students, parents, and 
the community.
    Safety is enhanced when SAVE chapters exist in schools and 
communities. I recommend that a student involvement component, such as 
SAVE, be a part of every school's comprehensive safety plan. Students 
should be given a real voice in safety.
    I also believe ways to obtain more accurate data on school crime, 
bullying, and other violent incidents should be explored so that 
schools will have the information that is needed to plan for safer 
environments for all students. Data is often outdated by the time it is 
ready to be used. There also needs to be student input--the student 
voice--should be heard. If you don't know what your real and perceived 
challenges are, how can you make successful plans to overcome these 
challenges?
    Does a feeling of safety help a student concentrate on schoolwork? 
Some may say no, but as a student, I feel that safety is one of the 
most important things. When a student feels safe, when tolerance 
overcomes bullying and harassment, and when there is respect in 
student-to-student, teacher-to-student, and adult-to-adult 
interactions, students don't have to worry about anything but their 
classes. I think our SAVE activities helped make our school safer.
    Finally, with your help SAVE's vision for all students everywhere 
can be realized: Schools and communities will be safer and more secure, 
free of fear and bullying, and more conducive to learning as a result 
of students being actively involved in meaningful violence prevention 
efforts.
    Thank you.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Dr. Poland?

 STATEMENT OF DR. SCOTT POLAND, PROFESSOR, COORDINATOR, OFFICE 
 OF SUICIDE AND VIOLENCE PREVENTION, CENTER FOR PSYCHOLOGICAL 
             STUDIES, NOVA SOUTHEASTERN UNIVERSITY

    Dr. Poland. Thank you for the opportunity to talk today. I 
am here today as someone who works in the public schools as a 
school psychologist for 26 years.
    Crisis prevention and intervention has been my highest 
priority, along with school safety, for my entire career. I 
have personally been invited to work in communities in the 
aftermath of school shootings. I have worked in the aftermath 
of nearly 100 youth suicides. And I believe strongly in 
prevention. I certainly know that schools could do so much more 
to prevent youth suicides than they are currently doing.
    But I am here today because I am very concerned about 
complacency on the part of some schools, in some school 
administrations, about school safety planning, and I want to 
share with you three examples.
    A principal was very concerned about school safety. She 
implemented a number of initiatives, but she knew she needed 
information from her student center staff members. She went to 
the superintendent's office, shared with him an instrument 
called the School Safety Assessment and Resource Bank, which 
would survey staff and students and be able to pinpoint safety 
needs.
    The superintendent looked over the documents and then said 
that if we were to survey our staff and students, and if we 
identify the problem, then we would be held accountable to do 
something about it. Therefore, permission was denied.
    In many schools principals have said to me they would 
really like to put important lessons in classrooms about 
bullying prevention, learning to appreciate diversity, 
decision-making, responsibility, school safety, but the 
teachers often balk and say, ``We don't have time for that. We 
have to teach the accountability for the state performance 
test.''
    The next example is a parent who called me this spring, a 
parent of a fifth grader. Her son saw a gun in Billy's backpack 
in the classroom. He repeatedly went to the classroom teacher 
to say, ``Billy has a gun.'' The teacher kept basically 
discounting that. He said, ``No, I mean it. Billy has a gun in 
class today.'' Finally, the teacher aloud said, ``Billy, do you 
have a gun in your backpack?'' Billy said, ``Yes.'' And Billy 
was asked to bring the gun to the teacher.
    I am sure everybody here can envision a fifth-grade boy 
carrying a loaded gun to a crowded classroom and handing it to 
the teacher. Then the teacher took everyone aside and said, 
``We don't want Billy to get in any trouble today. Please don't 
say anything to anyone.''
    Now, that certainly highlights the need for school safety 
planning and training in every single school in America every 
year. And the young man who reported that Billy had the gun--he 
obviously did the right thing, as I am sure every student who 
is here today would.
    But you see, I know that most tragedies that involve young 
people, they should have been prevented. Somebody always knew 
about their homicidal and suicidal plans. And it is interesting 
to ask students themselves and to survey the literature to find 
out why don't they tell us? Why don't they look to the adults 
for help?
    They say, ``I didn't want to get involved. I didn't think 
it could happen. I feared retaliation. I have been conditioned 
not to tell,'' or ``I don't trust the adults in my life to do 
the right thing.''
    School safety is really an inside job, and we need a 
commitment from the student body first, then from every faculty 
member, the parents and the community. It is very important not 
only that we keep every student safe, we want to make sure 
every student feels like somebody cares whether they come to 
school or not.
    We need to build connections between students and all 
adults, and very importantly, their schools. And we need to 
take care of their social and emotional welfare and 
development. Those things are essential.
    Congress has the authority to require the same scrutiny as 
school safety, the same documentation that you currently do for 
academic performance. And every school in this country needs a 
threat assessment team. That has been recommended at the 
highest levels and from some very prestigious organizations, 
yet few schools in America actually have that team.
    That should involve an administrator, of course, a mental 
health professional--and school psychologists are very well 
trained in that issue--and law enforcement and teacher who 
knows the student in question.
    What I have learned over my career is the wisest decisions 
in education are made by a team of people, and we need to build 
relationships with every student. That fourth ``R''--it is not 
just reading, `riting and `rithmetic--that fourth ``R'' is 
relationship.
    And I ask you simply when we measure something, we say to 
everyone it is important. And please make every school in this 
country document safety planning. Obviously, we need good data. 
There is a tremendous need. We have heard about some excellent 
programs today, and I think I speak for everyone here in 
saying, Ms. Walker, we are so sorry about the tragic loss of 
your son.
    But we all need to work to make sure that we do something 
about bullying and they do something about suicide prevention. 
It is either the second or third leading cause of death for 
children in our country, depending on where you live.
    Thank you for this opportunity.
    [The statement of Dr. Poland follows:]

Prepared Statement of Scott Poland, Ed.D., Coordinator of the Office of 
Suicide and Violence Prevention, Center for Psychological Studies, Nova 
                        Southeastern University

    My name is Scott Poland. I am a past president of the National 
Association of School Psychologists (NASP), and I currently serve as 
coordinator of the Office of Suicide and Violence Prevention at the 
Center for Psychological Studies at Nova Southeastern University in Ft. 
Lauderdale, FL. I worked as a school psychologist in the public schools 
for 26 years, serving as the Director of Psychological Services for one 
of the largest Texas school systems for 23 of those years. School 
safety and crisis intervention and prevention have been my highest 
professional priorities. I have authored or co-authored four books and 
numerous chapters and articles on the subject and have presented and 
talked with school personnel more than 1000 times about these topics in 
every state and many foreign countries.
    NASP is a professional membership association of 25,000 school 
psychologists who promote educationally and psychologically healthy 
environments for all children and youth. The association has developed 
many publications on school climate and school violence prevention. It 
has also partnered with the National Association of Secondary 
Principals to create a series of articles on topics such as the 
following:
    1. Preventing school violence: A plan for safe and engaging schools
    2. Threat assessment: An essential component for a comprehensive 
safe school program
    3. Making schools safer for minority youth
    4. Addressing sexual harassment
    5. Promoting positive school climates through positive behavioral 
support
    6. Suicide prevention in schools
    These articles and the NASP Position Statement on School Violence 
and many other relevant articles are available at www.nasponline.org.
    In 1997, I helped establish the NASP National Emergency Assistance 
Team (NEAT) and have served on the team continuously since its 
inception. Members of the team have provided on-site or consultative 
assistance to school communities on many occasions in response to 
school violence, natural disasters, and other tragedies that impacted 
schools. NEAT members also realized the need for more training on 
school crisis prevention, response, and recovery, so NASP developed a 
research-based crisis prevention and intervention curriculum to build 
the capacity of the whole school community. The name of the curriculum 
is PREPaRE, which stands for prevent, reaffirm, evaluate, provide and 
respond, and examine--PREPaRE,
    I have personally led or served on crisis teams called into the 
aftermath of 11 school shootings, including providing intervention 
after the tragedies in Paducah, Kentucky; Jonesboro, Arkansas; 
Littleton, Colorado; and Red Lake, Minnesota. I have also provided 
consultation to other school communities after acts of violence 
including suicides of teachers and students, providing direct on-site 
assistance to five school communities that experienced suicide 
contagion and suicide clusters. I have seen the pain, shock, and 
confusion in these communities and their search for answers but also 
know that the answers are quite complex and involve many societal 
issues. I identified these issues in my testimony before Congress on 
school violence in 1999 and 2000. I also discussed contributing factors 
such as gun availability, the influence of media violence (especially 
video games), lack of parental supervision, the failure of youth to 
understand the finality of death, lack of positive connections to 
school and adults, and the impact of school bullying. I also had the 
opportunity in 2001 to moderate the session on bullying prevention for 
the Children's Caucus of Congress.
    The purpose of my testimony is to provide guidance to help 
strengthen school safety and ensure that all schools are nurturing 
environments for all students to learn. Students who feel threatened 
and harassed can not learn at an optimal level. It is our 
responsibility to make sure that every child feels safe at school and 
to implement suicide prevention programs. Although statistics reveal 
schools to be much safer places for children than their communities, 
even one violent death in a school in our country is unacceptable. Of 
great concern is the harassment and bullying that occurs in schools. 
For example, a study from the Gay, Lesbian and Straight Education 
Network (GLSEN) found that 65% of high school students had been bullied 
in the past year.
    As a school psychologist, students were often referred to me who 
were bullied at school. I would ask them if they had notified their 
teacher about what was happening and a very common response was that 
the victim had notified the teacher but was often told to stay away 
from the students who were doing the bullying. This advice fails to 
address the need to provide consequences for the bully and to recognize 
that it is difficult to avoid the bully who rides your bus and is in 
your classes. We need to be especially concerned about the harassment 
and bullying that occurs at schools for gay, lesbian, bisexual, and 
transgender students with surveys revealing that as many as nine in 10 
have been bullied (see www.GLSEN.org). These students are at risk for 
increased suicidal thoughts and actions as a new term emerges: 
``bullicide.'' Grieving parents are attempting to hold the schools 
legally accountable for failure to stop the bullying believed to have 
greatly contributed to the suicides of their children. The Youth Risk 
Behavior Surveillance Survey, completed most recently in 2007 by the 
Centers for Disease Control and Prevention, found that 6.9% of high 
school students surveyed had made a suicide attempt in the past year. 
Few school systems have the needed procedures and policies in place for 
suicide prevention and intervention, and the American Association of 
Suicidology (AAS) has recently developed a School Suicide Accreditation 
Program to raise the standards, competency, and confidence of school 
personnel for prevention and intervention. More information about the 
accreditation program is available at www.suicidology.org.
    In addition, NASP recently released the NASP President's Call to 
Action to Prevent Youth Suicide which is available at http://
www.nasponline.org/advocacy/suicidecalltoaction.aspx. In this call to 
action, it is emphasized that few if any problems confronting our 
nation's schools are more urgent than youth suicidal behavior. Youth 
suicide continues to be a significant public health problem at a 
national level. According to the Centers for Disease Control and 
Prevention, suicide is the third-leading cause of death among young 
people in the United States, trailing only accidents and homicide. In 
the last decade, more teenagers and young adults died from suicide than 
from cancer, birth defects, AIDS, stroke, pneumonia, influenza and 
chronic lung disease combined. An alarming fact is that every five 
hours a child or adolescent in the United States dies as a result of 
suicide. Consequently, suicide prevention and intervention must be part 
of any comprehensive violence prevention effort.
    In the years immediately following the Columbine tragedy, there 
were many excellent initiatives at both the state and federal levels to 
make schools safer. Virtually every school in the country devoted 
resources and time to safety planning. To assist schools in their 
efforts, NASP co-authored Early Warning, Timely Response: A Guide to 
Safe Schools, which was produced jointly by the Departments of 
Education, Justice, and Health and Human Services. The Department of 
Education and the Secret Service also released two reports on the study 
of targeted school violence and the FBI released a publication on 
school violence and school safety. Post-Columbine, most schools created 
safety task forces that were very active for a year or two, but that 
have now become inactive or nonexistent. School principals are 
intensely questioned and evaluated only based on the academic test 
scores for their school, and it is clear that the same scrutiny and 
accountability must be implemented for school safety. School leaders 
must make school safety a priority, including it in policies and 
procedures as a continuum of services that build on positive discipline 
and school climate. Each campus must also have crisis prevention and 
response team and a plan in which all community members know the part 
they play.
    An important component missing from much of the initial planning 
and continuing to today is the absence of efforts to get students 
involved in their own safety. School safety is an ``inside job'' that 
requires a commitment from the students first, then from the staff, 
parents, and the community. Students are almost always aware of the 
homicidal and suicidal statements of fellow students and they certainly 
are aware of bullying. The commitment from students can be obtained by 
having them sign safety pledges that stress the importance of 
immediately reporting a weapon on campus to the nearest adult and of 
letting an adult determine the seriousness of a violent threat. One of 
the best strategies to reduce bullying is to reach the bystanders who 
laugh and thereby reinforce the bully's behavior. Most school violence 
could be prevented through building better relationships with students 
and teaching them when to get adult help.
    In an article for the National School Board Journal, The 4th R-
Relationships, I stressed that safety, security, and belonging are as 
important as reading, writing, and arithmetic! Students also know what 
part of the school building is unsafe and what times of the day there 
is a lack of supervision. Classroom discussions and review of the floor 
plan for the school can pinpoint areas of concern.
    I will never forget being in a classroom the day after a school 
shooting and thinking that things were going as well as could be 
expected with the classroom discussion until several students said, 
``That was so serious and I could have been killed. It could have been 
me that was shot but I still don't think I would tell an adult if I saw 
a gun on campus tomorrow.'' Not one student in the classroom disagreed 
publicly with that thinking. The teacher, counselor, assistant 
principal, and I could not convince students of the need to tell the 
nearest adult.
    The literature says that students do not look to adults for help 
because of these reasons:
    1. They fear retaliation;
    2. They do not believe anything will happen;
    3. They have been conditioned not to tell;
    4. They do not trust adults; and
    5. They do not want to get involved
    We have done a very poor job in our society of teaching our youth 
how to separate incessant tattling about inconsequential things from 
the need to tell when someone may be harmed. We must begin to teach 
children at an early age through curriculum programs at every grade 
level that if they are feeling unsafe--and especially if someone is 
talking about homicide or suicide--they must get adult help right away. 
I have had the chance to ask many educators, ``At what age does it 
start that kids won't tell adults about serious situations such as a 
gun being on campus?'' The answer that I most often hear is that 
between third and fifth grades a major portion of children stop looking 
to adults for help.
    In order to strengthen school safety, it is very important for all 
school staff to know their students and know them well. Every staff 
member needs to build positive relationships with all students and be 
alert for signs of violence. We must ensure that all children and 
adolescents know where to get adult help and that they have been taught 
that they are an essential key to maintaining a safe environment. This 
is an ambitious goal because ending the ``conspiracy of silence'' will 
involve much discussion in schools, places of worship, community 
programs, and our families.
    There has been much complacency in recent years; strengthening 
school safety needs to be a priority. It is clear that there is no lack 
of resources. Best practices for crisis prevention and school safety 
have been developed and widely disseminated; there is no need to 
recreate the wheel! The real issue is whether or not all schools are 
taking seriously their responsibility to ensure school safety and to 
create a climate where no child feels threatened or harassed. In this 
regard, a critical area to be addressed is the need for threat 
assessment teams. Too often, it comes out that one or more educators 
admit that they knew the student who threatened violence but felt there 
was nothing to worry about. Another worrisome extreme is when a student 
who appears to make a threat is swiftly and severely punished and 
receives harsh consequences such as expulsion, with very little 
investigation.
    NASP cites data indicating that zero tolerance policies have 
contributed to juvenile justice facilities holding youth with mental 
health difficulties who have committed only minor offenses instead of 
getting them the help they urgently need. My experience has been that 
the wisest decisions are made by a team and in fact all of the reports 
and publications cited above recommend that every school create a 
threat assessment team composed of the following: a teacher who knows 
the student in question, a school administrator, a mental health 
professional such as a school psychologist, and a law enforcement 
representative. A threat assessment team would carefully gather 
information by interviewing the student who reportedly made the threat, 
the recipient of the threat, and any witnesses that might have been 
present. All school records would be reviewed for the student in 
question. Threats would be classified into two types with the first 
type being ``transient'' and the second being ``substantial.'' An 
example of a transient threat is something said in the heat of the 
moment that involves no planning, no means, and that is not the result 
of a long-standing grudge or feud. While all threats should be taken 
seriously and investigated, substantial threats that do involve 
planning, a grudge, and a means to carry them out should receive more 
intensive interventions and if necessary severe consequences such as 
suspension and expulsion. There is considerable controversy about the 
zero tolerance policies that have resulted in some schools being quick 
to expel students with little information about the incident. 
Unfortunately, sometimes the students who are expelled are quite young 
Also, there is no guarantee that youngsters who have been suspended or 
expelled won't come back to school and commit violent acts. In fact, 
some have.
    The following are a few recent examples that highlight the need for 
prioritization and on-going planning and training for all staff on 
school safety:
    <bullet> The school principal had several programs in place to 
address school safety but wanted to survey students and teachers to 
pinpoint other areas for school safety improvement. He decided to use 
the School Safety Assessment and Resource Bank (SSARB), developed by 
researchers at the University of Montana. The SSARB targets 32 key 
areas of school safety and climate and helps schools meet NCLB 
expectations for anonymous assessment of school safety by staff and 
students. (More information is available at www.ssarb.com.) The 
principal carefully reviewed the instrument and then went to the 
superintendent's office for approval to utilize the survey. The 
principal knew the researchers and told the superintendent that he had 
been offered the opportunity to have his school utilize the SSARB at no 
charge. The superintendent denied permission, commenting that if the 
survey of staff and students identified a problem the school would be 
held accountable to do something about it.
    <bullet> In the spring of 2009, a parent of a fifth grader 
described the following scenario and expressed much frustration with 
her child's teacher and school. Her son knew that his classmate Billy 
had a gun in his backpack, and he tried repeatedly to get the teacher's 
attention for her action. The teacher told him to do his work and that 
Billy did not have a gun, but finally the teacher asked Billy aloud if 
he in fact had a gun in his backpack. Billy responded that he did have 
a gun in his backpack and then the teacher told Billy to bring the gun 
to the teacher. The teacher then told the entire class to keep quiet 
about the fact that Billy brought a gun to school so that Billy would 
not get in trouble.
    <bullet> Nova Southeastern University (NSU), where I work, recently 
hosted two major events on school safety and bullying. NSU is located 
in Broward County, Florida, and three of the top 10 largest school 
systems in the nation are in South Florida (Dade, Palm Beach and 
Broward). NSU sponsored the International Bullying Prevention 
Conference (www.stopbullyingworld.org), with participants from all 
around the world. As one of the keynote speakers, I asked the 
participants how many were from South Florida and noted that almost no 
one locally was in attendance even though many thousands of educators 
are within about an hour's drive from the campus. NSU also hosted a 
school safety summit and invited educators from all three large county 
school systems mentioned above. One of the keynote speakers was Ron 
Stephens, the Director of the National Schools Safety Center, who is 
widely respected for his school safety expertise. Yet, his audience was 
quite small and mostly made up of university personnel.
    <bullet> One principal said that she tried to set aside 30 minutes 
every day to work on problem solving, violence prevention, anger 
management, increased sense of belonging, and learning to appreciate 
everyone regardless of race and ethnicity, in all classrooms. However, 
many of the teachers refused to participate because of the pressure 
they felt to teach for success on the state academic accountability 
test.
    <bullet> An administrator of a high school of 4,000 students 
implemented several safety initiatives, following the best practices 
indicated throughout the literature and in face-to-face training. 
Students, staff, and parents were an integral part of the process and 
many of the committees, intervention techniques, and relationship 
building venues were a result of collaborative effort. The 
administrator moved to another campus but returned for an evening event 
some months later and encountered a student who was her most avid 
safety council member. In great distress, he asked, ``What happened to 
our safety council?'' Her reply added to his distress. ``It's dead, and 
our CPR (Concerned Person's Report) box is gone. Nobody cares here 
anymore!''
    I have highlighted several examples of questionable school 
responses and lack of commitment to school safety whether resulting 
from poor judgment, mistaken priorities, or too few resources. Yet, 
please understand that that many of these responses are both expected 
and rational due to the emphasis on standardized high stakes tests.
    Unfortunately, they are unaware of the considerable research by the 
Collaborative for Academic, Social and Emotional Learning (CASEL) that 
shows that by incorporating universal social-emotional curriculums into 
schools that academic learning can be significantly increased. In 
addition, by using these curriculums school bonding, positive pro-
social behavior, social emotional increased while disciplinary problems 
were greatly reduced. Therefore, we do not have to choose between 
social-emotional/character education and academic learning. Instead we 
now know that by increasing the social-emotional skills of our nation's 
youth, we actually boost their academic success as well as improve 
other important variables necessary for a positive school climate. This 
is extraordinary finding. (More information is available at 
www.casel.org)
    I would now like to highlight the following very positive school 
safety approaches among the many that are being implemented around the 
country:
    <bullet> The Volusia County Schools in Florida had threats of 
violence and made it a priority to create threat assessment procedures, 
working cooperatively with county resources in mental health and law 
enforcement to improve school safety. The superintendent focused her 
beginning-of-school administrative conference on school safety and the 
lead school psychologist and security personnel worked with local and 
school resources to develop threat assessment procedures and provide 
training for administrative and support personnel. School safety 
procedures and the role that everyone and especially students play in 
safety are critical components of the program, which is in place at 
every school. Student safety pledges are now utilized. More information 
is available at www.volusia.k12.fl.us.
    <bullet> In recent years, many states such as Iowa, Maryland, and 
most recently, North Carolina, have passed laws prohibiting bullying 
and harassment in schools and requiring enumerated (e.g., including 
students' sexual orientation and gender identity, among other groups) 
anti-bullying and harassment policies and reporting procedures for 
schools. HR 2262, The Safe Schools Improvement Act, would enact similar 
requirements at the national level. In many cases, it is the family 
members of bullied students who have committed suicide who lead efforts 
to pass laws prohibiting bullying and harassment.
    <bullet> The Papillion-La Vista schools in Nebraska realized that 
in Sarpy County, Nebraska, nine teens had died by suicide in a 26-month 
period. The system organized a county-wide task force including mayors 
and civic leaders of the several small towns in the county and 
representatives from each school system in the county. The task force 
met repeatedly and included law enforcement and mental health personnel 
and implemented best practices suicide prevention programs for youth. 
More information about the work of the task force is available at 
www.paplv.esu.org.
    <bullet> PSI, a private Ohio mental health education services firm, 
trains students, teachers and parents throughout Ohio to manage 
bullying by building student leadership skills. The program emphasizes 
individual responsibility and competent decision making by students. 
PSI programs have won the Ohio BEST Practices Award. More information 
is available at www.psi-solutions.org.
    It is an honor to have the opportunity to provide testimony on 
strengthening school safety. This is a subject that is very dear to my 
heart, as I have seen the affects of school violence first hand many 
times and am very dedicated to prevention. Nova Southeastern 
University, where I now work, has made prevention and safety a high 
priority, and goals have been set for every staff member and student to 
learn the warning signs of violence and suicide and to understand that 
safety and prevention are everyone's responsibility. Our Office of 
Suicide and Violence Prevention provides training to all staff and 
students that also includes sources of assistance for troubled students 
and staff. More information is available at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="11424741517f7e67703f7475643f">[email&#160;protected]</a>
    It is essential for school safety to become a priority in every 
school, and the best evidence-based practices need to be implemented to 
ensure the safety of all students. This will only happen when every 
school board, superintendent, and state and national entity requires 
the same accountability for school safety that we currently require for 
academic performance. In the near future, Congress will be asked to 
reauthorize the Elementary and Secondary Education Act, and it is 
imperative that stronger requirements be in place for school safety and 
more emphasis placed on the social and emotional well being of 
children. School psychologists are the highest trained mental health 
professionals working in schools, and they are well trained in school 
safety, threat assessment, bullying prevention, and suicide prevention. 
Thus, they must be included as an important team member working on 
these issues in every school.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Dr. Poland.
    And I want to thank all the witnesses.
    And yes, our heart does go out to Ms. Walker for her loss 
of her son. And the only thing I would say to her is that at 
one time many years ago I sat where you are to testify, and 
that is why I am sitting here today, because I also said, ``I 
am going to make something happen.'' And so you being here is a 
very important step for you, so I thank you for the work that 
you are doing.
    What was said as far as all the testimony that we have 
heard, obviously, you know, we had terrific programs out there. 
We have to make sure that they are incorporated, but we can 
always do more. You always have to be able to do more.
    And the whole idea of having a committee hearing like this 
is not only to hear from the witnesses, but also for the 
members of Congress to hear from the witnesses. And I think 
that is extremely important, as we go forward and try to do 
legislation, to work with our young people.
    As I said right from the beginning, if our young people are 
not involved in the decisions that we are making, and if they 
are not involved in letting us know what is going on in their 
schools and certainly in their lives, we could do all the 
legislation in the world. It is not going to mean anything. So 
we have to give the young people in the teachers the support 
that they need. And I think that is extremely important.
    Dr. Poland, I am going to ask a question, because in your 
testimony you discussed how zero-tolerance policies in schools 
can contribute to students finding themselves in the pipeline 
to actually go to prison.
    Dr. Poland. Well, it is very important, of course, that we 
have a thorough investigation of an incident so that we don't 
move quickly to harsh and severe consequences.
    Threats of violence tend to fall into two categories: 
transient, which are fleeting, which are made in a moment of 
passion, and substantial, which involve a long-standing grudge, 
planning, and the use of a weapon. And we need to make certain 
that not every threat receives exactly the same consequence.
    And I am also a fan for intervention and psychological 
help. We have determined, for example, that many of the school 
shooters had serious psychological problems, and we need to 
figure out how we can really ensure that every young person 
gets the intervention and the mental health treatment that they 
need.
    And simply putting them out of school is not the answer. In 
fact, some of them actually have returned to their schools, 
after being suspended and expelled, and committed acts of 
violence. So we must have law enforcement, mental health and 
school officials all working together to provide intervention 
to make a difference in the lives of a troubled child.
    Chairwoman McCarthy. I agree with you.
    And Mr. Trump, your testimony placed a strong emphasis on 
collecting the data. I have become a real champion of data. 
What we have been doing over the last several years and the 
information we have gotten from that data has been amazing. But 
could you tell us why it makes--you know, collecting the data 
that we need could make our schools safer?
    Mr. Trump. Absolutely. And we appreciate your championing 
that. I look back in my career. I never thought I was going to 
be championing data in Congress, because a lot of times people 
think there are much more exciting things to talk about to the 
TV mentality of violence.
    But if we can't identify the problem, if we don't have 
accurate data that is based not only on surveys, and which are 
important; I think we need to continue those, and I think you 
heard from the testimony here the importance of student input, 
student surveys, and we need to support that with incident-
based data, especially at the federal level.
    We can't say schools crime is down or up if we don't 
actually know what incidents are occurring. So data is 
important, first of all, to identify the problem; secondly, to 
be able to speak on trends; and most of all, unique data to 
develop prevention and intervention programs.
    If we can't identify the problem, we are not going to be 
able to develop meaningful programs to intervene and stop 
negative trends and to develop preventive, proactive things to 
prevent them in the first place. And right now our data is 
faulty.
    It is a difficult task, but as you proposed in the SAVE 
Act, we can do better. We say we can't change the climate if we 
don't change the conversation, and we need to change the 
conversation from a survey-only data to an incident-based data 
so that we can be more proactive.
    Chairwoman McCarthy. I agree with that. I know that even 
when we had brought it up, even with some of the language that 
we have in our bill on the law enforcement data or the FBI 
data, you know, antennas went up. You know, people were very 
nervous about that.
    Well, I think about how data will allow the young person to 
get the help that they need, I mean think about it. I watched 
my grandchildren, you know, when they were in preschool, and I 
saw bullying going on. And it was accepted in preschool. ``Oh, 
well, they are just playing around.'' Well, you know, it is 
wrong.
    Mr. Trump. It is easier, Congresswoman, to address Dr. 
Poland's statement about complacency. It is very easy to be 
complacent if they don't identify the problem. And so it is 
easier to say we won't collect data, as he alluded to with a 
specific example. If we don't have the data, we don't have a 
problem. Well, that is not necessarily true. We may have a 
problem.
    And unfortunately, we have seen those school 
administrators, who acknowledge problems, who document it, who 
document their incidents, who document the problems, who call 
the police when they need to, oftentimes they have higher 
numbers and statistics at their school than the school down the 
street. And people perceive that school with the higher numbers 
to be a problem, when in reality it may be a safer school, 
because they are dealing with the problem.
    So with the surveys, I just use the analogy it would like 
going to our local mall on a Friday night and surveying 5,000 
people and 4,995 said they have never been a victim of crime, 
so on Monday we eliminate all the police and crime prevention 
in our community. It wouldn't make sense.
    We need the surveys, but we also need real data.
    Chairwoman McCarthy. And I think it is important, too, as 
we go forward. And I see my time is up
    And I want to thank the young people for being here today 
really, because you are going to be a large part on what we are 
going to do in the future to make not only for yourselves, but 
for the future generations, because if we don't take care of 
our children for the future, this country is not going to be 
where it should be.
    Mr. Platts?
    Mr. Platts. Thank you, Madam Chair.
    First, Ms. Walker, I want to sincerely thank you for your 
presence here today and taking a tremendous personal tragedy 
and working to make it a true public good. And they are efforts 
here today, and clearly beyond today, your son Carl will be 
honored and long remembered because of the good that will come 
from your efforts in tribute to him. So thank you for your 
testimony.
    Ms. Walker. Thank you.
    Mr. Platts. Ms. Kaufmann, one of the issues you mentioned 
in talking about developing your character education program 
and the interaction with parents, and I was wondering if you 
could expand on that--in one and looking at myself, I give 
great credit first to my mom and dad and the upbringing they 
gave five of us children. How they did it and stayed sane I am 
not sure, but--although if my mom was here, she may say she 
didn't.
    But I saw my teachers as complementing the character 
education that I got at home. My third grade teacher, who is 
now 98, Mrs. Mertz, you know, it was part of kind of just 
everyday routine of school in reinforcing those values that 
were taught at home.
    How have parents at Hannah Penn and now at York City--or 
William Penn responded, and how are they engaged to make sure 
it is a partnership?
    Ms. Kaufmann. I can tell you at Hannah Penn they have 
engaged the parents in evening events. They have expanded to 
let us show you how to help your child with homework, math and 
reading, to how to help your child become a better person and a 
more responsible citizen. And I know they have those monthly, 
and the turnout has escalated. So I know that that is 
continuing there.
    And part of any program is the staff and staffing, making 
connections with community, being a part of the community, 
being visible in the community, attending faith-based 
organizational meetings, going to local agencies in making 
those kinds of partnerships so that parents in the community 
feel connected to the school when they are part of their 
community events. So I know that is continuing to go on there.
    At the high school, it is kind of a new initiative there. 
We have rolled it out. In January we opened our character 
education rooms, so there are plans going forward with the 
staff to do pretty much the same thing, to start opening our 
school after hours and making opportunities for parents to 
engage not just with the character portion of our programming, 
but with technology and with other initiatives that are going 
on in the school, because, you know, we all know that it takes 
a village to raise a child.
    And the more that you can welcome parents and the community 
into the school, the school becomes a part of the community, 
and the kids don't believe it is 3:00 or 3:30 and not come 
back, if the doors are open and they are swinging both ways all 
the time.
    Mr. Platts. Your initiative, first at the middle school and 
now expanding it to the high school, do you see age level or 
grade level where we should, you know, try to eventually get 
to? Is it not just down in the middle school, but in fourth 
grade, third grade, in the sense of the earlier the better, it 
would seem, before wrongful character attributes are developed, 
that we reinforce the positive?
    In your experience do you see the importance of moving down 
to the elementary level? And is York City--I know there is a 
financial aspect to this. Is that something that you are 
considering?
    Ms. Kaufmann. Absolutely. I agree with the Andrews women 
here. I believe that elementary school--actually, honestly, the 
parent. I believe this begins at home. It begins before your 
child ever interacts with another child, that there are basic 
beliefs that you have that you share with your child about 
personal integrity and respect for other people and 
responsibility.
    So the sooner you can engage children in these kinds of 
discussions and teach these core traits and values, the better. 
I do think that York City will expand it as money is available 
for that.
    But that commitment has been to continue it at the 
secondary buildings, because there has been such success there 
from the violence perspective. And the violence in our district 
has been more rampant historically at the secondary buildings. 
But absolutely, I think there is a call for it at the younger 
grade levels.
    Mr. Platts. Thank you. If I could maybe squeeze one last 
question in to Ms. Andrews. Ms. Andrews and Dr. Poland, both of 
your testimonies, or all three of your testimonies touch on the 
issue of bystanders and the important role that they play in 
this.
    And before I ask the question, I want to first say that to 
Rob's daughters that it is an honor to serve with your dad and 
been a great pleasure, and he is certainly a great champion of 
a lot of issues, and especially issues related to education, so 
delighted to have his family here with us.
    But in your testimony, in your written testimony and your 
testimony here today talking about bystanders, and what, from a 
student perspective and then a professional someone in the 
field, what is, do you think, the number one thing we could do 
to encourage children to stand up and be engaged, and 
specifically the child? I realize the teacher and principals, 
everybody plays a role, but especially for our students, what 
is the number one thing we could do to encourage the importance 
of them standing up?
    And I will start with the students and then come to Dr. 
Poland.
    Ms. Josie Andrews. There we go. I think that what would 
really encourage kids to stand up is other kids and a program 
based off kids to encourage peers, because I think in this 
situation with Ms. Walker's son, I think if two boys play 
basketball with him after school and ate lunch with him and 
said to the bullies, ``Don't say that about him,'' maybe things 
would have been different.
    And I think it is the other kids who make the difference. 
And if even one kid stands up and tells their friends, ``Why 
don't you say something with me,'' I think it is the kids who 
could make the difference for the kids, not these----
    Some of the programs from the adults just aren't realistic, 
and they seem to be kind of--they look at the kids as if they 
are--they don't understand as much as they really do. And they 
go through unrealistic things. And I think if they heard it 
from other kids, it would be so much more relatable and so much 
more real.
    Ms. Jacquelyn Andrews. I think it is the programs are not 
focusing on the right types of people. They are focusing more 
on the bully or the victim. We are seeing that the victim--
sometimes they are saying the victim should stand up for what 
they believe in, but the reason why the victim is that the 
victim is because they can't stand up for themselves.
    And sometimes--and most of the times the bully doesn't know 
what they are doing is wrong, and that is why they are 
bullying. Not everyone wants to do something wrong or be a bad 
person. They just don't realize what they are doing is wrong. 
They might think it is funny to throw a pie at someone, because 
they have had a pie thrown at them, and they thought it was 
funny. They don't always know that what they are doing is 
wrong.
    So instead it is really what we said, if it is the 
bystanders, the 99.9 percent of the people who just stand there 
and watch it happen, whether they don't want to be the victim 
themselves or they just don't have the courage to stand up.
    But we are the people who can make the difference, and if 
so these programs that focus on children knowing that they can 
stand up and have their own voice and make a difference, then 
things will change around, we believe.
    And that is why these programs--and they are not just 
programs that say do this, do that. You actually read stories 
about children who have been victims. There are millions and 
millions of stories and programs online that you can read about 
real experiences. And if we just had programs that based more 
with the children and in an environment to which they can learn 
it about, then we could make a difference.
    Dr. Poland. Thank you. I would like to stress the roles 
that the adults do play. As a school psychologist, I was always 
referred a student with a problem. I hear a long litany of 
everything they are doing wrong, and I would like to ask the 
teacher or the staff member, ``What do they want to be when 
they grow up? Do you know if they have a pet at home? What do 
they do with their free time?''
    Almost never could they answer those questions. It is about 
building those relationships. I would get referred the person 
that was being bullied in the school. I would always ask where 
the bullying was happening. I would ask, ``Did you tell one of 
the adults about it?'' Most of the time they said yes. ``Well, 
what did the adult tell you?'' ``They told me stay away from 
those boys.''
    That is pretty hard to do if they are in your classroom and 
ride your bus every single day. And if a single teacher in 
America walks down the hall and pretends that they don't see 
the bullying going on, their very inactivity has condoned the 
behavior.
    The good news is most kids do not bully, but they certainly 
do stand around, and they laugh and reinforce the bully. 
Consequences for the bully, support for the victim and 
schoolwide programs to help everyone pledged to do something 
about it, because it can be stopped.
    Thank you.
    Mr. Platts. Madam Chair, just a quick follow up there.
    If I take that, Dr. Poland, it is in trying to help ensure 
that the child, the student stands up, it is making sure that 
the professional, the teacher, or whoever, in the school 
setting is reinforcing that importance, you know, that, you 
know, the right, you know, rightfulness of doing that.
    Dr. Poland. Absolutely. And one of my favorite quotes is, 
``What we do speaks so loudly to our children, when we tried to 
talk to them they cannot hear us. They have been watching us.''
    Mr. Platts. Thank you, Madam Chair.
    Chairwoman McCarthy. Well, Mr. Kildee, our chairman of 
Early Childhood, Elementary and Secondary Education?
    Mr. Kildee. Thank you, Madam Chair.
    I don't want to broaden the agenda of this hearing too far, 
but, Mr. Trump, can you address a possible relationship between 
school violence and bullying with a general degradation of 
civility in our society? Can programs in schools help diminish 
those antisocial activities in society?
    You know, when I first entered politics 44 years ago, and 
33 years ago in Congress, there was a higher degree of 
civility. While this committee is an example of good civility, 
there has been a degradation in the Congress, too.
    Then you have the Limbaughs and the O'Reillys. I might get 
mentioned in their program negatively, but there is a 
degradation of civility. Does that seep into the schools and 
affect the conduct of the students? And can programs in the 
schools make all people a little more concerned about other 
people's feelings and rights?
    Mr. Trump. Absolutely, Mr. Chairman. I see it several 
places. First of all, we have dealt with more incidents in the 
last few years when we are called into school districts that 
one of the first things they are actually telling us about is 
the behavior problems they are having with a select number of 
parents.
    We were in a school district at the beginning of last 
school year in October that had three incidents in their school 
where police had to be called and parents--one where a parent 
dragged another parent out of a car and started beating the 
parent in the parking lot at dismissal, because that person 
allegedly cut in front of the other.
    We have a fast food society, the me generation, where 
people can't walk down the street without text messaging and 
walking into somebody. I said I must be aging the debate here 
at age 45, because I am starting to really get fed up with that 
me, me, me.
    And I asked my wife one day. I said, ``Is it me? Am I 
getting older?'' She said, ``Yes, you are, dear.'' But I said, 
``What is the problem?'' And she said, ``People don't have room 
to recognize that there are others in the world, because they 
are too consumed with me, myself and I.'' So we are dealing 
with that piece.
    The second piece is we are dealing--the second piece that 
we are dealing with--so there is--we are seeing the spillover 
of the parents and the community and at the school. The second 
part is it is hard to separate school violence and community 
violence in many cases. Things that start in the school spill 
over into the neighborhood, but we also see what is going on in 
the neighborhood spill over to the schools.
    A number of our larger urban districts today in particular, 
we are seeing community gang activity in rival neighborhoods 
spill over. Obviously, in your great state of Michigan, Detroit 
has had a number of incidents in their schools with a shooting 
just recently of seven teens at a bus stop outside of a summer 
school. We have seen this across the country in a number of 
districts.
    So there has to be recognition of what--not--what happens 
in the community and the down fighting of behavior and adult 
behavior in the community is going to impact our kids.
    I think that we also have, from a safety perspective, it 
means tighter partnerships between schools, police, mental 
health agencies and the community partners, because there is an 
interrelationship of both the causes, and that is the only way 
we are going to successfully deal with the problem as well.
    But the civility is declining. I see it personally as well 
as professionally, and we see it related to school safety and 
violence, and it is one of the reasons we stress the importance 
of having comprehensive safe school programs, because it has to 
be prevention, preparedness, security, but it also has to be 
community partnerships and reaching outside of the school walls 
to work with parents, students, first responders, mental health 
agencies and others.
    So I think it is absolutely related, and we are going to 
have to approach it that way, and that is the stress on 
comprehensive approach.
    Mr. Kildee. You know, one role of our schools is to educate 
people to be doctors and to be engineers. But I also think 
there is a second role where the school can educate people to 
be civil people.
    I like the programs that have been talked about here this 
morning, where students are involved, because peer-to-peer 
really can make a difference. When your peer says, ``Hey, that 
is not nice'' or, ``Be nice,'' sometimes that is more effective 
than what a teacher can do to prevent a conflict. Your response 
to that?
    Ms. Jacquelyn Andrews. I just think I completely agree. The 
difference between--if you write a story that some adult wrote, 
who is in their mid-40s, about some kind of bullying problem 
versus--and telling, you know, some message about don't bully, 
versus a kid who actually experienced it, it is much more 
effective to see, ``Wow, someone else is going through exactly 
what I have just experienced.'' I mean it is much more 
effective, and I completely agree.
    Ms. Josie Andrews. And I also want to say bullying is a 
problem, because people worry about what people think of them. 
And if people worry about what people think of them in a 
positive way, or if someone says, ``Be nice,'' then you are all 
of a sudden thinking, ``No one thinks I am nice.'' That makes 
just as big of an effect.
    Mr. Kildee. Thank you.
    Thank you very much, Madam Chair.
    Chairwoman McCarthy. Thank you.
    Now we will hear from Mr. Castle. Welcome.
    And Mr. Castle is the ranking member on Early Childhood, 
Elementary and Secondary Education and a great supporter of all 
the things that we do on this committee and the full committee.
    Mr. Castle?
    Mr. Castle. Thank you, Madam Chairwoman.
    And let me thank all the witnesses here. I unfortunately, 
because of another appointment, had to miss some of your 
testimony, but I have read a good part of it, and I 
congratulate you, particularly the young people. I don't think 
at your age I would have wanted to come testify before 
Congress. You did a great job.
    Dr. Poland, I have sort of a maybe a multi-part question 
here, but one of them is a follow up to the question Mr. Platts 
asked Ms. Kaufmann. And that is the age at which this should 
start. I did hear your testimony, and you talked about various 
programs and the complacency and that kind of thing.
    And as a professional I would be interested in your views 
as to the problems may obviously show themselves in high school 
or at a middle school or high school or something of that 
nature, which is all these programs start at an earlier age?
    I have got several parts to this question. The second part 
is, as we get ready to reauthorize No Child Left Behind, it may 
take a different form, but it is the Elementary and Secondary 
Education Act and probably may not happen until next year.
    But as we do that, are there things that we should be 
considering in that legislation that would help with the 
various safety and bullying and other issues that we are 
talking about here today?
    In my last part of this is in your background and looking 
at all this, your view of outside influences with respect to 
all of this--that is, violence in schools, the media and what 
they show, the use of the Internet.
    For example, we have heard about other students, and I 
agree wholeheartedly with the students who are here that that 
is an important influence, but that whole sort of outside of 
the school aspect to dealing with the issues of safety and 
bullying and violence, et cetera?
    Dr. Poland. Thank you very much. First of all, I am 
concerned about the media influence on children. One of my 
favorite things to do is to talk to parents and to say, ``Stop 
letting technology steal your child.'' We really should have 
our children's lives revolve around the family, and the real 
full value meal in America is around the family table for 
dinner.
    And I would like to see those computers, for example, in 
the family room around the kitchen counter. And we need to be 
aware that our children are being exposed to violence and some 
of the highest levels in our history to violent video games, 
through television, through movies.
    And we can say no, which is one of the other things I 
always like to remind parents. You are in charge. You control a 
lot of things your children watch.
    Secondly, you talked about the need for programs at an 
early level. And frankly, I see our elementary schools as warm, 
caring, sensitive places. But as we move into those much larger 
and sometimes nasty secondary schools, a lot of children get 
lost.
    They have staff members that do not know their names. I had 
children--in fact, my own child--say to me, ``It really bothers 
me that my high school teacher doesn't know my name, or 
sometimes she confuses me with other children.''
    And since I believe she is the most wonderful girl who ever 
lived, that is very frustrating. And I hope every parent here 
believes that about their sons and daughters.
    And really, we must begin at the elementary level, but we 
have to keep that close communication between children and the 
adults in their lives up all the way through adulthood.
    Somewhere around third and fifth grade is where some kids 
stopped looking to adults for help, and we need to ensure that 
that continues, where we have close programs where kids feel 
connected to schools and to the adults in every schools 
throughout the middle school years and throughout the high 
school years.
    And actually as parents, children face the most life-
threatening decision not in fourth grade--in 10th grade and 
12th grade, decisions they make about who they hang out with, 
whether they use drugs, whether they get in a car with someone 
under the influence. So it is very important that parents stay 
very involved in their children's lives throughout education.
    And when I talked to parents of a 4-year-old, they all come 
to the school meeting. And what I say to the parents of a 4-
year-old is, ``Promise me when your kid is in the 10th grade, 
you will be at every single thing that the school offers.''
    Now, I think you actually asked me three questions, sir. 
One is about the age the programs began. You asked me about the 
media. But I am not sure I commented on the middle question 
that you referred to.
    Mr. Castle. No Child Left Behind--anything we should be 
doing specifically in Congress.
    Dr. Poland. Thank you. I believe we have an excellent 
opportunity to put the social and emotional well-being of 
children first in No Child Left Behind. The bottom line is we 
could double all the counselors, social workers and school 
psychologists tomorrow, and we need to, to try to meet the 
mental health needs of children.
    We also have the opportunity with NCLB to ensure that 
school safety is given a very high priority. The child who is 
afraid at school, the child who is humiliated in the hallway--
does it really matter how good my instructional lesson is?
    We need to make sure that we take care of the fundamental 
needs for all children of safety, security and belonging, and 
then they can truly learn at the optimal level possible.
    Mr. Castle. Thank you, Dr. Poland.
    I yield back, Madam Chairwoman. My time is up.
    Chairwoman McCarthy. Thank you.
    Mr. Scott?
    Mr. Castle. Thank you.
    Mr. Scott. Thank you, Madam Chairwoman.
    I want to thank all of our witnesses for testifying.
    I want to start with Mr. Riach. You referred to some 
studies that showed that your program worked at $10 per child, 
and any measurable effect would obviously save more money than 
it cost. Could you comment on some of the studies that showed 
the effect of your program?
    Mr. Riach. Certainly. Thank you. In reference to some of 
the things Mr. Trump said earlier about measurement being so 
critical and what the members have commented on, we knew that 
it was critical that we measure the efficacy of the program, 
because it is not working, we shouldn't be out there doing.
    And one of the key indicators and talking with educators in 
our 4 years of research and talking with the Department of 
Education was the reality that most character development 
programs lacked a tool to measure the efficacy of the program.
    So what we did, Mr. Congressman, is we worked with a third 
party, an independent third-party, who provides measurement for 
us on an annual basis with every school district that we work 
with our individual school populations.
    As a measure both that are coming out of there, the 
empirical data is very significant. Positive attitudinal 
behavioral shifts that are well beyond what----
    Mr. Scott. Did you measure reduction in crime?
    Mr. Riach. Reduction in crime, reduction in----
    Mr. Scott. Drug use?
    Mr. Riach [continuing]. Referrals, reduction in bullying--
--
    Mr. Scott. Teen pregnancy?
    Mr. Riach [continuing]. Reduction in drug and alcohol use, 
reduction in abusive behaviors.
    Mr. Scott. Dropping out?
    Mr. Riach. Reduction in dropouts. Increased GPAs as well.
    Mr. Scott. If you could get copies of those studies, that 
would be extremely helpful.
    Mr. Riach. Absolutely.
    Mr. Scott. Dr. Poland, could you say a word about whether 
or not how accurate your threat assessments are, how accurately 
you can predict who is at higher risk?
    Dr. Poland. I would certainly like to comment on threat 
assessment. And certainly, there is not the ability of any 
mental health professional or law enforcement professional to 
absolutely predict whether someone will carry out an act of 
violence.
    And the real purpose of threat assessment is to reduce the 
stressors on the person in question, to try to figure out what 
is it that is causing him to be so troubled and so angry. And 
frankly, do they have the means to carry out the violence? So 
the real purpose is to reduce the stressors that the young 
person might be under, who is threatening violence towards 
others.
    Mr. Scott. Well, do you have any studies that show that if 
you intervene, if you have done the threat assessment and 
intervene, it would make a difference?
    Dr. Poland. Absolutely. In fact, we have a number of what 
are called near misses in the literature, where a young 
person--usually, someone has come forward. One of their friends 
got concerned about their violent plans ended through law 
enforcement, mental health and school officials working 
together, there have been many, many situations that have been 
averted.
    And of course, our goal is to make sure that every possible 
act of school violence is averted and stopped.
    Mr. Scott. Can you talk about the cost-effectiveness of 
your prevention activities?
    Dr. Poland. Most of what I have talked about today really 
doesn't require that much in terms of increase in spending. It 
really has to do with priorities and somebody basically asking 
every school principal investigation, ``Do you have a threat 
assessment team? What are you doing for school safety? What are 
the biggest concerns in your school? How are you pinpointing 
those? How are your students involved? How are your faculty 
involved in prevention?''
    So I think it is much more attitudinal. Certainly, I would 
support expanding the number of professionals who work in 
school--absolutely. But I also believe that we can do a lot 
more with their existing personnel, if we make school safety a 
higher priority.
    Mr. Scott. Well, there are other theories about what to do. 
What about suspending students on a zero-tolerance basis 
without any services? How effective is that in reducing school 
violence?
    Dr. Poland. I am very concerned when we suspend and expel a 
student, because now they are simply on the street, and there 
is no intervention. Sometimes I will say, ``Why can't they come 
back to school at 4:30 after all the classmates went home and 
see the school counselor? How can we figure out? Do we have 
another more intensive structured program?''
    Frankly, I don't believe we should have any students out of 
school. It is always a question of where is the next 
intervention? What will help them? We need to do more.
    Mr. Scott. Okay. And can you say a word about the deterrent 
effect of longer prison sentences, the threat of longer prison 
sentences, and the threat of trying juveniles as adults?
    Dr. Poland. I am very concerned about the movement to 
essentially lock young people, as young as 12, 13, 14 and 15, 
up for the rest of their lives. Frankly, I wish we somehow 
could spend our money on prevention instead of incarceration.
    And then we always have the dilemma of where do you put in 
the 11-year-old in Montana, who brought a gun to school and 
killed somebody? Where do you put a 15-year-old from Bethel, 
Alaska, who killed classmates? What can we do that is truly 
going to make a difference? And how do we keep them away from 
perhaps a much more hardened adult criminal population?
    Mr. Scott. Well, they are trying.
    Thank you, Madam Chair.
    Chairwoman McCarthy. Thank you, Mr. Scott.
    Mr. Andrews?
    Mr. Andrews of New Jersey. Thank you, Madam Chairwoman. 
Thanks for the opportunity to be here today.
    Ms. Walker, I was particularly distressed when I heard your 
comment about the school officials, who reacted the way they 
did so densely to the problems you brought to their attention. 
Did they make any suggestions at all about how your son could 
have a better environment? Or did they just write this off as 
kids will be kids?
    Ms. Walker. Thank you for having me today. Actually, no, 
they did not. When I was alerted to the problem that Carl was 
having, I engaged with the guidance counselor at Carl's school. 
And I said to the guidance counselor, ``It seems like he is 
having problems.'' The guidance counselor met with Carl once a 
week, starting in November, until his death, and she would come 
up with the grid for him for his teachers. In his teachers 
would sign in one if he behaved or zero if he didn't behave.
    So what I found was that was sort of like the victim, which 
was Carl, he became the problem. It was like it was Carl's 
problem. There weren't any solutions. And there wasn't any 
notification given to me on the last day of his life that there 
was a major fight in the school involving Carl. So I didn't 
know what happened on April 6th. All I had was what Carl told 
me, and that is what I went by.
    And my intention that night was to go to a PTO meeting, 
which was held that night, and take Carl with me so I could get 
to the bottom of what happened in school that day, because the 
school did not notify me.
    Mr. Andrews of New Jersey. If I may, I think that your 
story is sadly typical, that young people who speak up and who 
are the victims of these problems somehow get classified as the 
problem themselves. And the idea that a grid was kept about his 
behavior is really offensive. And I think that it suggests that 
by speaking up as a human being to be treated with dignity, he 
was then mistreated. You know, that sort of a--anyone who 
speaks up is a--is a problem child.
    Jackie, how typical do you think that is, based upon your 
experience and your research, that how much of a disincentive 
is there for a young person speak up and say, ``Wait a minute. 
There is a problem here,'' and then they get blamed for it?
    Ms. Jacquelyn Andrews. Thank you.
    Mr. Andrews of New Jersey. You are welcome. [Laughter.]
    Ms. Jacquelyn Andrews. The question is how typical is it 
for----
    Mr. Andrews of New Jersey. How often does the person who 
speaks up, who is the victim, get blamed for speaking up?
    Ms. Jacquelyn Andrews. All the time--not only from the 
teachers a lot of the time, but you were, ``Why is this a 
problem?'' And they will ask you, ``Why is this a problem?'' 
And they should be asking the bully themselves.
    And it is also a main focus is actually the students 
themselves. The person who speaks up is so afraid to speak up, 
most commonly because of the fact that they are afraid they are 
going to be even more ridiculed by the bully, by the other 
students.
    Mr. Andrews of New Jersey. Dr. Poland, what do we do about 
that problem? And I would tell you both anecdotally and from 
the research that I have benefited from that my daughters have 
done and other research, that it does seem very typical that 
the reflex reaction of some school administrators say, ``Oh, 
this kid is being a problem by speaking up.''
    What do we do to change the training and education of 
administrators and teachers to remedy that situation?
    Dr. Poland. Well, I think that was very well stated, and I 
think we are going to need to develop a lot of programs and to 
have a lot of resources and a lot of discussion with educators 
throughout the country. Sometimes they view bullying is kind of 
a rite of passage. Everybody got bullied. You just get through 
it.
    Mr. Andrews of New Jersey. Yes.
    Dr. Poland. And thankfully, many people do get through it. 
But sometimes they do not, and it can have some long-lasting 
consequences. And it is just really important that we make 
certain that no child feels like it is his fault that he or she 
gets picked on, and we provide them all the support possible.
    And their parents must be a part of the discussion so that 
parents have an opportunity to help their child, and we all 
work together to reduce the situations where bullying occurs 
and to make sure that children have the self-concept to 
realize, ``It is not my fault.''
    Mr. Andrews of New Jersey. Ms. Walker, if I could just 
conclude with you. If you had the opportunity to tell the 
principal of your son's school one thing that principle should 
have done differently that might have avoided this awful, awful 
loss that you suffered, what should that principle have done?
    Ms. Walker. Well, when I talked to the principal on April 
7th and I explained to her what happened to Carl, Carl was very 
upset because someone at the school had told him that he was 
facing a 5-day suspension, because the mediation for this 
incident was that he had to sit down and have lunch with the 
person who threatened to kill him.
    And Carl was a nice kid, and he wanted to have lunch with 
the person, even though she threatened to kill him. But the 
other student did not want to have lunch with him.
    And so when I told the principal, I said, ``I don't really 
think that was, you know, a good idea to have, you know, my son 
had lunch with somebody who threatened to kill him.'' And she 
told me--her response was, ``That is what we do. When there is 
a problem with a child, we have them sit down as mediation, and 
they have to try to work it out.''
    So obviously, clearly, that is a problem. If a child is 
being relentlessly bullied and your solution as the school is 
to have that child sit down with the people that are bullying 
him, and he is in fear of his life, that is a problem.
    Mr. Andrews of New Jersey. I see my time has expired. The 
disturbing part of this is that the moral equivalent that it 
creates between a young man who is just trying to be a peaceful 
student and learn and someone who has decided to make his life 
miserable--to equate those two morally is very, very 
disturbing. Thank you.
    Chairwoman McCarthy. Thank you.
    Mrs. Davis?
    Mrs. Davis. Thank you, Madam Chair.
    And thank you very much, Ms. Walker, for being here.
    And to all of you, especially the young people who are 
testifying.
    I am going to try and go through a few questions really 
quickly, and then I want to yield to my colleague, Ms. Sanchez, 
because we are afraid that the time is going to run, but maybe 
if she has time, we will--I will have a chance to--just a few 
things.
    One of the things you mentioned, Mr. Riach, about your 
program, and I know that the young women, the Andrews here, 
have said students need to be engaged in really creating a lot 
of these programs. And I know that many--if I read correctly, 
yours were more adult preparation, and yet they were very good. 
I mean they have had some good results.
    And I am wondering how young people, if we can frame this 
within even No Child Left Behind to create an environment where 
young people are more really engaged and in many ways empowered 
to create these programs at their schools so that it is in a 
language that they know and understand with adult support.
    Do you have any thoughts about that and whether you test 
out these programs with young people, because I know from my 
experience on the school board, too, it is, you know, when 
young people create the messages, they may know a whole lot 
more than some of the things that we think of, which are 
totally irrelevant to kids' lives. So I wondered about that 
particularly. We would just run through it.
    The other question was how then, again in No Child Left 
Behind, we are able to embed some of these programs and 
curriculum. And if you have seen ways in which we can do that 
at the federal level, to video sharing, through some way and 
evaluating whether programs can be picked up in that way 
without having major--you know, so we don't have to invent the 
wheel repeatedly, recognizing that each school is different, 
each district is different. Any suggestions about that?
    And finally, I am just wondering about the programs and the 
sensitivity to language. One of the things that we know, and 
this carries with us through our adult lives, and we are 
actually studying this as we look at sexual assault in the 
military, the language that is used, and a lot of it is 
language which is demeaning to women--someone is a sissy, 
someone, you know, and whether it is references to gays or 
whatever that may be--and I am wondering, in your experiences, 
if there is much effort on trying to change or help students 
understand that sensitivity to language and build in sort of 
their resilience to resist it. Thank you.
    Mr. Riach. Thank you very much. You remind me if I don't 
address something that you have asked. But the first question 
in terms of young people and their participation, we find that 
to be incredibly valuable, and we have high school and middle 
school students who participate in the creation of our 
curriculum.
    We not only tell the story of people like Ann Abernathy, 
who is sitting behind me, who was a six-time Olympian, the only 
female six-time Olympian and oldest female Olympian in history, 
who is an incredible overcomer, who has overcome cancer and 
broken bones and knee surgeries and is fighting another bout 
with cancer, which she will overcome.
    But we also tell the stories of teenagers, who--a homeless 
teenager, Lewis Daniels from New York, who ended up getting a 
scholarship to Yale. Some other teens have started respect 
programs in their schools, and we would like to profile these 
two young ladies after today.
    But those stories are critical and the involvement of young 
people in creating those materials----
    Mrs. Davis. Yes, I think that is my question--not that you 
tell the youth stories, but the role that they play in doing 
that.
    And perhaps I don't know whether Jacqueline, or if you want 
to respond to that a little bit about how--because students 
have to be helped to provide that kind of direction.
    Ms. Jacquelyn Andrews. You mean what are the incentives for 
a child?
    Mrs. Davis. How you do it. You know, that--just to train 
young people to be able to do essentially what you are doing in 
the language of young people that would have more resonance in 
what they are doing.
    Ms. Jacquelyn Andrews. Well, that is what our programs are 
set up to do, and they are basically we focused on different 
grades, three and four, five and six, seven and eight.
    And for the third and fourth graders, they are like 
coloring books, picture books, where you would read them and 
the ending would never be finished. And it is the child's job 
themselves to finish the story. And then they are supposed to 
have discussions about it afterwards.
    Or the seventh and eighth graders, who are going to read 
these stories, millions and millions of bullying stories 
online, but written by the victims, and they are meant to talk 
about and discuss what they have experienced, summarize what 
happened and how the children around them and they themselves, 
if they are ever in the situation, can make a difference about 
it.
    Mrs. Davis. Thank you. That is helpful. I am really sorry 
to rush, but I know that I have always got some other folks who 
want to ask a question. So can I ask you just about the 
language? Is that something--and not just anybody there who 
could really reply--is that something that you think should be 
the focus is on these programs?
    Ms. Josie Andrews. Well, I wrote actually a musical movie 
formatted for something like ``High School Musical'' and ``Camp 
Rock'' and the things that kids really do watch, because it is 
a fun way to learn about it, where kids will really understand, 
coming from a kid, and with songs and talking exactly the way 
they talk in a way that they would watch it anyway.
    But these movies that I have watched and the Hannah Montana 
shows, they don't have a message to them. And I know a lot of 
people say in this world of TV and movies and everything, which 
is such a great way to reach kids, that they watch these movies 
and watch these TV shows to escape reality, and bullying is way 
too close to home.
    But I think ignoring it is making it so much worse. And I 
think with the language of a real 14-year-old girl, who can 
relate to the 10-year-olds out there, who have been through the 
same exact thing that they have been through----
    Mrs. Davis. Yes. I think what I am also concerned about is 
the----
    Chairwoman McCarthy. I am sorry, Mrs. Davis, but we have 
really got to move on.
    Mrs. Davis. Okay. Thank you. I was going to yield.
    Chairwoman McCarthy. You have no time left.
    Mr. Payne? And then we have a vote going on, and we have 5 
minutes, or just about 6 minutes. Maybe if we run down and 
vote----
    You are not coming back.
    All right, Mr. Payne, if you could just take a couple of 
minutes to get your question?
    Mr. Payne. All right, great.
    Well, I will certainly--one does not just see the Andrews 
Sisters. When I was growing up, there was a group called the 
Andrews Sisters. That was World War II. [Laughter.]
    But it is nice to meet you. And what I will do, since 
Representative Woolsey has dealt with issues like these her 
business profession, I will yield my time so that perhaps she 
might want to ask the questions then.
    Ms. Woolsey. Thank you very much.
    I am sorry I wasn't here to hear your testimony. It was 
impossible.
    I am most interested in the peer-to-peer group actions and 
activities. In my district in Santa Rosa, California, we have a 
great peer program that just started out with one school, one--
I believe it was ninth and 10th graders, and now it has grown, 
gone to lower schools and the higher schools.
    But I think we should concentrate on that and more, 
because, you know, most of this comes from home. We all know 
that, that if your parents teach you not to bully, you are 
probably--and they don't bully you--you probably won't.
    But that doesn't mean when you get there that you are going 
to know how to handle it, because we have not prepared kids for 
subtle bullying. I mean guns, you talked about guns. You talked 
about name-calling, threatening. That is overt. But there is 
subtle bullying that only kids can pick up on and talk to each 
other about.
    So talk to me about how you build these groups. How do you 
counsel the group so that it begins with kids counseling each 
other? And what happens when somebody hears about somebody 
being bullied?
    Oh, all right.
    Ms. Josie Andrews. Well, in our organization, SAVE, we are 
run by a national youth organization. We have 10 students from 
across the country, and we write the--have the same essential 
manual that every club across the country has, and it tells 
them how they should run their club and how they should handle 
specific problems.
    So I think it is really important that students are the 
ones making the rules--not really the rules, but the manual. 
And we meet every year. We all come together, and they 
basically plan out everything that our club, the chapters, 
should do.
    And I think peer-to-peer is very important, especially we 
are in elementary, middle and high school levels. And in 
elementary, the teachers are more active than the club, and 
then the teacher gets lessened as they go on. And then in high 
school the students run the entire club.
    So we seek--our advisors are there just for moral support, 
but it is really important to have students being in charge and 
making the rules, because students are more willing to listen 
to their friends rather than a teacher, who they are used to 
having to obey and to listen to the rules from.
    Ms. Woolsey. So, either one of you Andrews, beautiful young 
women, tell me what happens when a kid can't handle something 
that is going on. Then what do you--where do you go from there 
when you are one of the peer counselors?
    Ms. Jacquelyn Andrews. Well, it is--we are more--we have 
more about the program itself, and it is supposed to teach you 
how to deal with those programs by placing kids in situations 
based on our books and our stories. Our main focus is these--
these paperback books that you see here.
    Ms. Woolsey. So they learn by reading--and not by example 
exactly.
    Ms. Jacquelyn Andrews. Right.
    Ms. Woolsey. But your program--you get to have a school 
play that was all about something like this.
    Ms. Jacquelyn Andrews. Yes.
    Ms. Woolsey. Okay. Any of the rest of you--I know we have 
got to go.
    Mr. Riach. So I would say I misunderstood the 
congresswoman's previous question, but they both tie in. Our 
program has peer activities that are critical thinking, 
decision-making exercises that are led by peers. There is also 
a peer recognition piece, so peers are recognizing and honoring 
and rewarding those who exhibit good character.
    So what happens is you have a recognition, and you have got 
the instruction from the adults, but you also have something 
very unique going on peer-to-peer that creates a different 
environment.
    And if I might, you know, one of the aspects that I think 
is so critical as it goes deeper than just what takes place 
from a anti-bullying standpoint. And I will give you an 
example.
    In Keller, Texas, which is a suburb, a middle-class suburb, 
a teacher using our program asked eighth-grade students to 
define the word ``integrity,'' and they were writing in their 
books. Out of the entire classroom, only one student was 
writing the answer, so he pulled back and he said, ``Let us 
take a step back for a moment. How many of you in this room 
have ever heard the word `integrity' or have the remotest idea 
what the concept is?'' Only the student that was writing raised 
his hand.
    So there is a whole education process that needs to take 
place with the students to prepare them not to bully. I mean we 
have got some work to do on the front end.
    Ms. Woolsey. Right.
    Yes, Mr. Trump?
    Mr. Trump. Just real briefly, in addition to the wonderful 
programs that are there, would lead to safety assessments for 
schools, I always ask to speak with kids. And we will have 
parents, teachers, psychologists, administrators, everyone, but 
a lot of times the kids aren't there.
    And in addition to the formal programs, I think we just 
need to work on training school administrators and staff to 
have students at the table like we have today.
    At one school a colleague of mine tells the story of how 
they were having break-ins at a parking lot in the high school 
where he was a school resource officer. And they had a student 
on the school safety committee, and there was a big debate with 
the adults. Do we need more--hire a police officer out there? 
And so a parent who happened to sell cameras said, ``Well, my 
company could provide the cameras.'' And the student at the end 
of the adult discussion raised her hand and said, ``Why don't 
you just arrest Johnny Jones? He is the one that is breaking 
into cars.''
    Ms. Woolsey. Right. [Laughter.]
    Okay. We are through. Thank you so much.
    Thank you very much, Madam Chairwoman.
    Chairwoman McCarthy. I want to thank everybody. As you 
know, we have a vote. We are down to zero minutes remaining. So 
I want to thank all of our witnesses for being here. Each of 
you have highlighted really things that we need to look at as 
we go forward on our committees.
    School violence and bullying is not acceptable in any way.
    You have seen a little bit of confusion here. They are 
asking me to run over to Financial Services, because they had a 
gun amendment on the housing bill, and they had wanted me to 
speak up against it. But this is the life we are living and 
unless we stop the bullying and stop producing these people 
that are going into violence at a very early age, that is one 
way not only this country can be safer, but the world.
    We have testimony from many different organizations that 
really wanted to speak. I think we could have a whole day of 
hearings with everyone that wanted to speak, but with that 
tight time that we have, because we are having hearings in the 
afternoon on different subjects, we needed to give it down to 
the minimum. But I do want to add a number of testimonies that 
did come in that wanted to be heard.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should be coordinating with the majority staff within 
the requested time.
    Without objection, this hearing is adjourned, and I thank 
you.
    [The statement of Mr. Hinojosa follows:]

Prepared Statement of Hon. Ruben Hinojosa, a Representative in Congress 
                        From the State of Texas

    I want to thank Chairwoman McCarthy and Chairman Kildee for holding 
this important hearing. As a cosponsor of H.R. 2262, the ``Safe Schools 
Improvement Act,'' and H.R. 1589, the ``Bullying and Gang Reduction for 
Improved Education Act,'' legislation introduced by Rep. Linda Sanchez, 
I believe that unsafe, unhealthy learning environments adversely Affect 
our children, youth and families and contribute to our nation's dropout 
rate in our public schools. We must do more to ensure that many more of 
our students succeed and graduate.
Question for Kenneth S. Trump, President of National School Safety and 
        Security Services
    1. Mr. Trump, in your testimony, you underscore ``that students and 
parents are key, but often missing partners in school safety 
programs.''
    I represent the fifteenth congressional district in Texas and many 
of my constituents are parents who are limited english proficient, low-
income, and sometimes work two jobs to make a living. Given your wealth 
of experience, can you identify some national model programs that have 
been successful in engaging hispanic and minority parents on school 
safety and anti-bullying issues?
Question for Dr. Scott Poland, Faculty Member and Coordinator Suicide 
        and Violence Prevention Office at NOVA Southeastern university 
        in Fort Lauderdale, Florida
    2. I understand from your testimony that you served as Director of 
Psychological Services for the Cypress-Fairbanks Independent School 
District in Houston, Texas for 23 years. In your testimony, you 
indicated that students do not look to adults for help because they 
fear retaliation, do not trust adults, and have been conditioned not to 
tell. Can you highlight some key programs that you developed in texas 
to build positive relationships among students, teachers, parents, and 
other adults on school campuses?
                                 ______
                                 
    [The statement of Ms. Sanchez follows:]

   Prepared Statement of Hon. Linda T. Sanchez, a Representative in 
                 Congress From the State of California

    I thank Chairs Kildee and McCarthy and Ranking Members Platts and 
Castle for allowing me to participate today. As you know, I have been 
committed to addressing bullying, harassment, and gang violence in 
schools since I came to Congress almost seven years ago. I am glad to 
see that this serious issue is getting the attention it deserves 
although I am sad and disappointed that it took the tragic suicides of 
so many young people to draw the nation's focus on the need to combat 
bullying.
    That is why I have reintroduced both the Safe Schools Improvement 
Act and the Bullying and Gang Reduction for Improved Education Act.
    Studies have shown that harassment and bullying of youth can lead 
to poor academic performance, truancy, and increased risk of suicide. 
Furthermore, when left unchecked, hostile school environments can lead 
to violence, as in the tragic case of California middle school student 
Lawrence King, who died in 2008 at the hands of a classmate who 
objected to his sexual orientation and gender expression.
    LGBT youth are some of our nation's most vulnerable students, and 
some of the most frequent targets of bullying, and Congress must act to 
ensure that all youth are protected. As the Andrews sisters so 
eloquently stated, bullying is not just an example of kids being kids. 
As part of learning to be a good citizen, students must learn to do 
something about it. Mere bystanding only perpetuates the behavior and 
emboldens the bully. When we empower schools to teach children as well 
as school personnel to prevent and address bullying, we not only make 
schools safer, we make learning happen, and we even save lives.
    I hope that the testimony given at today's hearing will show the 
desperate need to make sure that schools address bullying and 
harassment as part of their overall safe school strategies.
                                 ______
                                 
    [Additional submissions of Mrs. McCarthy follow:]

   Prepared Statement of the American Association of University Women

    Subcommittee Chairmen Kildee and McCarthy and members of the 
Subcommittees, thank you for the opportunity to submit testimony for 
the hearing ``Strengthening School Safety through Prevention of 
Bullying.''
    The American Association of University Women is a membership 
organization founded in 1881 with approximately 100,000 members and 
1300 branches nationwide. AAUW has a proud 127-year history of breaking 
through barriers for women and girls and believes all students deserve 
safe learning environments. Today, AAUW continues its mission through 
education, research, and advocacy.
    AAUW stands firmly by the belief that the country should provide an 
excellent education for all children. The 2009-2011 AAUW Public Policy 
Program of contains the firm belief that ``* * * quality public 
education is the foundation of a democratic society'' and advocates a 
``* * * bias-free public education * * *''\1\ However, our nation's 
schools face longstanding challenges in preventing and effectively 
responding to instances of bullying and harassment. Bullying and 
harassment interfere with a student's ability to achieve high standards 
and have a significant impact on GPAs, school attendance, dropout 
rates, and likelihood of obtaining a post-secondary education. In 
addition, bullying and harassment can lead to even greater school 
safety problems. Many high profile cases of school violence have been 
attributed to students who were bullied and harassed in school. Whether 
based on race, color, national origin, sex, disability, sexual 
orientation, religion, gender identity or any other characteristic, 
bullying and harassment interfere with students' ability to learn.
Legislation to Prevent Bullying
    Although a limited number of federal laws address certain 
particular kinds of harassment, they do not prohibit all kinds of 
harassment in schools, and no federal law specifically prohibits 
bullying in schools. Therefore, the enactment of more comprehensive 
safe schools policies will fill a troubling gap in federal education 
policy--to ensure that all students, regardless of their background or 
personal characteristics, are provided a safe environment in which to 
learn and succeed.
    Implementation of stronger policies is necessary to deter bullying 
and harassment and help to ensure safe learning environments for all 
students. Recent research shows that bullying affects nearly one in 
three American school children in grades six through ten.\2\ A National 
School Boards' Association study found that half of those surveyed 
reported that they see other students being bullied at least once a 
month;\3\ more disturbing is that almost half of students surveyed 
stated that they doubted teachers could stop the behavior.\4\ AAUW 
believes that parents, educators, and advocates--together with 
students--should focus on changing the culture of harassment and 
bullying in schools. This can be done by promoting students' use of 
existing resources to address problems, and passage of legislation to 
better address both prevention of bullying and to ensure the 
implementation of strong policies should bullying and harassment occur.
    AAUW supports legislation that prevents bullying and harassment and 
clearly enumerates categories of students that are protected. Children 
who attend schools with anti-harassment policies with clearly 
enumerated student categories report that they feel safer (54 percent 
vs. 36 percent) and are less likely to skip a class because they feel 
uncomfortable or unsafe (5 percent vs. 16 percent). Specific enumerated 
policies against bullying and harassment also make it more likely and 
easier for educators to intervene when they witness bullying and 
harassment. More than half of all teachers (53 percent) reported that 
bullying and harassment is a serious problem in their school. Students 
noted that teachers were more likely to intervene (25.3 percent vs. 
12.3 percent) when bullying occurred, and were more likely to do so 
successfully (55.7 percent vs. 38.7 percent), if school policies 
included enumerated student categories (compared to non-enumerated 
policies).\5\
    An example of an enumerated policy:
    BULLYING--The term `bullying' means conduct that
    (A) adversely affects the ability of one or more students to 
participate in or benefit from the school's educational programs or 
activities by placing the student (or students) in reasonable fear of 
physical harm; and
    (B) includes conduct that is based on----
    (i) a student's actual or perceived----
    (I) race;
    (II) color;
    (III) national origin;
    (IV) sex;
    (V) disability;
    (VI) sexual orientation;
    (VII) gender identity; or
    (VIII) religion;
    (ii) any other distinguishing characteristics that may be defined 
by a State or local educational agency; or
    (iii) association with a person or group with one or more of the 
actual or perceived characteristics listed in clause (i) or (ii).
    AAUW supports The Safe Schools Improvement Act, H.R. 2262, which 
clearly enumerates categories of students. In addition, the legislation 
would require that states, districts, and schools develop policies and 
programs to prevent and appropriately respond to instances of bullying 
and harassment as a condition of receiving federal funding. This 
proposal would require that:
    <bullet> States, districts, and schools have in place policies 
prohibiting bullying and harassment; and
    <bullet> Schools and districts establish complaint procedures to 
effectively respond to instances of harassment in a manner that is 
timely and results in educationally appropriate resolutions for 
students who are victims of bullying or harassment; and
    <bullet> States include information regarding bullying and 
harassment in their required drug and violence prevention reports.
    This proposed legislative language would also allow states, 
district, and schools to use funding under the Safe and Drug-Free 
Schools and Communities Act to:
    <bullet> Provide professional development regarding strategies to 
prevent bullying and harassment and how to effectively intervene when 
such incidents occur; and
    <bullet> Implement student education programs designed to teach 
students about the issues around, and consequences of, bullying and 
harassment.
Sexual Harassment
    In addition to bullying, many students also face sexual harassment 
at school. Almost a decade ago, AAUW's own research revealed that 83 
percent of girls and 79 percent of boys reported having experienced 
sexual harassment, and over one in four students stated that harassment 
happens ``often.'' \6\ Also, although large groups of both boys and 
girls report experiencing sexual harassment, girls are more likely to 
report being negatively affected by it.\7\ In addition, if unchecked, 
bullying and harassment follow students to college. AAUW's more recent 
report, Drawing the Line: Sexual Harassment on Campus, found at the 
postsecondary level, nearly two-thirds of college students (62 percent) 
say they have been sexually harassed,\8\ including nearly one-third of 
first year students;\9\ 41 percent of students admit they have sexually 
harassed another student.\10\
    Since AAUW's first research into this area in 1993, students have 
become more aware of their school's harassment policies and the 
resources available to them.\11\ Unfortunately, students' increased 
awareness has not translated into fewer incidents of sexual harassment, 
nor has it increased the likelihood they would report such 
incidents.\12\ Sexual harassment has serious implications for students, 
some of whom may experience a hostile educational environment on a 
daily basis. However, most do not report it or even talk openly about 
sexual harassment as a serious issue.\13\
How Title IX Protects Students from Sexual Harassment
    Title IX protects students from unlawful sexual harassment in all 
of a school's programs or activities, whether they take place in the 
facilities of the school, on a school bus, at a class or training 
program sponsored by the school at another location, or elsewhere. 
Title IX protects both male and female students from sexual harassment, 
regardless of who the harasser may be.\14\
    Title IX also prohibits sexual harassment by any employee or agent 
of the school. Covered institutions must have a procedure in place that 
provides for equitable resolution of sexual harassment complaints, 
which may be the same procedure set up for general Title IX 
complaints.\15\
Case Law and Regulations Addressing Sexual Harassment in Schools
    In 1997, the U.S. Department of Education's Office for Civil Rights 
(OCR) issued policy guidance on sexual harassment, outlining Title IX's 
requirements in this area and providing schools with much-needed help 
in defining, addressing, and preventing sexual harassment.\16\ The 1997 
guidance makes clear that inaction is never the right response to 
sexual harassment and urges schools to adopt policies and procedures 
that help prevent such misconduct. In 1998, however, the U.S. Supreme 
Court found in Gebser v. Lago Vista Intermediate School District that 
school districts were not liable for teacher-to-student sexual 
harassment unless there was prior knowledge of the harassment and 
demonstrated deliberate indifference.\17\
    In 1999, the U.S. Supreme Court ruled again on sexual harassment in 
schools in Davis v. Monroe County Board of Education.\18\ The court 
found that school districts can be held liable for student-to-student 
sexual harassment if the school district knew about the harassment and 
responded with deliberate indifference. The harassment must be severe, 
pervasive, and offensive, and it must interfere with the student's 
ability to get an education. Schools cannot, however, be held 
responsible for teasing and bullying.
    In 2001, OCR released important new policy guidance on sexual 
harassment to clarify a school's obligations in light of the Gebser and 
Davis decisions.\19\ The new 2001 guidance reinforces the 1997 guidance 
that schools are responsible for recognizing and remedying sexual 
harassment. Further, schools are potentially liable for failing to 
recognize or remedy such harassment.
Recommendations on Sexual Harassment
    While many schools have taken the first step in creating policies 
and procedures to address this problem, more can be done to help 
alleviate the culture of harassment that disrupts the educational 
experience of so many students. Sexual harassment defies a simple 
solution but still demands action. As AAUW's research over the last 
decade demonstrates, the problem is unlikely to go away on its own. 
Dialogue is a good first step in the right direction. Students, 
teachers, and parents and guardians must begin to talk openly about 
attitudes and behaviors that promote or impede our progress toward a 
harassment-free climate in which all students can reach their full 
potential.
    In addition to creating an atmosphere for productive and proactive 
dialogue on this issue, AAUW believes we must commit ourselves to 
strong Title IX enforcement at the local, state, and federal levels and 
ensure policymakers maintain a commitment to Title IX.
    <bullet> First, education programs, activities, and institutions 
must comply with their Title IX responsibilities and ensure that 
programs do not discriminate on the basis of sex, including designating 
an employee to be responsible for compliance with Title IX (typically 
known as a Title IX coordinator).
    <bullet> Second, Title IX coordinators and their respective 
schools/universities must proactively disseminate information in the 
school and campus community to ensure that students and employees are 
aware of sexual harassment policies, as well as the school's process 
for filing complaints.
    <bullet> Third, the Department of Education must vigorously enforce 
all portions of Title IX in all aspects of education. Undertaking 
proactive compliance reviews to identify problems of sex discrimination 
and fully implementing Title IX regulations are important strategies of 
solid enforcement.
    <bullet> Fourth, the Department of Education must be required to 
annually collect data across all areas of education at the elementary, 
secondary, and postsecondary levels. The data must be broken down by 
sex so that progress in achieving gender equity can be measured and 
tracked.
    Communities must come together to shine a light on this issue and 
help students, faculty and staff, as well as parents and guardians, 
understand the many forms of sexual harassment and promote respectful 
and appropriate behaviors.
    For the latest research on this issue, refer to AAUW reports 
available at http://www.aauw.org/research/index.cfm. For testimony on 
Title IX's impact on sexual harassment, given by Lisa Maatz, AAUW's 
Director of Public Policy and Government Relations, at a House 
Committee on Education and Labor hearing in June 2007, visit http://
www.aauw.org/About/newsroom/pressreleases/upload/titleIXTestimony--
061907.pdf.
Conclusion
    All children must have a safe environment in which to learn. 
Currently, bullying and sexual harassment can significantly interfere 
with some students' ability to learn. AAUW strongly supports 
legislation that requires states and schools to develop policies to 
prevent bullying and harassment and procedures to effectively respond 
to such behavior. AAUW looks forward to working with Congress and the 
Obama Administration to develop these policies.
    Thank you for the opportunity to submit written testimony.
                                endnotes
    \1\ American Association of University Women. (June 2009). 2009--11 
AAUW Public Policy Program.
    \2\ Members of the National Safe Schools Partnership (June 2007). 
Bridging the Gap in Federal Law: Promoting Safe School and Improved 
Student Achievement by Preventing Bullying and Harassment in our 
Schools. Retrieved on December 19, 2008, from http://www.glsen.org/
binary-data/GLSEN--ATTACHMENTS/file/000/000/912-1.pdf.
    \3\ Hutton, Thomas. ``No Right of Passage: Coming to Grips with 
Harassment and Bullying.'' National School Boards Association's 
Leadership Insider, p. 1. August 2006.
    \4\ Ibid.
    \5\ Harris Interactive and GLSEN (2005). From Teasing to Torment: 
School Climate in America, A Survey of Students and Teachers. Retrieved 
on July 6, 2009, from http://www.glsen.org/binary-data/GLSEN--
ATTACHMENTS/file/499-1.pdf
    \6\ In 1993, AAUW released Hostile Hallways: The AAUW Survey on 
Sexual Harassment in America's Schools, which revealed that four out of 
five students in grades eight to 11 had experienced some form of sexual 
harassment. In 2001, the AAUW Educational Foundation released the 
follow-up report, Hostile Hallways: Bullying, Teasing, and Sexual 
Harassment in School, which found that nearly a decade later, sexual 
harassment remained a major problem and a significant barrier to 
student achievement in public schools. In response, AAUW developed a 
resource guide, Harassment-Free Hallways (2002), which provides 
guidelines and recommendations to help schools, students, and parents 
prevent and combat sexual harassment. All of these publications, 
including Drawing the Line, are available at http://www.aauw.org/
research.
    \7\ Ibid on p. 32.
    \8\ AAUW Educational Foundation. (2006). Drawing the Line: Sexual 
Harassment on Campus, 15.
    \9\ Ibid, 2.
    \10\ Ibid, 22.
    \11\ AAUW Educational Foundation. (2001). Hostile Hallways: 
Bullying, Teasing, and Sexual Harassment in School, 4.
    \12\ Ibid, 5.
    \13\ AAUW Educational Foundation. (2006). Drawing the Line: Sexual 
Harassment on Campus, 33.
    \14\ U.S. Department of Education, Office for Civil Rights. Sexual 
Harassment: It's Not Academic. Retrieved January 14, 2009, from http://
www.ed.gov/about/offices/list/ocr/docs/ocrshpam.html.
    \15\ U.S. Department of Education, Office for Civil Rights. Sexual 
Harassment: It's Not Academic. Retrieved January 14, 2009, from http://
www.ed.gov/about/offices/list/ocr/docs/ocrshpam.pdf.
    \16\ U.S. Department of Education, Office for Civil Rights. Sexual 
Harassment Guidance 1997. Retrieved January 14, 2009, from http://
www.ed.gov/about/offices/list/ocr/docs/sexhar01.html.
    \17\ Cornell University Law School. Alida Star Genser and Alida 
McCullough, Petitioners v. Lago Vista, Independent School District. 
Retrieved July 2, 2009 from http://www.law.cornell.edu/supct/html/96-
1866.ZO.html.
    \18\ National Women's Law Center. Sexual Harassment, Davis v. 
Monroe Brief. Retrieved January 14, 2009, from http://www.nwlc.org/pdf/
DavisBrief.pdf.
    \19\ U.S. Department of Education, Office for Civil Rights. Revised 
Sexual Harassment Guidance: Harassment of Students by School Employees, 
Other Students, or Third Parties; Notice. Retrieved January 14, 2009, 
from http://www.ed.gov/legislation/FedRegister/other/2000-4/
110200b.html.
                                 ______
                                 

      Prepared Statement of the American Psychological Association

    On behalf of the 150,000 members and affiliates of the American 
Psychological Association (APA), we thank you for holding this timely 
hearing on improving school safety through bullying prevention.
    APA is the largest scientific and professional organization 
representing psychology in the United States and is the world's largest 
association of psychologists. Comprising researchers, educators, 
clinicians, consultants, and students, APA works to advance psychology 
as a science, a profession, and as a means of promoting health, 
education and human welfare. Psychologists play a vital role in 
researching the causes and consequences of bullying in schools, as well 
as in preventing bullying through the development, implementation, and 
dissemination of research-based practices. In 2004, APA membership 
adopted a policy statement on bullying among children and youth, 
underscoring the tremendous commitment of psychologists and APA to this 
critical issue.
Background Issues
    Bullying is defined as aggressive behavior that is intended to 
cause harm or distress, involves an imbalance of power or strength 
between the victim and aggressor, and occurs repeatedly over time. It 
takes many forms, including physical violence and intimidation, teasing 
and name-calling, and social exclusion and the manipulation of social 
relationships. Increasingly, students report experiencing 
cyberbullying, a form of bullying that utilizes information technology, 
including email, instant messaging, cell phones, and Web sites, 
including social networks, such as Facebook and Myspace.
    Bullying is very widespread and impacts students regardless of 
their race, ethnicity, socioeconomic status, or whether they live in an 
urban, suburban, or rural area. Within a given school semester, 16 
percent of students report being bullied with some frequency, and one 
study found that more than three-quarters of students reported being 
bullied at some point during their school years.
    Children who regularly bully their peers tend to be impulsive, 
easily frustrated, dominant in personality, have difficulty conforming 
to rules, view violence positively, and are more likely to have friends 
who are also bullies. Boys who bully are usually physically stronger 
than their peers.
    Individual, family, peer, school, and community risk factors are 
associated with bullying. With respect to family factors, children are 
more likely to bully if they experience a lack of warmth and parent 
involvement, lack of parental supervision, and harsh corporal 
discipline. Some research suggests that young people who have suffered 
maltreatment engage in bullying behavior more frequently than their 
peers.
    Children who are the victims of bullying fall into one of two 
categories: ``passive'' victims of bullying, and ``provocative 
victims'' (also known as ``bully-victims''). Passive victims of 
bullying are often cautious, sensitive, insecure, socially isolated, 
and have difficulty asserting themselves among their peers. Boys who 
are bullied tend to be physically weaker than their peers. Children who 
have been victims of child abuse (neglect or physical or sexual abuse), 
who have disabilities, or who are or are perceived to be lesbian, gay, 
bisexual, or transgender are also more likely to be bullied by their 
peers. Children who are provocative victims are bullied but they also 
tend to bully other children. They frequently display some behavioral 
problems associated with children who bully others, as well as social-
emotional behaviors associated with victimization.
The Psychosocial Effects Associated with Bullying
    Bullying can exert short- and long-term psychological effects on 
both children who bully and those who are bullied by others, including 
negative impact on their level of engagement and learning in school. 
Bullying others has been linked to other forms of antisocial behavior, 
such as vandalism, shoplifting, skipping class, dropping out of school, 
fighting, and substance use. One study found that boys who were 
identified as ``bullies'' in middle school were four times as likely as 
other boys to have multiple criminal arrests by their early 20s.
    Additionally, children victimized by bullying experience negative 
psychosocial functioning, including lowered self-esteem, higher rates 
of depression, anxiety, feelings of loneliness, suicidal ideation, and 
higher rates of school absenteeism. In extreme cases, victims of 
bullying attempt or complete suicide. Furthermore, a study completed by 
the United States Secret Service and the United States Department of 
Education of multiple fatality school shootings found that 75 percent 
of the perpetrators had felt persecuted, bullied, threatened, or 
injured by others, prior to the incident.
State-Level Approaches to the Reduction of Bullying
    Thirty-nine states have enacted legislation to address the problem 
of bullying in schools, all of which encourage or require the 
development by the State education agency, school districts, or schools 
of policies that prohibit bullying. Beyond this commonality, great 
variation exists across these laws with regard to: whether and how they 
define bullying; the extent to which they set requirements for anti-
bullying policies; and the inclusion of support for training and 
prevention.
Effective Prevention of Bullying
    Recent meta-analyses show that bullying prevention programs can 
effectively decrease the incidence of bullying in schools. While data 
from certain programs revealed problems, and even increased rates of 
bullying, the differences between underperforming programs and 
effective programs are instructive.
    The most effective prevention strategies involve the entire school 
as a community, provide intensive intervention when bullying does 
occur, and change the climate of the school and norms for behavior. It 
is crucial that parents, caretakers, educators, administrators, health 
and mental health care professionals, cafeteria workers, school bus 
drivers, other school contractors and employees, and researchers work 
together to reduce bullying. Prevention strategies should span from 
kindergarten through high school and involve educating the school 
community about bullying, as well as implementing school policies that 
set clear behavioral expectations.
    Effective strategies include: consistent open dialogue about the 
causes and consequences of bullying via classroom discussions, role 
plays, and parent-teacher meetings; immediate intervention by school 
staff when bullying occurs and adequate adult supervision for at-risk 
situations (hallways during class transitions and playgrounds); and 
strict enforcement of negative consequences in front of student 
bystanders, which demonstrates that bullying behavior is not 
acceptable. Separate follow-up meetings with the students involved in a 
bullying dynamic and their respective parents help to ensure that 
bullying does not continue and that children who are bullied receive 
needed support.
    Parents must also be involved actively in their children's lives 
and intervene in a supportive and empathetic nature if they believe 
their or another child is being bullied. To help prevent bullying, 
parents should talk regularly and openly about bullying and peer 
relations, set clear expectations about children's behavior, carefully 
monitor children's behavior, enforce clear and concise behavioral 
guidelines, and reward children for positive, inclusive behavior. 
Furthermore, parents should seek assistance from the school's 
principal, teachers, and health and mental health professionals if 
concerns arise regarding their or another child's behavior.
Bullying Prevention and Other School Reforms
    Bullying prevention dovetails with other efforts to improve school 
climate and address problems related to student behavior. In 2005, the 
APA Zero Tolerance Task Force reported on the evidence-base surrounding 
the use of school disciplinary policies that require specific, and 
usually severe and punitive, responses by schools to student conduct 
violations. They found not only anecdotal evidence of zero tolerance 
leading to student expulsions for extremely minor infractions, but also 
that zero tolerance fails to promote safer schools. In response, the 
Task Force proposed the dissemination of prevention programs with a 
base in research and proven effectiveness, including bullying 
prevention, threat assessment, social and emotional learning, and 
positive behavioral supports (PBS). In addition, it should be noted 
that PBS schools already have in place an infrastructure into which 
bullying prevention programs fit naturally.
Recommendations
    With regard to the federal investment in bullying prevention, APA 
recommends:
    <bullet> Building on the adoption of H. Res. 762 from the 110th 
Congress, which declared support for the goals of National Bullying 
Prevention Awareness Week, by passing H.R. 1589, the Bullying and Gang 
Reduction for Improved Education Act of 2009;
    <bullet> Implementing and disseminating comprehensive, research-
based bullying interventions within schools and communities;
    <bullet> Supporting research that will lead to a better 
understanding of bullying and victimization, as well as evaluate and 
further refine evidence-based prevention programs that work;
    <bullet> Training for all school personnel (e.g., teachers, 
cafeteria workers, school-bus drivers, maintenance workers, school 
nurses, and mental health professionals) on bullying and bullying 
prevention; and
    <bullet> Providing funding to support the implementation of 
effective bullying prevention programs.
Conclusion
    In closing, the American Psychological Association would like to 
thank you again for convening this important hearing and for the 
Committee's ongoing commitment to the positive development of children 
and adolescents. We look forward to working with the Committee, as it 
develops effective prevention initiatives to address critical problems 
in the nation's schools.
                                 ______
                                 

 Prepared Statement of the National Gay and Lesbian Task Force Action 
                                  Fund

    Mr. Chairman and Members of the Subcommittees: We thank both 
Subcommittees for holding a hearing on the issue of preventing bullying 
and harassment in schools. The National Gay and Lesbian Task Force 
Action Fund--the oldest national advocacy organization for the civil 
rights of lesbian, gay, bisexual and transgender (LGBT) people--
represents a community with a substantial stake in the question of how 
to create safe schools. Among the groups at highest risk of aggressive 
bullying and harassment in schools are LGBT children and young adults, 
children and young adults who are perceived by peers to be LGBT, and 
the children of LGBT parents. Sadly, the nation has recently witnessed 
many youth suicides that were caused by severe and unremitting school 
bullying targeted at a student's actual or perceived sexual orientation 
or gender identity. This year, for example, Carl Joseph Walker-Hoover, 
an 11-year old in Massachusetts committed suicide because he faced 
daily anti-gay slurs and aggressive bullying. As such examples 
demonstrate, unsafe schools can have profoundly destructive 
consequences.
    Congress has an important role in addressing bullying and 
harassment in schools. Bullying and harassment are often motivated by 
homophobia, biphobia (hostility toward bisexual individuals) or 
transphobia (hostility toward transgender individuals and other persons 
who do not conform to socially-expected gender roles). Such forms of 
violence are not confined to any particular state or region; they are 
national problems deserving of federal legislative attention.
    The Task Force Action Fund welcomes federal measures to increase 
school safety that are cognizant of the specific prejudices faced by 
LGBT students and families. We ask Congress to pass measures that 
enumerate specific categories of protection, including sexual 
orientation and gender identity, and that promote inclusive education 
about sexual orientation and gender identity.
    As one concrete measure, we ask you to prioritize passage of H.R. 
2262, the Safe Schools Improvement Act, introduced by Representative 
Linda Sanchez. The Safe Schools Improvement Act amends the Safe and 
Drug Free Schools Act to help schools prevent bullying and harassment. 
Importantly, N.R. 2262 expressly addresses bullying and harassment that 
target a students actual or perceived identity or associations with 
persons or groups on the basis of race, color, national origin, sex, 
disability, sexual orientation, gender identity or religion. The Act 
also enables states and localities to define other categories of 
protection.
    This enumeration of protection found in the Safe Schools 
Improvement Act serves many important purposes. It provides explicit 
guidance to policymakers, school officials and teachers. For many LGBT 
students, inaction by teachers and school officials can often 
exacerbate bullying and harassment by giving the false impression that 
targeting students on the basis of sexual orientation or gender 
identity is permissible. Furthermore, by expressly protecting students 
on the basis of actual or perceived sexual orientation and gender 
identity, and on the basis of association with LGBT people, the Act 
would send a strong and clear message that schools have a duty to 
actively protect all students, regardless of sexual orientation or 
gender identity. We urge you to support the Safe Schools Improvement 
Act and similar measures. Schools, by their very nature, should be 
places of safety, not fear. No child should have to endure what Carl 
Joseph Walker-Hoover and many others have faced; no family should have 
to fear the terrible potential consequences of unceasing bullying and 
harassment. We thank both Subcommittees for holding this hearing.
                                 ______
                                 

  Prepared Statement of Jennifer Chrisler, Executive Director, Family 
                            Equality Council

    On behalf of the thousands of families that support Family Equality 
Council, the national organization working to ensure equality for 
lesbian, gay, bisexual, and transgender (LGBT) families by building 
community, changing hearts and minds, and advancing social justice for 
all families, I would like to thank Chairman Kildee and Chairwoman 
McCarthy, along with Ranking Members Castle and Platts, for holding 
this important hearing on bullying and harassment prevention in our 
country's schools. Bullying cannot be dismissed as ``kids being kids.'' 
It is a serious public health issue that impacts the long-term social, 
academic, psychological and physical well-being of our youth, with 
outcomes ranging from academic decline to suicide. This hearing is an 
important and welcome first step toward addressing this pervasive 
problem in our nation's schools.
    The mission of Family Equality Council is to create and protect 
happy, healthy LGBT-headed families. Central to this is the ability of 
our children to attend school without fear of bullying, violence and 
harassment because of who their parents are or how their families were 
formed.
    Studies show that alarming numbers of children of LGBT parents 
report experiencing bullying and harassment at school because of the 
families they come from. In 2008, Family Equality Council issued a 
report in partnership with the Gay, Lesbian and Straight Educators 
Network which found that nearly half of surveyed children with LGBT 
parents--forty-two percent--reported experiencing verbal harassment in 
the previous twelve months at school because of their family 
composition, including negative remarks specifically about having an 
LGBT parent. In addition, over one third reported that they had been 
verbally harassed because of their actual or perceived sexual 
orientation and nearly one third had experienced verbal harassment 
because of the way they expressed their gender.
    Studies such as this, and many others, demonstrate why school 
policies that enumerate protected categories including sexual 
orientation and gender identity are vital to school safety and 
protection from bullying and harassment. Students who attend schools 
with anti-harassment policies that enumerate categories of students for 
protection report that they feel safer (54% vs. 36%) and are less 
likely to skip a class because they feel uncomfortable or unsafe (5% 
vs. 16%). Enumerating categories does not create special groups or 
privileges; rather, it provides protection in a way that research has 
shown is essential for protecting all students equally.
    Currently, federal law does not comprehensively and expressly 
address issues of school bullying and harassment and in no way 
addresses the challenges LGBT youth and children of LGBT parents face 
in schools. The Safe Schools Improvement Act, H.R. 2262, which was 
introduced on May 5 by California Representative Linda S nchez and 
joined by lead cosponsors Florida Representative Ileana Ros-Lehtinen 
and New York Representative Carolyn McCarthy as well as 40 bipartisan 
cosponsors, would substantially increase the success of schools in 
keeping our children safe. H.R. 2262 would strengthen existing laws 
protecting youth in schools by requiring schools and districts 
receiving federal funds to adopt codes of conduct specifically 
prohibiting bullying and harassment, including on the basis of sexual 
orientation and gender identity.
    As a parent, and on behalf of all the LGBT families and children 
Family Equality Council serves, I urge Congress to focus on the 
pressing issue of bullying and harassment in its effort to promote 
safety in American schools and to protect our youth by supporting and 
passing H.R. 2662.
                                 ______
                                 

     Prepared Statement of Meredith Fenton, COLAGE Program Director

    COLAGE is pleased to submit this testimony in support of the 
Federal Safe Schools Improvement Act. As a national network of 
children, youth, and adults who have one or more lesbian, gay, 
bisexual, transgender, or queer (LGBTQ) parents, we intimately know the 
importance of striving for safer school environments for all students 
nationwide.
    All students in the United States have a right to an educational 
environment that is safe and supportive. Compulsory education at the 
primary level was affirmed as a human right by the Universal 
Declaration of Human Rights in 1948. However the existence of 
harassment, name-calling and bullying plagues US schools and is 
significantly impacting the ability of students with lesbian, gay, 
bisexual, transgender and/or queer (LGBTQ) parents to learn and thrive 
in their educational environments.
    Schools are not safe for students with LGBTQ parents. Middle and 
High School aged youth with LGBTQ parents face heightened levels of 
bullying, name-calling and harassment. In a 2008 report released by 
GLSEN, COLAGE and the Family Equality Council about the experiences of 
middle and high school students with LGBTQ parents we learned how large 
this problem is: a majority of youth with LGBTQ parents often hear 
derogatory remarks about LGBTQ people and families while they are in 
school. Over a third of youth with LGBTQ parents are being verbally 
harassed and a tenth of students experience physical harassment and 
assault each year. Nearly a half of COLAGE students report having 
rumors or lies spread about them in school specifically because they 
had an LGBTQ parent. More than half of students say that they do not 
feel safe in their school because they have an LGBTQ parent and/or 
because other students assume that they, themselves are LGBTQ. Students 
who don't feel safe in their school are much more likely to skip class 
or miss entire days of school.
    Teachers and School staff often contribute to the problem of 
bullying and harassment faced by students with LGBTQ parents. In a 2008 
report released by GLSEN, COLAGE and the Family Equality Council about 
the experiences of middle and high school students with LGBTQ parents, 
only 38% of students surveyed said that staff frequently intervened 
when hearing remarks about LGBTQ parents and even smaller percentages 
of teachers and staff intervene when they hear or observe name-calling 
or bullying based on sexual orientation and gender identity. Even more 
upsetting, nearly a fourth of students have experienced negative 
comments or verbal harassment from a teacher and/or school staff about 
LGBTQ people and/or families. Any degree of biased or derogatory 
language from school staff should be considered unacceptable and not 
tolerated in our schools. Hearing biased language from teachers or 
other school authority figures may send a message to students that such 
language use is tolerated and even acceptable. Many students have 
encountered a teacher, principal or other school staff person who 
discouraged them from talking about their family at school, and more 
than a third feel that school personnel doesn't acknowledge LGBTQ 
families in their school community.
    Students with LGBTQ Parents face barriers to participation in their 
school communities. In the aforementioned study, a fifth of students 
reported feeling excluded from school or classroom activities in the 
past school year specifically because they had LGBTQ parents. Sometimes 
they feel excluded because they received negative responses about 
having LGBTQ parents or had been discouraged by school staff from being 
open about their parents or family. Students often tell us how parental 
forms are difficult to fill out because they are not inclusive for 
LGBTQ families. Many students describe situations where they feel 
excluded from classroom activities, particularly activities that 
involved discussion of families, because there were no representations 
of LGBTQ families or the activity was based on the assumption that all 
students came from families with straight parents.
    COLAGE invites you to take a stand and to better protect thousands 
of students in the US who have LGBTQ parents. From Alex, a middle 
schooler who was left no choice but to transfer schools in California 
after facing relentless bullying about his lesbian mothers and gay 
fathers, to John, a high school student in Massachusetts who fears 
harassment about his family so keeps the fact that he has gay parents a 
secret, to Marcus who was suspended from his elementary school in 
Louisiana after using the word `lesbian' to describe his mothers, 
COLAGE youth navigate unwelcoming school environments every day. COLAGE 
calls on the United States Congress to adopt the Safe Schools 
Improvement Act swiftly and decisively. By doing so, you will recommit 
America's schools toward creating safer environments for all students 
and will make great strides in ensuring that students with LGBTQ 
parents have equal access to an unbiased and safe education.
                                 ______
                                 

Prepared Statement of Stephanie Stines, Executive Committee Member, DC 
                     Concerned Providers Coalition

    The DC Concerned Providers coalition (DCCP) is a network of youth 
service providers in the Washington, DC area committed to working 
together to decrease HIV/STI rates among DC area young transgender 
women of color and young men of color who have sex with men.
    DCCP would like to thank Chairman Kildee and Chairwoman McCarthy, 
along with Ranking Members Castle and Platts for convening this 
important hearing to discuss the important role of preventing bullying 
and creating safe schools, and for the opportunity to submit testimony 
for the record.
    We are submitting our testimony to urge Congress to focus on the 
issues of student bullying and harassment in promoting safe schools 
efforts. Bullying is a serious problem through out schools in the 
United States. It has adverse effects on school children's GPAs, school 
attendance, and the likelihood of obtaining a post-secondary education. 
Research shows that nearly one in eleven students missed a class or a 
day of school because they felt unsafe.
    We ask that Congress require schools and districts to enact anti-
bullying and harassment policies that include enumerated categories, 
such as sexual orientation and gender identity; and that Congress 
include this requirement as part of any comprehensive education 
legislation. Students who attend schools with anti-harassment policies 
that enumerate categories of students for protection report that they 
feel safer (54% vs. 36%) and are less likely to skip a class because 
they feel uncomfortable or unsafe (5% vs. 16%). Specific enumerated 
policies against bullying and harassment also make it more likely and 
easier for educators to intervene when they witness bullying and 
harassment. More than half of all teachers (53%) reported that bullying 
and harassment of students is a serious problem in their school. 
Students noted that teachers were more likely to intervene (25.3% vs. 
12.3%) when bullying occurred, and were more likely to do so 
successfully (55.7% vs. 38.7%), if school policies included enumerated 
categories (compared to non-enumerated policies).
    DCCP coalition recognizes the importance of creating a safe 
supportive school environment for youth, particularly Gay, Lesbian, Bi-
sexual, Transgender, Questioning (GLBTQ) youth. This can reduce a 
youth's vulnerability to HIV/AIDS. If a youth feels safe and welcomed 
at their schools, their tendency to drop out of school and engage in 
high risk sexual behavior could be significantly reduced.
    We strongly urge Congress to pass the proposed legislative 
language, HR 2262 (The Safe Schools Improvement Act) that would require 
that states, districts, and schools develop policies and programs to 
prevent and appropriately respond to instances of bullying and 
harassment as a condition of receiving federal funding. This proposal 
would require that:
    <bullet> States, districts, and schools have in place policies 
prohibiting bullying and harassment; and
    <bullet> Schools and districts establish complaint procedures to 
effectively respond to instances of harassment in a manner that is 
timely and results in educationally appropriate resolutions for 
students who are victims of bullying or harassment; and
    <bullet> States include information regarding bullying and 
harassment in their required drug and violence prevention reports.
    <bullet> Provide professional development regarding LGBT cultural 
competency, strategies to prevent bullying and harassment and how to 
effectively intervene when such incidents occur; and
    <bullet> Implement student education programs designed to teach 
students about the issues around, and consequences of, bullying and 
harassment.
                                 ______
                                 

Prepared Statement of Joan Cole Duffell, Executive Director, Committee 
                              for Children

    Committee for Children thanks Chairman Kildee and Chairwoman 
McCarthy, along with Ranking Members Castle and Platts, for convening 
this important hearing to discuss the important role of preventing 
bullying and creating safe schools, and for the opportunity to submit 
the following written testimony for the record.
Committee for Children
    Committee for Children is an international nonprofit organization 
whose mission is to foster the social and emotional development, 
safety, and well-being of children through education and advocacy. Our 
organization, based in the State of Washington, develops and publishes 
top-rated, evidence-based educational prevention programs for use with 
children from preschool through middle school. These curricula teach 
children vital social and emotional skills to reduce and prevent 
bullying, harassment and sexual abuse and other problem behaviors, 
promote personal safety and improve academic learning environments for 
all kids. Our programs are taught in 25,000 schools in the U.S. and in 
thousands more settings in 21 countries around the world. These 
evidence-based curricula and teacher training programs focus on 
teaching kids the essential skills of empathy, emotion management, 
problem solving, and personal safety, integrated with key learning-
related skills. Research shows that children who learn these essential 
social and emotional skills treat one another with greater respect and 
compassion, perform better in school and throughout their lives. By 
teaching these skills in the classroom, educators create safer and more 
productive school climates in which all children can learn and thrive. 
These programs have garnered top ``exemplary'' and ``model'' program 
ratings from the US Departments of Education (Office of Safe & Drug-
Free Schools); Justice (Office of Juvenile Justice and Delinquency 
Prevention); and Health (Substance Abuse and Mental Health 
Administration), as well as CASEL (Collaborative for Academic, Social 
and Emotional Learning).
Promoting Safe Schools Efforts
    Committee for Children supports Chairwoman McCarthy's Safe Schools 
Against Violence in Education Act (called HR 354 in the 100th 
Congress). As an organization committed to evidence-based practice, we 
value highly the emphasis this bill places on solid data collection and 
reporting in focusing on issues of student bullying and harassment and 
promoting safe schools efforts.
    Our nation's schools face longstanding challenges in preventing and 
effectively responding to instances of bullying and harassment. The 
U.S. Department of Education has noted this problem and recognized that 
bullying and harassment ``affects nearly one in every three American 
schoolchildren in grades six through ten.'' Bullying and harassment 
interfere with a student's ability to achieve high standards. Bullying 
and harassment have a significant impact on GPAs, school attendance, 
dropout rates, and likelihood of obtaining a post-secondary education. 
Research shows that nearly one in eleven students missed a class or a 
day of school because they felt unsafe. And we know that bullying and 
harassment can lead to even greater school safety problems. Many high 
profile cases of school violence--as well as incidents that are less 
noted--have been attributed to students who were bullied and harassed 
in school.
    Bullying and harassment, whether based on race, color, national 
origin, sex, disability, sexual orientation, religion, gender identity 
or any other characteristic, interfere with a student's ability to 
learn. A study commissioned by GLSEN and conducted by Harris 
Interactive found that physical appearance, sexual orientation (actual 
or perceived), and gender expression are the most common reasons for 
bullying and harassment in our nation's schools (39%, 33% and 28% 
respectively). The same study noted that only 36% of students who 
attend schools without enumerated anti-bullying and harassment policies 
report that they feel safe and 16% are likely to skip a class because 
they feel uncomfortable or unsafe.
    Many schools are increasingly aware of the damaging effects of 
bullying on children. Bullying can leave permanent scars on the 
confidence and self-esteem of a child. Bullying also takes a toll on 
schools in the form of student absences, behavior problems, parent 
complaints, and classroom disruptions. Students and educators are 
likely to feel unsafe in an environment where bullying and violence are 
tolerated. In some cases, bullying even has deadly consequences.
Federal Law
    Committee for Children urges Congress to focus on the enactment of 
more comprehensive safe schools policies that will fill the gap, and to 
further fund bullying prevention programs.
    Although a limited number of federal laws address certain 
particular kinds of harassment, they do not prohibit all kinds of 
harassment in schools, and no federal law specifically prohibits 
bullying in schools. Therefore, the enactment of more comprehensive 
safe schools policies will fill a troubling gap in federal education 
policy--to ensure that all students, regardless of their background or 
characteristics, are provided a safe environment in which to learn.
    The problems of bullying and harassment are among the most 
prevalent and profound that schools face; they continue to seriously 
disrupt our school environments and affect the lives of millions of 
students every year, with major adverse academic and safety 
consequences. Congress should take steps to ensure that no student is 
denied access to a quality education based on fear or degradation 
associated with bullying and harassment.
    Perhaps the largest gap--and that which is most problematic for 
schools, is funding. It is vitally important that we actually FUND 
bullying prevention programs in order for them to be implemented in 
schools. We understand there is a suggestion to use USDE Safe and Drug-
Free funds for bullying prevention. We support this idea, but it is 
vital to point out that the President's 2010 education budget has 
currently zeroed out the states' Safe and Drug-Free funding. These 
critically needed funds have decreased precipitously year over year, 
even though these monies are most often used by educators specifically 
to pay for school safety programs.
Importance to Committee for Children
    CFC works with over 25,000 schools that are implementing our 
prevention programs with over 9 million children nationwide. Schools 
and districts are in need of this support from Congress to both fund 
and implement safe schools efforts. Without funding allocations, our 
25,000 school clients are likely to abandon their school safety and 
violence prevention efforts.
Qualities of Effective Bullying Prevention Programs
    It is vital that this policy list the qualities of effective 
programming. Taxpayer money should be funneled toward programs that 
work. There is a growing body of research that points out the critical 
and core elements for any effective bullying prevention effort. This 
includes:
    <bullet> Implementation of research-based student curricula, 
teacher training and parent education programs
    <bullet> Programs should also be ``evidence-based,'' meaning they 
have been shown effective in reducing bullying and improving student 
behavior in research studies published in peer-reviewed journals
    <bullet> Programs should focus on whole-school implementation--all 
adults should be working together to address bullying and school safety
    <bullet> Training for all adults in the school must be part of the 
program, so that teachers, administrators and support staff learn to 
recognize and respond effectively to bullying
    <bullet> Programs must be replicable and relatively easy for 
schools to implement system-wide
    <bullet> Student curricula need to be well-designed, appeal to 
diverse audiences, and be pedagogically sound
    <bullet> Student curricula should teach social and emotional 
competence skills
    <bullet> Bullying prevention lessons should place a strong focus on 
bystander behavior
Proposed Legislative Action
    This proposed legislation would allow states, districts and schools 
to use funding under the Safe and Drug-Free Schools and Communities Act 
to provide professional development regarding strategies to prevent 
bullying and harassment and how to effectively intervene when such 
incidents occur; and implement student education programs designed to 
teach students about the issues around, and consequences of, bullying 
and harassment. We support this idea, but it is vital to point out that 
the President's 2010 education budget has currently zeroed out the 
states' formula grants for Safe and Drug-Free funding. These critically 
needed funds have decreased precipitously year over year, even though 
these monies are most often used by educators specifically to pay for 
school safety programs.
    We urge Congress to assure that the states' formula grants portion 
of SDFS funds be reinstated--indeed, increased from previous years' 
allocations--in the 2010 budget, so that school safety programs can, in 
fact, be implemented with these funds.
Conclusion
    Committee for Children respectfully urges Congress to address the 
key issue of funding for bullying prevention programs. Without stable, 
adequate funding sources to implement and sustain effective, evidence-
based bullying and violence prevention programs, schools are left 
without the resources required to adequately protect and nurture the 
children in their care. Through the Departments of Education, Justice, 
and Health, Congress has wisely supported the evaluation of school 
safety programs to determine which programs are most effective in 
preventing violence and bullying. We know what works. Most educators 
are aware of the impact of bullying on their students' health, safety, 
and school success and want to address this critical issue with 
effective strategies. However, schools need resources to implement 
programs that have been shown to work.
    Committee for Children once again thanks Chairman Kildee and 
Chairwoman McCarthy, along with Ranking Members Castle and Platts, for 
convening this important hearing and for the opportunity to submit 
written testimony for the record.
                                 ______
                                 

  Prepared Statement of Eliza Byard, Ph.D., Executive Director, Gay, 
                Lesbian, and Straight Education Network

    Chairman Kildee, Ranking Member Castle, Chairwoman McCarthy, 
Ranking Member Platts and members of the Committee, thank you for this 
opportunity to submit testimony regarding the importance of preventing 
bullying and harassment in the nation's schools in order to ensure 
school safety and create school environments where all students can 
achieve high standards. We appreciate the attention of your 
subcommittees, as well as the support of Chairman Miller and Ranking 
Member Kline, in convening this hearing on Strengthening School Safety 
through the Prevention of Bullying. I am happy to inform this Committee 
that over 40 national education, health care, civil rights, law 
enforcement, youth development, and other organizations--all members of 
the National Safe Schools Partnership--have called on Congress to 
address this important challenge with specific recommendations.
    I am pleased to offer these comments on behalf of the Gay, Lesbian 
and Straight Education Network (GLSEN) as the convener and a member of 
the National Safe Schools Partnership. We believe that all students are 
entitled to an education free from bullying and harassment and want to 
thank you for recognizing this widespread problem. Before I start, I 
also want to acknowledge the tremendous leadership of Representatives 
Linda S nchez, Iliana Ros-Lehtinen and Chairwoman McCarthy for their 
role in introducing H.R. 2262, the Safe Schools Improvement Act, to 
promote school safety and prevent bullying and harassment.
    GLSEN is proud to join the National Safe Schools Partnership to 
support the Safe Schools Improvement Act, which currently has the 
support of 60 bipartisan cosponsors. As you know, in the 110th Congress 
the House Committee on Education and Labor included key provisions of 
the Safe Schools Improvement Act in the Miller-McKeon discussion draft 
to reauthorize the No Child Left Behind Act (NCLB). These provisions 
and other elements of the Safe Schools Improvement Act were also 
included in the Senate Health, Education, Labor and Pensions 
Committee's Kennedy-Enzi discussion draft to reauthorize NCLB. We 
encourage the Committee to approve H.R. 2262, or to consider including 
its provisions in future legislation to reauthorize NCLB.
    Meeting the ambitious proficiency goals set forth by the No Child 
Left Behind Act, and ensuring the academic success of all students, 
will only be possible when every child feels safe in the classroom. 
Evidence demonstrates that bullying and harassment significantly impact 
academic performance, school attendance, dropout rates and a student's 
likelihood of obtaining a post-secondary education. In fact, our 
research shows that nearly one in 11 students missed a class or a day 
of school, within the past month, because they felt unsafe. 
Additionally, the U.S. Department of Education has concluded that 
bullying and harassment ``affects nearly one in every three American 
schoolchildren in grades six through ten.'' And we know that bullying 
and harassment can lead to even greater school safety problems. Many 
high-profile cases of school violence--as well as incidents that are 
less noted--have been attributed to students who were bullied and 
harassed in school. This research, and other findings I will describe 
later in my testimony, were published by members of the National Safe 
Schools Partnership in June of 2007 in a policy paper titled, 
``Bridging the Gap in Federal Law: Promoting Safe Schools and Improved 
Student Achievement By Preventing Bullying and Harassment in Our 
Schools.'' (A copy of the document is attached for your review and 
inclusion in the Record.)
    H.R. 2262 would strengthen state and local efforts to prevent 
bullying and harassment by amending the Safe and Drug Free Schools and 
Communities Act (SDFSCA). Leveraging the existing SDFSCA structure, and 
existing public school student conduct codes, provides an opportunity 
for Congress to meaningfully address bullying and harassment, with a 
minimal burden at the state and local level. Although a limited number 
of federal laws address particular kinds of harassment, they do not 
prohibit all kinds of harassment in schools, and no federal law 
specifically prohibits bullying in schools. Therefore, addressing 
bullying and harassment--passing H.R. 2262, or similar language--will 
fill a troubling gap in federal education policy and ensure that all 
students, regardless of their background, are provided a safe 
environment in which to learn.
    H.R. 2262 would require states and districts to maintain and report 
data regarding incidents of bullying and harassment, in order to inform 
the development of effective policies and intervention strategies. The 
legislation would also direct states to include a bullying and 
harassment analysis in mandatory school safety needs assessments and 
require better public reporting of bullying and harassment incidents, 
along with enhanced coordination among relevant state agencies. In 
order to enhance these principles, the legislation requires state needs 
assessments to include students' perceptions regarding their school 
environment, including with respect to the prevalence and seriousness 
of incidents of bullying and harassment and the responsiveness of the 
school to those incidents.
    In order to focus on effective prevention strategies and 
professional development, school districts would be required to 
establish bullying and harassment prevention programs, and H.R. 2262 
would provide support for professional development needed to make the 
programs work effectively. In order to support prevention efforts the 
bill calls for annual communications to parents, including describing a 
local education agency's processes and procedures for addressing 
bullying and harassment grievances. The language would require that 
such parent and student communications include the name of the district 
staff person designated to receive and handle bullying and harassment 
complaints and by setting a timeline for resolving them. Authorizing 
funding for educating students about the consequences of bullying and 
harassment is also vitally important to fostering a safe learning 
environment. We also strongly support directing governors to prioritize 
Safe and Drug Free Schools funding applications that include bullying 
and harassment prevention plans, as well as to require the 
establishment of performance indicators designed to ensure prevention 
programs and activities are working.
    Lastly, any federal legislation to address bullying and harassment 
must define those behaviors. A study commissioned by GLSEN and 
conducted by Harris Interactive concluded that students who attend 
schools with anti-harassment policies that enumerate categories of 
students for protection report that they feel safer (54% vs. 36%) and 
are less likely to skip a class because they feel uncomfortable or 
unsafe (5% vs. 16%), compared to students at schools with non-
enumerated policies.
    Correspondingly, specific enumerated policies against bullying and 
harassment also make it more likely and easier for educators to 
intervene when they witness bullying and harassment. More than half of 
all teachers (53%) reported that bullying and harassment of students is 
a serious problem in their school. Students reported that teachers were 
more likely to intervene effectively (45.7% vs. 33.2%) when harassment 
or assault occurred, if school policies included enumerated categories 
(compared to non-enumerated policies).
    Expanding the definition of violence to include bullying and 
harassment is crucial, and it must be coupled with a clear explanation 
that all students, regardless of their background (including, among 
other grounds, sexual orientation or gender identity/expression) must 
be protected from bullying and harassment.
    This comprehensive approach to bullying and harassment--including 
needs assessments, reporting & communications requirements, prevention 
programs & professional development, and the definitions recommended 
above--would substantially reduce violence in our schools and ensure 
that schools become safer places to learn.
    In closing, I also want to note the importance of authorizing 
consistent funding for the SDFSCA above recent appropriations levels. 
State and local education authorities need sufficient funding to make 
these vital programs work effectively on behalf of children. By 
providing the necessary funding for SDFSCA and passing the Safe Schools 
Improvement Act, Congress can take a critical step in ensuring school 
safety through preventing bulling and harassment.
    Thank you again for the opportunity to provide testimony and for 
addressing this important problem. We look forward to working with you 
throughout the reauthorization process and would be pleased to provide 
any additional information you and your staff may require.
                                 ______
                                 

            Prepared Statement of the Girl Scouts of the USA

    Girl Scouts of the USA (GSUSA) is the world's preeminent 
organization dedicated solely to girls, serving 2.7 million girl 
members and 900,000 adult members in every corner of the United States, 
Puerto Rico, the Virgin Islands and ninety-five countries worldwide. 
Girl Scouts has a longstanding commitment to the well-being of girls 
and continues to be an authority on their healthy growth and 
development. As Congress confronts the problem of relational aggression 
and other forms of bullying among its youth, Girl Scouts can assist 
policymakers in improving how we promote the health and safety of young 
people, especially girls.
The toll of relational aggression
    School safety is a significant and serious concern for students, 
parents, teachers, policymakers and the general public. Unfortunately, 
public perception and media attention is often dominated by physical 
safety concerns: school shootings, physical violence, drug and alcohol-
abuse, gang activity, sexual assault and theft. While these are 
certainly important issues, they overshadow the safety issues that 
concern the vast majority of our nation's girls: threats to their 
emotional safety.
    In our groundbreaking original research report Feeling Safe, the 
Girl Scouts Research Institute found that nearly half of all girls (46 
percent) defined safety as not having their feelings hurt. Moreover, 
girls' number one concern (32 percent) was a fear of being teased or 
made fun of. Girls view their safety as a combination of physical and 
emotional security.
    Relational aggression is one of the most significant threats to 
girls' emotional well being. Relational aggression encompasses 
behaviors that harm others by damaging, threatening, or manipulating a 
child's relationship with her peers or by injuring a peer's feeling of 
social acceptance.\i\ This includes starting rumors, gossiping, 
encouraging others to reject or exclude another, taunting and teasing, 
name calling and other forms of social isolation. Cyberbullying--
another form of relational aggression--is similar to other types of 
bullying, except it takes place online and through text messages sent 
to cell phones, interactive and digital technologies.\ii\ Cyber 
Bullying allows perpetrators to mistreat their peers more cruelly than 
they usually would without having to see the immediate responses to 
their behavior. Bullying takes many forms, but girls are more likely to 
use this subtle, indirect and emotional form of aggression than 
boys.\iii\
    Relational aggression is as problematic, if not more of a threat, 
than traditional bullying and harassment. Relational aggression can 
interfere with a girl's ability to reach her full potential, to make 
decisions and can damage her self-confidence. Victims of relational 
aggression are more likely to experience loneliness, depression, 
anxiety, and poor school performance.\iv\ The perpetrators are at a 
higher risk for future delinquency, crime, and substance abuse.\v\
Girl Scouts programming
    Fortunately, the impact of relational aggression can be mitigated 
through strong school safety policies and prevention programs. Girl 
Scout councils across the country play a critical role in raising 
girls' awareness of and capacity to combat relational aggression. For 
example, the Girl Scouts of Nassau County (NY) partnered with the 
Ophelia Project\vi\ to deliver a series of workshops for girls to 
enhance their ability to empathize with and support each other. The 
program is designed to give girls the tools they need to decide for 
themselves what their roles and responsibilities are in a healthy 
relationship. Federal school safety policy should support these types 
of community efforts to encourage prevention and mitigation of 
relational aggression.
Policy recommendations
    Girl Scouts believes that policy solutions should embrace an all-
encompassing approach to improving school safety. Creating programs 
that focus solely on the prevention of physical harm will not suffice; 
Congress must support more holistic programs that address both 
emotional and physical security. Specifically, Girl Scouts recommends 
programs and policy that:
    <bullet> Build confidence among girls, empowering them to prevent 
relational aggression before it starts and to stop it when they see it.
    <bullet> Support community-based organizations that prevent 
relational aggression teach about healthy relationships, including the 
Girl Scouts.
    <bullet> Encourage schools to adopt and strengthen policies to 
prevent and address relational aggression.
    <bullet> Educate parents, teachers, administrators, and other 
school personnel in recognizing, preventing, and mitigating the effects 
of relational aggression.
    Girl Scouts of the USA supports H.R. 2262, the Safe Schools 
Improvement Act, because it lays the foundation for creating safe 
environments for America's children and promotes safe school 
environments. Further, we support strengthening this legislation to 
more directly address the serious threat posed by relational 
aggression.
    GSUSA's Public Policy and Advocacy Office, located in Washington, 
D.C., works in partnership with local Girl Scout councils to educate 
representatives of the legislative and executive branches of government 
and advocate for public policy issues important to girls and Girl 
Scouting. For further information please contact Sharon Pearce, 
Director of Public Policy at 202-659-3780 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6979280999597958fb6919f849a859599838285d8998491d8">[email&#160;protected]</a>
                               references
    \i\ McGrath, Mary Zabolio. School Bullying: Tools for Avoiding Harm 
and Liability. Thousand Oaks, California: Corwin Press, 2006.
    \ii\ ``What is Cyber Bullying.'' Cyberbullying. 2009. National 
Crime Prevention Council. http://www.ncpc.org/topics/cyberbullying/
what-is-cyberbullying.
    \iii\ Marion K. Underwood. Social Aggression among Girls (Guilford 
Series On Social And Emotional Development). New York: The Guilford 
Press, 2003.
    \iv\ ``What is harmful about relational aggression? Why address 
it?'' Relational Aggression. 2008. The Ophelia Project. http://
www.opheliaproject.org/main/ra--faq5.htm
    \v\ ``Children Who Bully'' 2004 National Youth Violence Prevention 
Resource Center. http://www.stopbullyingnow.hrsa.gov/HHS--PSA/pdfs/
SBN--Tip--1.pdf
    \vi\ The Ophelia Project serves youth and adults who are affected 
by relational and other non-physical forms of aggression by providing 
them with a unique combination of tools, strategies and solutions. The 
Ophelia Project helps to build capabilities to measurably reduce 
aggression and promote a positive, productive environment for all.
                                 ______
                                 

 Prepared Statement of Joe Solmonese, President, Human Rights Campaign

    Chairman Kildee, Chairwoman McCarthy and Members of the 
Subcommittees: My name is Joe Solmonese, and I am the President of the 
Human Rights Campaign, America's largest civil rights organization 
working to achieve lesbian, gay, bisexual and transgender (LGBT) 
equality. By inspiring and engaging all Americans, HRC strives to end 
discrimination against LGBT citizens and realize a nation that achieves 
fundamental fairness and equality for all. On behalf of our over 
750,000 members and supporters nationwide, I thank you for holding this 
important hearing and am honored to submit this statement regarding the 
critical need to address school safety and bullying prevention for LGBT 
youth.
    The Human Rights Campaign supports measures that prohibit 
discrimination, including bullying and harassment, against students 
because they are, or are perceived to be, lesbian, gay, bisexual or 
transgender. Schools should be supportive and nurturing places where 
all students can learn and grow. But for too many LGBT youth, they are 
places filled with name-calling, ostracism, and violence. Left 
unchecked, such environments can lead to tragedy, as in the cases of 
California middle school student Lawrence King, who died in 2008 at the 
hands of a classmate who objected to his sexual orientation and gender 
expression, and of Carl Joseph Walker-Hoover, an eleven-year-old 
student in Massachusetts who took his own life earlier this year after 
suffering months of anti-gay bullying, and whose mother is before you 
today to share her story.
    School officials must have the tools, as well as the 
responsibility, to prevent future tragedies, protect LGBT students and 
maintain and safe places for all of our nation's youth. The Safe 
Schools Improvement Act, H.R. 2262, would provide public school 
administrators with that critical guidance and protect all students 
against bullying and harassment. I urge Members to take the lessons 
learned from today's hearing and work to pass this critical 
legislation.
Bullying Based on Sexual Orientation and Gender Identity is Widespread
    While bullying impacts students of every background, LGBT youth 
face some of the most severe and pervasive abuse. In its biennial 
National School Climate Survey, the Gay, Lesbian and Straight Education 
Network (GLSEN) has documented the disturbing scope of this problem. In 
the 2007 Survey, nearly 90 percent of LGBT students reported 
experiencing verbal harassment and nearly half (44%) also experiencing 
physical harassment and almost a quarter (22%) suffering physical 
assault. Over 60 percent of those students reported feeling unsafe in 
school because of their sexual orientation and nearly 40 percent felt 
unsafe because of their gender expression.
    Just this month, the National Education Association released ``A 
Report on the Status of Gay, Lesbian, Bisexual and Transgender People 
in Education: Stepping Out of the Closet, into the Light,'' a 
comprehensive assessment which similarly documents the severity of 
bullying facing LGBT students. For example, the report cites a study by 
the Massachusetts Department of Elementary and Secondary Education 
demonstrating that gay and bisexual young men are threatened at school 
at alarming rates--over 20 percent more than their heterosexual peers.
    It is unacceptable that any young person experience fear and 
violence in school. The evidence clearly demonstrates that LGBT 
students are particularly vulnerable to bullying and efforts to make 
schools safer for all youth must take into account the pervasive 
harassment and violence that centers on students' real or perceived 
sexual orientation and gender identity.
Bullying Harms Academic Performance and Puts LGBT Youth at Risk
    The consequences of bullying are not simply bruised feelings and 
bruised bodies. Studies show that LGBT students who experience 
harassment at school have poorer academic performance, increased 
truancy and a higher risk of suicide. For example, the Massachusetts 
study cited in the NEA's report shows that lesbian and gay students who 
are threatened with violence are less than half as likely to be getting 
passing grades. The same study shows that lesbian and gay youth attempt 
suicide at a rate three to four times that of their heterosexual peers, 
and that those who experience physical threats are nearly three times 
more likely to attempt suicide than those who do not. Today's testimony 
by Sirdeaner Walker, and the stories of students like Lawrence King and 
Jaheem Herrera, are further compelling evidence that bullying can lead 
to the most dire of consequences.
    However, the evidence also shows us that school policies and 
programs that protect and support LGBT students have a positive impact 
on their lives and their academic performance. That same Massachusetts 
study found that lesbian and gay students who attended a school with an 
LGBT-inclusive policy on bullying and harassment were more than three 
and a half times more likely to get As and Bs.
    It is crucial that schools have policies, training and resources 
that make LGBT students feel safe and school officials able to address 
bullying and its consequences. That is why mainstream education 
groups--including American Association of School Administrators, 
American Federation of Teachers, American School Health Association, 
National Association of School Psychologists, National Education 
Association and National Parent Teacher Association--support federal 
legislation that would require schools to have bullying and harassment 
policies that protect all students, including LGBT youth.
Conclusion
    Harassment of lesbian, gay, bisexual and transgender (LGBT) 
students is unacceptable, and violence against them is unconscionable. 
Yet, every day, young people across the nation experience epithets, 
threats, exclusion and physical assault in the classrooms and hallways. 
Their grades suffer, they skip school, and, sometimes they take their 
own lives. Congress must act to protect these vulnerable young people 
and ensure that all students can learn and grow without fear that they 
will be targeted simply for who they are.
                                 ______
                                 

Prepared Statement of Kate Kendell, Esq., Executive Director, National 
                       Center for Lesbian Rights

    I am pleased to submit this written testimony for the Hearing on 
Strengthening School Safety Through Prevention of Bullying, and to 
express our deep appreciation to Chairman Kildee and Chairwoman 
McCarthy, along with Ranking Members Castle and Platts, and members of 
the Committee for holding this crucial hearing on addressing bullying 
and harassment in schools. Thank you for the opportunity to submit 
testimony on behalf of the National Center for Lesbian Rights and the 
thousands of youth affected by this serious problem.
    The National Center for Lesbian Rights (NCLR) is a national legal 
organization committed to advancing the civil and human rights of 
lesbian, gay, bisexual, and transgender (LGBT) people and their 
families through litigation, public policy advocacy, and public 
education. NCLR is headquartered in San Francisco and maintains a 
regional office in Washington, D.C. NCLR has worked extensively on 
issues affecting LGBT youth, specifically addressing safety in schools. 
Since 1993, NCLR's Youth Project has worked to ensure that all LGBT 
young people are safe and can live openly with the support they need to 
reach their full potential by: providing free legal information to 
youth, legal advocates, and activists; advocating for policies and 
legislation to protect and support LGBT students; presenting workshops 
and developing training materials for schools on legal protections for 
LGBT youth; and litigating cases that establish legal protections for 
LGBT youth in schools.
    We strongly urge Congress to address issues of student bullying and 
harassment by requiring schools and districts to enact anti-bullying 
and harassment policies that include sexual orientation and gender 
identity as enumerated categories. These protections are essential to 
ensure that all students, regardless of their background or 
characteristics, are provided a safe environment in which to learn.
    Unfortunately, studies consistently demonstrate that LGBT youth 
face disproportionately high levels of harassment and discrimination in 
schools across the country. According to the 2007 National School 
Climate Survey of a sample of 6,209 LGBT students, nearly three-
quarters of students heard homophobic remarks often or frequently at 
school. Verbal harassment was directed at 86.2% of the students because 
of their sexual orientation, and at 66.5% of the students because of 
their gender expression. Harassment reported by transgender youth was 
even more severe, with almost 90% of transgender students reporting 
verbal harassment in the past school year. Additionally, almost half of 
all the students surveyed had been physically harassed at school in the 
past year because of their sexual orientation, and 30.4% of students 
because of their gender expression. This survey also showed that a 
majority of students do not report the harassment to school officials 
or parents, and nearly a third of the students who did report an 
incident said that school staff did nothing in response. Joseph G. 
Kosciw & Elizabeth M. Diaz, 2007 National School Climate Survey, 
available at http://www.glsen.org/binary-data/GLSEN--ATTACHMENTS/file/
000/001/1290-1.pdf.
    Left unaddressed, this kind of harassment and discrimination can 
have serious consequences for youth. Hostile school environments can 
increase a student's sense of isolation and lower his or her self-
esteem to the point that the student may drop out of school or engage 
in other dangerous or self-destructive behaviors. For instance, LGBT 
students who reported that they were often or frequently harassed in 
school were more likely to report that they do not plan to pursue a 
college education and that they have missed days of school due to 
safety concerns. 2007 National School Climate Survey. More drastic 
consequences include abuse of alcohol or other drugs, running away from 
home, and suicide. Michael Bochenek and A. Widney Brown, Hatred in the 
hallways: Violence and discrimination against lesbian, gay, bisexual, 
and transgender students in U.S. schools, available at http://
www.hrw.org/legacy/reports/2001/uslgbt/Final-05.htm#P661--102092.
    Earlier this year, two eleven-year-old boys, Carl Joseph Walker-
Hoover in Massachusetts and Jaheem Herrera in Georgia, committed 
suicide after suffering anti-gay harassment and bullying in their 
schools. Carl's mother had approached school officials about the 
harassment her son was experiencing, but received no assistance in 
addressing the problem. In addition to these two young boys, suicides 
of at least three other middle-school aged children have been linked to 
bullying since January. It is vital that Congress take action to 
require schools and districts to enact anti-bullying and harassment 
policies that address sexual orientation and gender identity so that 
all young people can have a safe place to learn.
    Current law recognizes that all students have a federal 
constitutional right to equal protection. Schools have a duty to 
protect all students from harassment, regardless of whether the school 
has a policy that prohibits harassment and discrimination on the basis 
of sexual orientation and/or gender identity and expression. Courts 
have held that schools are liable for failing to provide equal 
protection if school officials refuse to take action against anti-LGBT 
harassment. See Nabozny v. Podlesny, 92 F.3d 446 (7th Cir. 1996). 
Additionally, Title IX of the Education Amendment Acts of 1972 
prohibits discrimination based on sex in education programs and 
activities receiving federal financial assistance. One of the forms of 
prohibited conduct under Title IX is discrimination on the basis of 
gender non-conformity. See, e.g., Montgomery v. Independent Sch. Dist. 
No. 709, 109 F.Supp. 2d 1081 (D. Minn. 2000).
    However, despite these legal obligations to protect LGBT youth, the 
continuing, pervasive harassment faced by LGBT youth demonstrates the 
law does not adequately prevent harassment based on sexual orientation 
and/or gender identity. The most effective way to protect these 
students is to adopt and implement laws and policies that explicitly 
prohibit discrimination and harassment on the basis of sexual 
orientation and gender identity. The existence of anti-bullying and 
anti-harassment laws that specifically enumerate sexual orientation and 
gender identity ensures that everyone--staff, faculty, students, and 
the community--is aware that this type of conduct is unacceptable. As 
the Supreme Court has explained, ``[e]numeration is the essential 
device used to make the duty not to discriminate concrete and to 
provide guidance for those who must comply.'' Romer v. Evans, 517 U.S. 
620, 627 (1996).
    Establishing clear procedures for responding to complaints is also 
essential in order to effectively address harassment and bullying. See 
Inclusion of Enumerated Categories in Safe School Legislation/Policies: 
A Policy Tool from GLSEN and NCLR, available at http://
www.nclrights.org/site/DocServer/inclusion.pdf?docID=1681. As explained 
above, a large percentage of harassment based on sexual orientation and 
gender identity goes unreported. Clear complaint procedures encourage 
students to report harassment to their schools.
    Members of the National Safe Schools Partnership have proposed 
legislative language, HR 2262 (The Safe Schools Improvement Act) that 
would require, as a condition of receiving federal funding, that 
states, districts, and schools have policies in place that prohibit 
bullying and harassment. It would also require schools and districts to 
establish complaint procedures to effectively respond to instances of 
harassment in a manner that is both timely and results in educationally 
appropriate resolutions for students who are victims of bullying or 
harassment. This legislation would further require states to include 
information regarding bullying and harassment in their required drug 
and violence prevention reports.
    This proposed legislative language would also allow states, 
districts and schools to use funding under the Safe and Drug-Free 
Schools and Communities Act to provide professional development 
regarding strategies to prevent bullying and harassment and to 
effectively intervene when such incidents occur and implement student 
education programs designed to teach students about the issues around, 
and consequences of, bullying and harassment.
    This legislation is in line with the recommended effective 
strategies for protecting youth who experience harassment based on a 
characteristic, such as gender identity or sexual orientation. This 
protection is vital to the prevention of violence and harassment of 
LGBT youth. As Chairwoman McCarthy stated in her opening remarks at the 
Joint Subcommittee Hearing: ``It is a parent's worst nightmare to send 
a child to school only to learn that the child has become a victim of a 
crime or other incident * * * [w]e see acts of bullying that quickly 
escalate into outbreaks of violence.'' Opening Statement of Rep. 
McCarthy at Joint Subcommittee Hearing: Strengthening School Safety 
Through Prevention of Bullying, available at http://edlabor.house.gov/
hearings/2009/07/strengthening-schoolsafety-th.shtml.
    For all of these reasons, that NCLR urges Congress to act as soon 
as possible to ensure the safety of our communities and our children, 
especially those students who are most frequently targeted by 
harassment and bullying. Please accept my deep appreciation for this 
opportunity to present testimony on this important issue.
                                 ______
                                 
                        National School Boards Association,
                                                      July 7, 2009.
Hon. Dale Kildee, Chairman,
Subcommittee on Early Childhood, Elementary and Secondary Education;
Hon. Carolyn McCarthy, Chairwoman,
Subcommittee on Healthy Families and Communities, Committee on 
        Education and Labor, Washington, DC.
    Dear Chairman Kildee and Chairwoman McCarthy: The National School 
Boards Association (NSBA) representing over 95,000 local school board 
members across the nation through our state school boards associations 
is pleased to submit our Statement for The Record to the Joint House 
Committee for the hearing on ``Strengthening School Safety through 
Prevention of Bullying,'' scheduled July 8, 2009.
    The National School Boards Association (NSBA) believes that 
students must have safe and supportive climates and learning 
environments that support their opportunities to learn and that are 
free of abuse, violence, bullying, weapons, and harmful substances 
including alcohol, tobacco, and other drugs. Additionally, NSBA urges 
federal, state, and local governments, as well as parents, business, 
and the community, to collaborate with local school boards to eliminate 
violence and to ensure safe, crime-free schools. Further, NSBA 
continues to urge local school boards to incorporate into their 
policies and practices approaches that encourage and strengthen 
positive student attitudes in, and relationship to, school.
    We are pleased that the vast majority of schools takes the issue of 
bullying seriously and is taking steps to prevent bullying and other 
forms of violence. According to the Centers for Disease Control School 
Health Policies and Programs (SHPPS) Study: \1\
---------------------------------------------------------------------------
    \1\ ``School Health Policies and Programs Study.'' Department of 
Health and Human Services, Centers for Disease Control and Prevention, 
2006. Retrieved online: http://www.cdc.gov/HealthyYouth/shpps/2006/
factsheets/pdf/FS--ViolencePrevention--SHPPS2006.pdf
---------------------------------------------------------------------------
    85 percent of high schools are required by their districts to teach 
violence prevention and more than 80 percent of middle and elementary 
schools are required to do the same.
    The vast majority of states and districts provide or offer funding 
for staff development on violence prevention to health educators and/or 
mental health/social services staff.
    School response to bullying as a specific form of violence is on 
the rise. During the six-year period from 2000 to 2006, the percentage 
of elementary schools and middle schools that participated in a program 
to prevent bullying increased from 63 percent to 77.3 percent.
    In addition to staff development, many schools are using 
technology, including surveillance cameras and metal detectors, to 
monitor student conduct and prevent violence.
    NSBA recognizes the critical link between health, safety, and a 
positive school climate to learning. Bullying and other forms of 
harassment contribute to fear, low self-esteem and lower academic 
achievement. Therefore, NSBA supports coordinated efforts at the 
federal, state, and local levels to protect students, employees and all 
those who visit school facilities.
    In expanding federal efforts to prevent bullying, we urge Congress 
to take the following actions:
    (a) Fully fund the Safe and Drug Free School Program and establish 
``prevention of bullying'' as an allowable use of federal funding when 
such use would be compatible with the original intent.
    (b) Create a clearinghouse of ``best practices'' and provide 
technical assistance to local school districts in the design and 
development of programs to prevent and reduce bullying.
    (c) Provide flexibility to local school districts in the 
application of discipline and/or law enforcement guidelines to prevent 
unintended consequences that unnecessarily impact students in an 
adverse manner.
    (d) Establish policies that would prohibit the imposition of 
additional reporting and other requirements on local school districts 
and states that have no direct impact on the reduction or elimination 
of incidents of bullying.
    (e) Increase the level of federal funding targeted to research and 
studies aimed at reducing and eliminating incidents of bullying.
    Thank you for the opportunity to submit this Statement for the 
Record. Questions concerning our recommendations may be directed to 
Lucy Gettman, director of federal programs, at 703.838.6763; or by 
email, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="34585351404059555a745a4756551a5b46531a">[email&#160;protected]</a>
            Sincerely,
                                        Michael A. Resnick,
                                      Associate Executive Director.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


 Prepared Statement of Jody Huckaby, Executive Director, PFLAG National

    On behalf of Parents, Families and Friends of Lesbians and Gays 
(PFLAG) National's over 200,000 members and supporters, we thank you 
for allowing us to submit written testimony supporting the Safe Schools 
Improvement Act of 2009--HR 2262--and urge the Congress to focus on the 
issues of student bullying and harassment in promoting safe schools for 
all students. We would also like to thank Chairman Kildee and 
Chairwoman McCarthy, along with Ranking Members Castle and Platts for 
convening the hearing Strengthening School Safety through Prevention of 
Bullying before the United States House of Representatives Education 
Committee, Subcommittee on Early Childhood, Elementary and Secondary 
Education and Subcommittee on Healthy Families and Communities. It is 
absolutely critical for the Subcommittee to discuss the important role 
of preventing bullying in an effort to create safer schools.
Problem Statement and Background Information
    Our nation's schools face longstanding challenges in preventing and 
effectively responding to instances of bullying and harassment. The 
U.S. Department of Education has noted this problem and recognized that 
bullying and harassment ``affects nearly one in every three American 
school children in grades six through ten.'' Bullying and harassment 
interfere with a student's ability to achieve high standards. Bullying 
and harassment have a significant impact on GPAs, school attendance, 
dropout rates, and likelihood of obtaining a post-secondary education. 
Research shows that nearly one in eleven students missed a class or a 
day of school because they felt unsafe. And we know that bullying and 
harassment can lead to even greater school safety problems. Many high 
profile cases of school violence--as well as incidents that are less 
noted--have been attributed to students who were bullied and harassed 
in school.
    Bullying and harassment, whether based on real or perceived race, 
color, national origin, sex, disability, sexual orientation, religion, 
gender identity or any other characteristic, interfere with a student's 
ability to learn. A recent study commissioned by GLSEN and conducted by 
Harris Interactive found that physical appearance, sexual orientation 
(actual or perceived), and gender expression are the most common 
reasons for bullying and harassment in our nation's schools (39 
percent, 33 percent and 28 percent respectively). The same study noted 
that only 36 percent of students who attend schools without enumerated 
anti-bullying and harassment policies report that they feel safe and 16 
percent are likely to skip a class because they feel uncomfortable or 
unsafe.
    According to the 2001 Massachusetts Youth Risk Behavior Survey, 
three percent of high school students describe themselves as lesbian, 
gay, bisexual, or transgender (LGBT). As a minority population in 
schools across the country, LGBT youth commonly experience high rates 
of discrimination and harassment, yet are often not protected under 
school policy. And even though most parents favor teaching about sexual 
orientation and gender identity in schools, most sexuality education 
programs do not cover this topic and abstinence-only-until-marriage 
programs merely further negative sentiment toward these students. As a 
result, LGBT youth are more vulnerable to a variety of harmful 
behaviors, including skipping school and attempting suicide, than their 
heterosexual peers.
Current Gaps in Federal Law
    Although a limited number of federal laws address certain kinds of 
harassment, they do not prohibit all kinds of harassment in schools, 
and no federal law specifically prohibits bullying in schools. 
Therefore, the enactment of more comprehensive safe schools policies 
will fill a troubling gap in federal education policy--to ensure that 
all students, regardless of their background or characteristics, are 
provided a safe environment in which to learn.
    The problems of bullying and harassment are among the most 
prevalent and profound that schools face; they continue to seriously 
disrupt our school environments and affect the lives of millions of 
students every year, with major adverse academic and safety 
consequences. Congress should take steps to ensure that no student is 
denied access to a quality education based on fear or degradation 
associated with bullying and harassment.
A Model Policy that Ensures All Students are Protected
    A model policy should protect students, teachers, employees and 
staff from both harassment and discrimination by explicitly listing the 
categories of sexual orientation and gender identity or expression for 
protection, in addition to pre-existing categories like race, religion, 
class, ethnicity, etc. Additionally, a model bill should protect 
individuals based on their ``actual or perceived'' sexual orientation 
and gender identity or expression as well as protect individuals from 
discrimination based on their association with any person who falls 
into one of the protected categories. This component would protect 
students with lesbian, gay, bisexual and transgender (LGBT) parents, 
siblings or friends.
            What is enumeration?
    When a law enumerates categories, it specifically lists the types 
of individuals or things that have to be protected by the policy. For 
example, the Iowa Safe Schools bill that passed in 2007 (SF 61) 
establishes a state policy that school employees, volunteers, and 
students in Iowa schools shall not engage in harassing or bullying 
behavior. The bill defines harassment and bullying, requires public and 
non-public schools to adopt such a policy and encourages them to 
develop programs regarding anti-harassment and anti-bullying. The bill 
also requires the collection and reporting of data. The enumerated 
language states that the protected classes, ``includes but is not 
limited to age, color, creed, national origin, race, religion, marital 
status, sex, sexual orientation, gender identity, physical attributes, 
physical or mental ability or disability, ancestry, political party 
preference, political belief, socioeconomic status, or familial 
status.''
    Enumeration does not provide special privileges to any one group. 
It is essential in protecting ALL students as research has consistently 
shown that students experience less bullying and harassment and feel 
safer overall in a school with an enumerated policy.
            Why is enumeration important?
    When schools, school districts and states have generic anti-
bullying policies (one that do not enumerate the protected classes) 
LGBT students easily fall through the cracks. GLSEN research has shown 
that students in states with generic laws are no more protected from 
bullying than students who live in states without any anti-bullying and 
harassment laws (40.8 percent w/ generic policies vs. 39.8 percent w/ 
no policies report `often or frequently' hearing verbal harassment 
based on sexual orientation) and students report less overall 
harassment when they know their school has a comprehensive policy that 
includes enumeration.
    Enumerated policies more fully protect all students. Students from 
schools with an enumerated policy report that others are harassed far 
less often in their school for reasons like their physical appearance 
(36 percent vs. 52 percent), their sexual orientation (32 percent vs. 
43 percent) or their gender expression (26 percent vs. 37 percent). 
Students whose schools have a policy that specifically includes sexual 
orientation or gender identity/expression are less likely than other 
students to report a serious harassment problem at their school (33 
percent vs. 44 percent).
    We also know that if specific categories are listed then the 
training and education that is done for students, teachers and staff 
will include those groups. This is an important part of the follow up 
that schools must do after the policy is in place. And it provides an 
opportunity for groups like PFLAG to do the education.
    Sample policy:
    The [Your School District] School District is committed to 
providing all students, teachers, employees and staff with a safe and 
supportive school environment in which all members of the school 
community are treated with respect.
    It is hereby the policy of the [Your School District] School 
District to prohibit harassment based on real or perceived race, color, 
religion (creed), national origin, marital status, sex, sexual 
orientation, gender identity and expression, disability, or on the 
basis of association with others identified by these categories. This 
policy is intended to comply with [Your State] state as well as federal 
requirements. The School District shall act to investigate all 
complaints of harassment, formal or informal, verbal or written, and to 
discipline or take other appropriate action against any member of the 
school community who is found to have violated this policy.
Model policy of NCLR, National Center for Lesbian Rights
    Established anti-harassment policy in the country:
    There are 11 states and the District of Columbia that include 
protection for sexual orientation in a safe schools law which include: 
California, Connecticut, Iowa, Maine, Maryland, Massachusetts, 
Minnesota, New Jersey, Vermont, Washington and Wisconsin. Only 
California, the District of Columbia, Iowa, Maine, Minnesota, New 
Jersey and Vermont also include gender expression.
The Importance of the Safe Schools Improvement Act of 2009
    Members of the National Safe Schools Partnership have proposed 
legislative language, HR 2262, The Safe Schools Improvement Act of 
2009, which would require states, districts, and schools to develop 
policies and programs to prevent and appropriately respond to instances 
of bullying and harassment as a condition of receiving federal funding. 
This proposal would require the following:
    <bullet> Establish Model Policies. States, districts, and schools 
have in place policies prohibiting bullying and harassment; and
    <bullet> Develop Complaint Procedures. Schools and districts 
establish complaint procedures to effectively respond to instances of 
harassment in a manner that is timely and results in educationally 
appropriate resolutions for students who are victims of bullying or 
harassment; and
    <bullet> Mandate Date Collection. States include information 
regarding bullying and harassment in their required drug and violence 
prevention reports.
    This proposed legislative language would also allow states, 
districts and schools to use funding under the Safe and Drug-Free 
Schools and Communities Act to:
    <bullet> Offer Cultural Competency Training. Provide professional 
development regarding strategies to prevent bullying and harassment and 
how to effectively intervene when such incidents occur; and
    <bullet> Create and Execute Student Education Programs. Implement 
student education programs designed to teach students about the issues 
around, and consequences of, bullying and harassment.
PFLAG's Unique Role
    PFLAG seeks to promote the health and well-being of lesbian, gay, 
bisexual and transgender persons, their families and friends through: 
support, to cope with an adverse society; education, to enlighten an 
ill-informed public; and advocacy, to end discrimination and to secure 
equal civil rights. Parents, Families and Friends of Lesbians and Gays 
provides opportunity for dialogue about sexual orientation and gender 
identity, and acts to create a society that is healthy and respectful 
of human diversity.
    PFLAG's remains committed to promoting the health and well-being of 
LGBT individuals as part of the school community by addressing 
unchecked bullying and harassment. That is why so many PFLAG parents, 
families and friends, whose own loved ones have endured similar 
bullying and harassment, continue to work in their local communities to 
identify innovative ways to curb such inappropriate behavior and 
protect young people at school.
    Through PFLAG's Cultivating Respect Safe Schools Training Program, 
our members have been working to address this issue. Their experiences 
highlight some of the critical needs and missed opportunities that can 
help in informing congressional efforts aimed at addressing this 
epidemic. In addition, many of our chapter leaders are currently 
educating their communities on how to effectively report incidents of 
bullying and harassment so that the cases get appropriately 
investigated by the U.S. Department of Education's Office of Civil 
Rights.
    It is our hope the leadership of the U.S. Congress will bring much 
needed visibility to the problems of bullying and harassment and the 
fatal consequences that often result when left unchecked. We encourage 
you to meet with PFLAG members and supporters along with our staff 
members in our national office who continue to help young people 
survive persistent bullying and harassment endured in school. We 
believe these personal accounts will be enormously helpful in your 
efforts to make a difference in the lives of young people.
    Again, we thank you for holding this important hearing and allowing 
us to submit a written testimony supporting The Safe Schools 
Improvement Act of 2009. On behalf of all of our members and 
supporters, we are grateful for your dedicated work in helping create 
safer schools for all students, including efforts to address the 
problems of bullying and harassment. If you have any questions related 
to our ongoing work, please be sure to contact our Field and Policy 
Manger, Rhodes Perry at 202-467-8180 x 221 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c3b1b3a6b1b1ba83b3a5afa2a4edacb1a4ed">[email&#160;protected]</a>
                                 ______
                                 

  Prepared Statement of the Sikh American Legal Defense and Education 
                             Fund (SALDEF)

    The Sikh American Legal Defense and Education Fund (SALDEF) offers 
gratitude to Chairman Kildee, Chairwoman McCarthy, and Ranking Members 
Castle and Platts for convening this hearing and also for the 
opportunity to submit written testimony for the record.
    Founded in 1996, SALDEF is the oldest Sikh American civil rights 
and advocacy organization in the United States. The Sikh religion was 
founded in South Asia over 500 years ago by Guru Nanak. There are more 
than 25 million Sikhs throughout the world and approximately 500,000 
adherents of the Sikh religion in the United States. Observant Sikhs 
are distinguished by dastaars (Sikh turbans), kesh (uncut hair), and 
other visible articles of faith, and are too often subjected to hate 
crimes, workplace discrimination, denial of public accommodations, and 
school bullying because of their actual or perceived race, religion, 
ethnicity, and national origin. In schools throughout the United 
States, Sikh American children are teased, threatened, subjected to 
epithets, and physically assaulted for the simple act of peacefully 
observing their faith.
    <bullet> According to a recent survey of Sikh American students in 
the Queens borough of New York City, more than 75 percent of Sikh 
American boys reported being teased or harassed because of their Sikh 
identity.\1\ Even in the highly diverse public schools of New York 
City, Sikh American students are subjected to incendiary slurs, such as 
``terrorist''; ``raghead''; ``diaperhead''; and ``Bin Laden.'' \2\ The 
prevalence of post-9/11 bias among students in our public schools is 
disconcerting because it implies that such bias is widespread among 
parents and being transmitted--like a disease--to our nation's 
children.
---------------------------------------------------------------------------
    \1\ Sikh Coalition, Hatred in the Hallways: A Preliminary Report on 
Bias Against Sikh Students in New York City's Public Schools 5 (2007)
    \2\ Id. at 4.
---------------------------------------------------------------------------
    <bullet> In May 2007, Harpal Singh Vacher, a 15-year-old Sikh 
American student, was attacked in a bathroom at Newtown High School in 
Queens, New York. As another student kept watch by the bathroom door, 
an assailant held Harpal down, ripped off his turban, and forcibly cut 
his hair. Police officials called the attack a hate crime.\3\
---------------------------------------------------------------------------
    \3\ Hate Crime is Charged in Attack on Sikh Boy, N.Y. TIMES, May 
26, 2007
---------------------------------------------------------------------------
    <bullet> In May 2008, during a routine fire drill at Hightstown 
High School in Mercer County, New Jersey, a Sikh American student's 
turban was set on fire by a fellow student.\4\
---------------------------------------------------------------------------
    \4\ Turbans Make Targets, Some Sikhs Find, N.Y. TIMES, June 15, 
2008
---------------------------------------------------------------------------
    <bullet> In June 2008, Jagmohan Singh Premi--a high school student 
in Queens, New York--suffered a facial fracture after being punched in 
the face by a classmate who was armed with a set of keys and who had 
attempted to forcibly remove Jagmohan's turban.\5\ For several months 
prior to the attack, the assailant had harassed Jagmohan, pulled his 
beard, and called him a ``terrorist.'' \6\
---------------------------------------------------------------------------
    \5\ High school hate crime prompts reform, QUEENS COURIER, June 11, 
2008
    \6\ Fury at New Sikh Teen Attack, N.Y. POST, June 7, 2008
---------------------------------------------------------------------------
    These are not theoretical concerns. For the Sikh American 
community, The Safe Schools Improvement Act promises much-needed 
progress in the cause of ensuring that all students are provided a safe 
environment in which to learn. As a member organization of the National 
Safe Schools Partnership, SALDEF believes that comprehensive bullying 
prevention programs are prerequisites for safe schools. Congress should 
require states, districts, and schools to develop policies and programs 
to prevent and appropriately respond to instances of bullying and 
harassment as a condition of receiving federal funding. Such policies 
should specifically enumerate the protected categories and traits on 
the basis of which students are bullied and harassed. In addition, 
Congress should enable states, districts, and schools to use funding 
under the Safe and Drug-Free Schools and Communities Act to not only 
cultivate professional development programs aimed at combating bullying 
and harassment but also implement student education programs designed 
to teach students about the nature and consequences of bullying and 
harassment.
    The Sikh American Legal Defense and Education Fund strongly 
supports The Safe Schools Improvement Act. We appreciate your 
consideration of this important issue, as well as the opportunity to 
submit written testimony for this hearing.
                                 ______
                                 

  Prepared Statement of Luis Sierra, Special Projects Manager, Youth 
                      Crime Watch of America, Inc.

    First of all, we would like to thank Chairman Kildee and Chairwoman 
McCarthy, as well as Ranking Members Castle and Platts for the 
opportunity to discuss a matter as important as student safety and the 
prevention of harassment in schools. It is an issue that everyone must 
be outspoken about, in order to find the best ways to keep our kids 
safe in their educational environment.
    The Youth Crime Watch of America is a nonprofit 501(c)(3) 
organization that aims to empower youth to take an active role in 
making their schools and communities safer. Through our ``Watch Out, 
Help Out'' philosophy, we help students in developing youth-led 
programs that encourage ``watch out'' activities like crime reporting 
or youth patrols, as well as ``help out'' activities such as mentoring 
or peer mediation. Our goal is to provide crime-free, drug-free 
environments through a youth-led movement, while instilling positive 
values, good citizenship, and self confidence in the young people who 
make a difference to prevent crime, drug use, and violence.
    Undoubtedly, bullying has been a major issue in schools in the 
country, generation after generation. Oftentimes we hear of people who 
become victims of bullying and harassment because of reasons as simple 
as their physical appearance, race, sexual orientation, and religion, 
amongst many others. As a whole, it has turned into bullying due to 
differences amongst each other--members of our youth have been getting 
hurt and deaths have occurred, all for the simple fact of being 
different.
    Although federal laws are set to protect people from harassment, we 
are asking Congress to improve their involvement against bullying and 
harassment by enacting more comprehensive federal laws, in order to 
make sure that every single student is provided a safe learning 
environment. One of the ways in which it should be done is by creating 
laws that encourage schools to establish anti-harassment policies that 
enumerate the categories of students prone to being victims of 
bullying. This makes the laws more explicit and straightforward, 
leaving less up in the air as to what students, faculty and staff can 
do in response to acts of bullying or harassment. Enumerated policies 
have been proven to foster a safer school environment, and a bigger 
peace of mind amongst students in regards to how they are being 
protected.
    Youth and their safety are the main force that has carried the 
Youth Crime Watch of America forward, which was first established in 
response to a 12-year old girl who was sexually assaulted in 1979. From 
that first Youth Crime Watch that was formed here in Miami, we have 
grown to become an international organization, supporting YCW sites 
across the nation and in many countries around the globe. We do our 
best to support youth from elementary school all the way to their 
college years, regardless of their differences, helping them come 
together for a safer atmosphere in their schools and communities. We 
thank you for your efforts in advocating school safety and fairness, 
and ask you to take further steps to make sure that every student in 
the nation can have a peaceful, safe, and enjoyable educational career, 
solidifying our next generation of citizens and leaders.
                                 ______
                                 

Prepared Statement of Randi Weingarten, President, American Federation 
                              of Teachers

    Members of the subcommittees, I am Randi Weingarten, president of 
the American Federation of Teachers. I am also president of the United 
Federation of Teachers in New York City. On behalf of the AFT's 1.4 
million members, thank you very much for giving me the opportunity to 
present the views of the AFT on the issues of school safety and 
bullying.
    Students, parents, teachers and staff all want the same thing in 
our schools: a culture of respect and a safe environment. Teaching and 
learning are enhanced when both are present; conversely, without these 
factors, teaching and learning are disrupted. Students who are harassed 
and bullied are more likely to be absent, perform poorly academically 
and fail to graduate. When teachers and other school staff have to 
address the disruptive behavior of some students, instructional time is 
lost for all students. And schools that aren't safe will not attract 
and retain teachers.
    The experience of teachers and other school staff confirms what the 
research shows: School climate is established and maintained by 
everyone in the school--from students to teachers to custodial staff to 
the principal. And each of them needs to understand the detrimental 
effects of bullying, harassment and violence, and how those issues 
should be addressed. What happens in one classroom is never just about 
that classroom; it is a larger statement about the school as a whole.
    The AFT advocates for seven essential elements to ensure that 
schools are safe and orderly environments for everyone:
    1. Enact districtwide discipline codes. Engage parents, the 
community and school staff in the creation of discipline codes. They 
should use clear, concise language with specific examples of good 
behavior as well as examples of all behaviors that will result in 
disciplinary action, and should spell out the specific consequences for 
code violations. Effective discipline codes will guarantee prompt 
removal of dangerous and chronically disruptive students from the 
education environment to an appropriate, high-quality alternative 
setting.
    2. Teach students how to follow the discipline code and ensure that 
the code is rigorously and fairly enforced. In order to be effective, 
the discipline code must be a ``living document,'' meaning one that is 
actively taught to students and is enforced consistently by all school 
staff, everywhere in the school, and by everyone in the school system.
    3. Implement effective classroom management practices. A teacher 
who has mastered classroom management skills keeps students 
constructively engaged from the moment they enter the room until the 
time they leave. The heart of effective classroom management depends on 
instructional techniques, classroom arrangements, and classroom rules 
and procedures that are well thought out and mutually supportive. The 
AFT offers professional development on classroom management to school 
employees, and it is one of our most popular professional development 
offerings. This popularity is a testament to the need for more of this 
type of training from both university-based teacher preparation 
programs and school districts.
    4. Implement programs to modify student misbehavior. There are 
several programs that aim to correct misbehavior in a consistent and 
caring manner. The idea behind these programs is that positive behavior 
must be explicitly taught and reinforced, and that students can self-
correct problem behaviors. Also, when students receive behavior 
interventions at an earlier age, these interventions are more effective 
than waiting until behavior problems become ingrained.
    5. Establish alternative placements that include ``wraparound'' 
supports for chronically disruptive and violent students. Different 
students need different placements. Without a continuum of 
alternatives, students who are mildly disruptive are treated the same 
way habitually violent students are treated. For students with severe 
problems, the placement should link the student and his or her family 
to community-based social service agencies, law enforcement, courts and 
corrections agencies, which can join together to create an individually 
tailored, comprehensive plan for the student.
    6. Develop school safety plans. These plans should protect students 
from dangers that come from outside the school and should be 
coordinated with outside agencies.
    7. Support the work of families, religious institutions and 
communities in developing sound character traits in children.
    As president of the United Federation of Teachers in New York City, 
I advocated for a school climate survey to be administered to all 
school staff, parents and, in secondary schools, students. This school 
climate survey would address perceptions of school safety and respect, 
including issues such as bullying, order in the hallways, and fair and 
consistent enforcement of discipline codes. The AFT would like these 
school climate surveys to be administered throughout the country and 
incorporated into a redesigned and broader measure of school 
accountability--one that broadens the measurement of a school's success 
in preparing its students to be 21st-century citizens.
    In addition, AFT local affiliates currently partner with various 
organizations to stop bullying and harassment and to improve school 
discipline, safety and student well-being. For example, in New York 
City, the UFT is partnering with Mayor Bloomberg on the Respect for All 
initiative. Respect for All provides all students, parents and staff a 
mechanism for reporting bias-based bullying or intimidation. Each 
school in New York City now has a designated staff member to whom 
students can report bullying, and schools are required to report these 
complaints to the city's Department of Education within 24 hours. This 
designated staff member is trained to pinpoint issues and access 
services like counselors and mental health professionals who can help 
the student being bullied as well as the student doing the bullying.
    Another example is in Toledo, Ohio, where our local union is 
partnering with the school district and the United Way of Greater 
Toledo Women's Foundation to explicitly teach social and emotional 
skills in elementary classrooms. This program helps students recognize 
and manage emotions, develop caring and concern for others, make 
responsible decisions, establish positive relationships, and handle 
challenging situations effectively. After two full years of 
implementation, student attendance has increased, discipline referrals 
have declined, and suspensions have been reduced significantly. In the 
classrooms of teachers who had received the most training in social and 
emotional learning, student achievement rose by one grade level in math 
and one-half grade level in reading over their counterparts who did not 
receive such training.
    The AFT also has long been a member of the National Safe Schools 
Partnership, a coalition to advance federal legislation and policy to 
reduce bullying and harassment. As such, we are strong advocates of 
H.R. 2262, the Safe Schools Improvement Act, and agree with the 
recommendation that the provisions of this bill be included in a 
reauthorized Elementary and Secondary Education Act.
    In addition, we support Rep. Carolyn McCarthy's (D-N.Y.) efforts to 
make schools safer through the Safe Schools Against Violence in 
Education (SAVE) Act. The SAVE Act will enhance existing federal school 
safety programs by providing a sharper picture of school violence and 
focusing on remedying the problems that contribute to unsafe learning 
environments. The SAVE Act begins to address the need for basic 
security in our nation's schools.
    Finally, the prevention of school violence and bullying can be 
addressed, in part, by community schools. Community schools bring 
together under one roof the services and activities that our children 
and their families need, including social, legal, recreational, 
counseling, health and dental services. Community schools can be open 
longer hours, and can provide structured academic and enrichment 
options for all students. With community schools, the bullying and 
violence that now often occurs after school hours and off school 
grounds could be prevented.
    The bottom line is that all stakeholders must work together to 
create safe school environments that foster respect so that students 
and teachers are able to do their very best.
                                 ______
                                 
    [Additional submissions of Mr. Castle follow:]

 Performance Values: Why They Matter and What Schools Can Do to Foster 
                          Their Development\1\

     A Position Paper of the Character Education Partnership (CEP)

Executive Summary
    This position paper sets forth an expanded view of character and 
character education that recognizes the importance of performance 
character (needed for best work) as well as moral character (needed for 
ethical behavior). While core ethical values remain foundational in a 
life of character, character education must also develop students' 
performance values such as effort, diligence, and perseverance in order 
to promote academic learning, foster an ethic of excellence, and 
develop the skills needed to act upon ethical values. The paper reviews 
research on the complementary contributions of performance character 
and moral character to human development and achievement and describes 
ten practices that teachers and schools have used to develop 
performance character. In this expanded vision of character education, 
a school or community of character is one that helps us ``be our best'' 
and ``do our best'' in all areas of our lives.
    As they come of age in a new century, our children face great and 
growing challenges. On a global scale, they confront an increasingly 
interdependent economy, exploding technological change, an environment 
at risk, and a world still plagued by war, disease, and injustice. In a 
workplace that offers diminishing job security, their ability to 
interact well with others and adapt to change will matter more than 
technical expertise.\2\ And in their personal lives, young people face 
the challenge of building healthy relationships and a life of noble 
purpose in a culture that is often unsupportive of the highest values 
of the human spirit.
    Schools, charged with preparing students to meet these formidable 
challenges, face a related yet more immediate set of challenges:
    Maintaining a safe and supportive learning environment
    Achieving adequate yearly progress on external academic standards
    Reducing drop-outs (30% nationally, as high as 50% in some urban 
areas)
    Improving students' performance on international tests
    Helping all students achieve and work to their potential, not just 
attain better grades or higher test scores.
    What kind of character will young people need to meet the 
challenges they face in school and beyond--and how can schools help 
them develop it while meeting their own set of challenges?
The Role of Work in a Life of Character
    ``The most important human endeavor,'' Albert Einstein wrote, ``is 
striving for morality.'' We are defined by our core ethical values--our 
integrity, our sense of justice and compassion, and the degree to which 
we respect the dignity and worth of every member of the human family, 
especially the most vulnerable among us. Research studies conducted in 
different cultures around the world have substantiated the universality 
of core ethical values.\3\
    We are also known to others by the quality of our work. The quality 
of the work we do is influenced by many factors, including our skills, 
the presence or absence of a supportive human environment, and 
``performance values'' such as diligence, preparation for the task at 
hand, and commitment to the best of which we are capable. The 
importance of work in people's lives, and even what is regarded as 
work, may vary among individuals and cultures. Yet in broad terms, our 
work is one of the most basic ways we affect the quality of other 
people's lives. When we do our work well--whether teaching a lesson, 
repairing a car, caring for the sick, or parenting a child--someone 
typically benefits. When we do our work poorly, someone usually 
suffers. The essayist Lance Morrow notes the centrality of work to the 
human community: ``All life must be worked at, protected, planted, 
replanted, fashioned, cooked for, coaxed, diapered, formed, sustained. 
Work is the way we tend the world.''
    Where do we learn to care about the quality of our work and to 
develop the skills to do it well? To a large extent, in school. In his 
book, An Ethic of Excellence: Building a Culture of Craftsmanship with 
Students, Ron Berger says that during his nearly 30 years as a public 
school teacher, he also worked part-time as a carpenter. ``In 
carpentry,'' he writes, ``there is no higher compliment than this: 
`That person is a craftsman.' That one word connotes someone who has 
integrity, knowledge, dedication, and pride in work--someone who thinks 
carefully and does things well.'' \4\ Berger continues:
    I want a classroom full of craftsmen. I want students whose work is 
strong and accurate and beautiful. In my classroom, I have students who 
come from homes full of books and students whose families own almost no 
books at all. I have students whose lives are generally easy and 
students with physical disabilities and health or family problems that 
make life a struggle. I want them all to be craftsmen. Some may take a 
little longer; some may need to use extra strategies and resources. In 
the end, they need to be proud of their work, and their work needs to 
be worthy of pride.
    All of us who teach would like our students to be craftsmen--to 
think carefully about their work, take pride in it, and produce work 
that is worthy of pride. Teachers, however, say they often struggle to 
motivate students to care about the quality of their work. Students who 
don't develop an orientation toward doing their best work in school may 
carry that over later in life. As educators, we recognize that some 
students' path toward self-discovery, motivation, and accomplishment 
may emerge outside of the regular classroom in such venues as the fine 
arts, vocational arts and sciences, and athletics. By work, we mean all 
these forms of endeavor that engage a person in effortful and 
meaningful accomplishment.
Expanding Our View of Character
    As character educators, how can we foster students' capacity to 
work and commitment to doing their work well, in school and throughout 
life? First, we must expand our view of character to recognize this 
important dimension of human development. Human maturity includes the 
capacity to love and the capacity to work. Character strengths such as 
empathy, fairness, trustworthiness, generosity, and compassion are 
aspects of our capacity to love. These qualities make up what we could 
speak of as ``moral character;'' they enable us to be our best ethical 
selves in relationships and in our roles as citizens. Character 
strengths such as effort, initiative, diligence, self-discipline, and 
perseverance constitute our capacity to work. These qualities make up 
what we could speak of as ``performance character;'' they enable us to 
achieve, given a supportive environment, our highest potential in any 
performance context (the classroom, the athletic arena, the workplace, 
etc.). By differentiating moral character and performance character, we 
do not intend to ``reify'' them as separate psychological entities; 
indeed, some persons may find it more conceptually helpful to think of 
these as being two ``aspects'' of our character rather than two 
distinct ``parts'' of character.
    The moral and performance aspects of character are mutually 
supportive. The moral aspects, besides enabling us to treat each other 
with fairness, respect, and care, ensure that we pursue our performance 
goals in ethical rather than unethical ways. We don't lie, cheat, 
steal, or exploit other people in order to succeed; rather, our 
performance efforts contribute positively to the lives of others. The 
performance aspects of our character, in turn, enable us to act on our 
moral values and make a positive difference in the world. We take 
initiative to right a wrong or be of service to others; we persevere to 
overcome problems and mend relationships; we work selflessly on behalf 
of others or for a noble cause, often without recognition or reward. In 
all realms of life, good intentions aren't enough; being our best 
requires work.
    Both moral and performance character are necessary to achieve the 
goals for which all schools of character strive. Moral character plays 
a central role in helping schools create safe and caring environments, 
prevent peer cruelty, decrease discipline problems, reduce cheating, 
foster social and emotional skills, develop ethical thinking, and 
produce public-spirited democratic citizens. Performance character 
plays a central role in helping schools improve all students' academic 
achievement, promote an ethic of excellence, reduce drop-outs, prepare 
a competent and responsible workforce, and equip young persons with the 
skills they will need to lead productive, fulfilling lives and 
contribute to the common good. Both the moral and performance aspects 
of character are, of course, needed for all of the above pursuits; for 
example, we must work hard (an aspect of performance character), in 
order to create and sustain a caring school environment, just as we 
must build caring relationships (an aspect of moral character) in order 
to be effective at helping students learn and achieve.
What Research Shows
    Various studies show the contribution of performance character to 
human development and achievement. Stanford psychologist Walter Mischel 
and colleagues conducted a study, popularly known as ``the marshmallow 
test,'' that assessed the ability of 4-year-olds to delay gratification 
(an important aspect of performance character) and then assessed the 
``cognitive and self-regulatory competencies'' of these same subjects 
when they were seniors in high school. The 4-year-olds were each given 
a marshmallow and a choice: If they ate the marshmallow when the 
experimenter left the room to run an errand, that was the only 
marshmallow they got; but if they waited 15 minutes for the 
experimenter to return, they received a second marshmallow. 
(Psychologists note that whether a child sees delaying gratification as 
an appropriate response in a particular situation may be influenced by 
family, neighborhood, and cultural factors.\5\)
    Those who, at age four, had been ``waiters'' on the marshmallow 
test, compared to those who did not delay gratification, were 
subsequently better able as adolescents to make and follow through on 
plans; more likely to persevere in the face of difficulty; more self-
reliant and dependable; better able to cope with stress; better able to 
concentrate on a task; and more academically competent--scoring, on 
average, more than 100 points higher on a college entrance exam.\6\ 
Mischel concluded that impulse control in the service of a distant goal 
is a ``meta-ability,'' affecting the development of many important 
psychological capacities.
    In Character Strengths and Virtues: A Handbook and Classification, 
Christopher Peterson and Martin Seligman present theoretical and 
empirical support for performance character attributes such as 
creativity, curiosity, love of learning, and persistence.\7\ Recent 
research on expert performance in the arts and sciences, sports, and 
games reveals that stars are made, not born. Outstanding performance is 
the product of years of deliberate practice and coaching--training that 
develops performance character as well as higher levels of the target 
skill--rather than the result of innate talent.\8\ Longitudinal studies 
such as Talented Teenagers: The Roots of Success and Failure find that 
adolescents who develop their talent to high levels, compared to 
equally gifted peers who don't fulfill their potential, show higher 
levels of such performance character qualities as goal-setting and wise 
time management.\9\
    Research also helps us understand how the moral and performance 
aspects of character interact. Studies such as Colby and Damon's Some 
Do Care: Contemporary Lives of Moral Commitment reveal both strong 
performance character (e.g., determination, organization, and 
creativity) and strong moral character (e.g., a sense of justice, 
integrity, and humility) working synergistically to account for 
exemplars' achievements in fields as varied as civil rights, education, 
business, philanthropy, the environment, and religion.\10\ Students 
themselves affirm the complementary roles of performance character and 
moral character. When researcher Kathryn Wentzel asked middle school 
students, ``How do you know when a teacher cares about you?,'' they 
identified two behavior patterns: The teacher teaches well (makes class 
interesting, stays on task, stops to explain something), and the 
teacher treats them well (is respectful, kind, and fair).\11\ In other 
words, ``a caring teacher'' models both performance character and moral 
character.
Ten Ways Schools Can Foster the Development of Performance Character
    In books, curricula, and research reports (see, for example, What 
Works in Character Education\12\ ) over the past two decades, the 
character education literature has described a great many practices for 
developing moral character. A smaller number of publications have also 
described practices that develop performance character; these resources 
include Berger's An Ethic of Excellence, the report Smart & Good High 
Schools: Integrating Excellence and Ethics for Success in School, Work, 
and Beyond,\13\ and CEP's annual National Schools of Character 
publication (which profiles award-winning schools and districts, 
including what they do to foster achievement and excellence).\14\
    Because performance character has received less attention in the 
literature than moral character, we focus in the remainder of this 
paper on how to develop performance values, describing ten practices--
some schoolwide, some classroom-focused--that are supported by research 
and used by exemplary educators. These school-based strategies do not 
replace the important contribution that parenting practices make to 
performance character development; nor do they reduce the need for 
schools to reach out to families as partners in encouraging their 
children's effort and learning. But these ten practices, especially 
taken together, can help to shape a school and peer-group culture that 
maximizes the motivation to learn and achieve, even in students who 
might not bring such dispositions to the classroom.
    1. Create a safe and supportive learning community. In order to be 
ready to learn and disposed to develop their performance character, 
students must feel safe and supported in school. A caring school 
community that respects student differences and creates a sense of 
belonging among students and staff lays the groundwork for hard work 
and academic success. A landmark study of 90,000 middle and high school 
students found that students who feel ``connected'' to school, as 
measured by the quality of their relationships with teachers and 
schoolmates, are more likely to be motivated to learn and have 
heightened academic aspirations and achievement.\15\ (See Charles Elbot 
and David Fulton's Building an Intentional School Culture: Excellence 
in Academics and Character for ways to create a schoolwide learning 
community with a high level of connectedness around shared core 
values.\16\)
    2. Create a culture of excellence. Excellence is born from a 
culture. Schools should therefore do everything possible to foster a 
culture where it's ``cool to care about excellence'' and where all 
students, given enough time and support, are seen as capable of high-
quality work. When students enter a culture that demands and supports 
excellence, they will do their best work in order to fit in. Berger's 
An Ethic of Excellence shows how teachers can create this culture of 
excellence by being consistent across classrooms in expecting students' 
best effort and by providing well-designed project-based learning that 
elicits quality work. ``Work of excellence is transformational,'' 
Berger writes. ``Once a student sees that he or she is capable of 
excellence, that student is never quite the same. There is a new self-
image, a new notion of possibility.'' As we help all students aspire to 
quality work in the classroom, we must also keep in mind that there are 
many paths to excellence, including those offered by co-curricular 
activities. For many young people, the entry into the experience of 
``craftsmanship'' may be the band, the art class, or the basketball 
team (see Smart & Good High Schools for illustrative case studies). 
Research confirms the power of co-curricular activities to positively 
impact life outcomes related to both moral and performance 
character.\17\
    3. Foster, in both faculty and students, a ``growth mindset'' that 
emphasizes the importance of effort. Studies indicate that our 
confidence in the face of challenges, another important aspect of 
performance character, is affected by our underlying beliefs about 
intelligence and personality. Over years of research, Carol Dweck found 
that the way in which students and adults answer questions such as, 
``Is intelligence set, or can you change it?'' and ``Are you a certain 
kind of person, or can you change yourself substantially?'' tends to 
predict how they will respond to challenges both in school and life in 
general. A ``fixed mindset''--the belief that our abilities are for the 
most part set at birth--can lead us to label and stereotype ourselves 
and others, avoid challenges, focus more on grades than on learning, 
hide our mistakes, and even cheat to avoid the appearance of failure. 
In sharp contrast, a ``growth mindset''--the belief that we can improve 
with effort--can lead us to be curious, engage in learning for its own 
sake, pursue challenges, and increase our efforts to overcome 
obstacles.
    To persons with a fixed mindset, grades are an evaluation of their 
worth; to persons with a growth mindset, grades are indication of 
whether they have met their goals or need to apply more effort.\18\ Two 
clear educational implications of Dweck's research: (1) emphasize 
effort rather than innate ability (``You worked hard on that paper'' 
rather than ``You're such a talented writer''), and (2) view all 
students as full of potential rather than limited by labels and 
stereotypes. We can also foster a growth mindset and performance 
character development by helping students take on challenges that 
provide stretch but are within their current reach (not too easy and 
not too hard), by helping them build the skills needed for success, and 
by encouraging them to extend their reach over time.
    4. Develop thinking dispositions in all members of the school 
community. Besides developing adults' and students' belief in the power 
of effort, we can foster other types of thinking dispositions that are 
part of performance character and that play an important role in 
learning. Project Zero at Harvard University has defined ``intellectual 
character'' to include such dispositions as being open-minded, curious, 
metacognitive (reflecting on thinking), strategic, skeptical, and 
seeking truth and understanding.\19\ These thinking dispositions also 
contain within them moral values such as willingness to listen to 
others' ideas, valuing what is true over what is self-serving or 
expedient, and being honest about one's thinking and beliefs. As with 
moral values, these ``habits of mind'' are developed through 
discussion, modeling and observation, practice, and reflection. 
Coaching students in conflict resolution and teaching them to ``think 
before acting'' provide further opportunities for nurturing these 
intellectual dispositions. Such dispositions of mind should also be the 
guiding norm for the adults who make up the school's professional 
learning community as they interact and help each other do their best 
work.
    5. Assign work that matters. Creating a culture of thinking and a 
culture of excellence requires a powerful pedagogy, one that motivates 
students to do thoughtful, high-quality work and to acquire the 
performance character attributes needed to do such work. One important 
pedagogical practice is assigning work that matters--work that inspires 
students because it is challenging, meaningful, affects others, and is 
therefore intrinsically rewarding. Ron Berger describes one such 
project in which his 6th-graders interviewed senior citizens and wrote 
their biographies: ``No one needed to tell them the reason for doing a 
quality job. These books were to be gifts to the seniors, gifts that 
might become precious family heirlooms. They wanted critique and help 
from everyone. They read the final drafts of their opening paragraphs 
aloud to the whole class for suggestions. They labored, draft after 
draft, over their cover designs. They wanted their books to be 
perfect.'' Doing work that positively impacts others fosters students' 
intrinsic motivation by fulfilling several interrelated human needs: 
making a contribution, feeling connected within a community, and 
experiencing a sense of competence.
    6. Provide models of excellence. If we want students to aspire to 
excellence, they must see what excellence looks like. Many schools take 
pains to provide students with varied examples of high-quality work on 
a given assignment before students begin their own work. What makes a 
particular drawing, science project, or piece of writing so good? What 
was the process of achieving such high quality? What mistakes and 
revisions were likely part of the process? Berger's An Ethic of 
Excellence offers helpful examples of how teachers can become 
``archivers of excellence'' and use models of excellence effectively to 
launch student projects.
    7. Develop a culture that encourages feedback and revision. Group 
feedback sessions can serve as a central strategy for developing 
performance character. Students bring their work to the circle, solicit 
comments and suggestions from their peers and the teacher, and use that 
feedback to revise and improve their work. (Some teachers encourage 
multiple revisions of at least some assignments, emphasizing quality of 
work over quantity.) The teacher uses the critique session as the 
optimal context for teaching students necessary academic concepts and 
skills. Students presenting a piece of work typically begin by 
explaining their ideas or goals and stating what they would like help 
with. Classmates respond first with positive comments and then offer 
suggestions, often sensitively phrased as questions: ``Would you 
consider making such-and-such change?'' Through this process of 
supportive group critique, guided by norms of respect and care, 
students function as an ethical learning community where they not only 
pursue their own best work but also strive to bring out each other's 
best work.
    8. Prepare students to make public presentations of their work. 
Students work harder to do their best when they know their work will be 
presented to an audience beyond the classroom. In some schools, every 
project that students complete is shared with some kind of an outside 
audience, whether another class, the principal, parents, or the wider 
community. The teacher's role is not to be the sole judge of students' 
work but to function like a sports coach or play director, helping 
students prepare their work for the public eye. In a similar way, some 
high schools require seniors to do an ``exhibition''--a public 
presentation to a jury of teachers, peers, and at least one community 
expert--of long-term research or creative work. Service learning 
projects often involve sharing one's work in this public way. If we 
require students to publicly present their work, we must, of course, 
help them acquire and practice the skills they will need to make 
successful presentations.
    9. Use rubrics to help students take responsibility for their 
learning. Columbine Elementary School (Woodland Park, CO), a 2000 
National School of Character, shows how to use rubrics to help students 
learn to self-assess, set goals, and in general take responsibility for 
their learning. Columbine has seven ``personal and social 
responsibility standards'' that are integrated into classroom 
instruction and students' report cards. Performance character is 
represented by four of these standards: (1) ``practices organizational 
skills,'' (2) ``takes risks and accepts challenges,'' (3) ``listens 
attentively and stays on task,'' and (4) ``evaluates own learning.'' 
Each standard is further broken down into specific skills. For each 
skill, there are four levels of competence: ``in progress,'' ``basic,'' 
``proficient,'' and ``advanced.'' For example, the first item under 
``practices organization skills'' addresses ``completing and turning in 
work.'' The four levels of competence in this skill are: ``in progress: 
I rarely complete my work and turn it in on time;'' ``basic: I 
sometimes remember to hand in my completed work, but I need a lot of 
reminding;'' ``proficient: I usually remember to hand in my completed 
work with few reminders;'' and ``advanced: I consistently hand in my 
work with no reminders.'' Teachers conference with students 
individually to help them assess where they are on the rubrics and set 
goals for improvement.
    10. Encourage mastery learning. In 1968, Benjamin Bloom developed 
an approach to teaching called mastery learning that has much potential 
to develop performance character. Mastery learning requires all 
students to achieve a certain level of mastery of a given concept or 
skill.\20\ If they do not achieve it on the first try, they keep 
trying. Five of the six major research reviews of this approach 
substantiate its positive effects on student achievement.\21\ (Mastery 
learning, like any other pedagogy, can be abused; it can lead to 
demoralization if students are asked to perform at certain levels but 
are not helped to attain those standards.) At Quest School (Humble, 
TX), a 2002 National School of Character that uses mastery learning, a 
teacher explains: ``Our whole program is about perseverance. In the 
beginning, kids don't realize that they will have to redo an 
assignment--two or three or four times--until they get it right. They 
learn to persevere.'' A student offered his view of mastery learning's 
benefits: ``You have to know your work forwards and backwards. If your 
data analysis on a project isn't good, you'll get it back. And if you 
get lower than a B in a class, you retake it.'' A school leader added: 
``Over the four years, students come to set an internal bar for the 
quality of their work. Our goal is for them to internalize the revision 
process. They know that in senior year, they have only one chance to 
revise a paper or re-take a test. They begin to turn in quality the 
first time.''
A Conclusion
    Throughout history, and in cultures around the world, education 
rightly conceived has had two great goals: to help students become 
smart and to help them become good. They need character for both. They 
need moral character in order to behave ethically, strive for social 
justice, and live and work in community. They need performance 
character in order to enact their moral principles and succeed in 
school and in life. Virtue, as the ancient Greeks pointed out, means 
human excellence. To be a school of character or a community of 
character is to strive to be our best and do our best in all areas of 
our lives.
                                endnotes
    \1\ This paper's expanded view of character as including moral 1. 
and performance character builds on work first presented in Thomas 
Lickona and Matthew Davidson's Smart & Good High Schools, jointly 
published by the Center for the 4th and 5th Rs and the Character 
Education Partnership in 2005 with major funding from the John 
Templeton Foundation.
    \2\ Casner-Lotto & L. Barrington, 2. Are they really ready to work? 
(Washington, DC: The Conference Board, 2006). Available at 
www.conference-board.org.
    \3\ C. Peterson & M. Seligman, 3. Character strengths and virtues: 
A handbook and classification. (New York: American Psychological 
Association and Oxford University Press, 2004).
    \4\ R. Berger, A4. n ethic of excellence. (Plymouth, NH: Heinemann, 
2003).
    \5\ We are grateful to Professor Marisha Humphries, 5. University 
of Illinois at Chicago, for this point.
    \6\ Y. Shoda, W. Mischel, & P.K. Peake, ``Predicting 6. adolescent 
cognitive and self-regulatory competencies from preschool delay of 
gratification,'' Developmental Psychology, 1990, 26, 6, 978--86.
    \7\ Peterson & Seligman. 7.
    \8\ K. A. Ericsson, N. Charness, P.J. Feltovich, & R.R. Hoffman 8. 
(Eds.), The Cambridge handbook of expertise and expert performance. 
(New York: Cambridge University Press, 2006).
    \9\ M. Csikszentmihalyi, et al., 9. Talented teenagers. (New York: 
Cambridge University Press, 1993).
    \10\ A. Colby & W. Damon, 10. Some do care. (New York: Free Press, 
1998).
    \11\ K. Wentzel, ``Are effective teachers like good parents?'' 11. 
Child Development, 2002, 73, 287--301.
    \12\ Berkowitz & M. Bier, 12. What works in character education. 
(Washington, DC: Character Education Partnership, 2006). This report 
can be downloaded from www.characterandcitizenship.org.
    \13\ T. Lickona & M. Davidson, 13. Smart & good high schools. 
(Cortland, NY: Center for the 4th and 5th Rs; Washington, DC: Character 
Education Partnership, 2005). This report can be downloaded from 
www.cortland.edu/character. See also M. Davidson, T. Lickona, & V. 
Khmelkov, ``Smart & good schools: A new paradigm for high school 
character education,'' in L. Nucci and D. Narvaez (Eds.), Handbook of 
Moral and Character Education (New York: Routledge, 2008).
    \14\ For more information about the National Schools 14. of 
Character program, visit www.character.org.
    \15\ M.D. Resnick, et al., ``Protecting adolescents from 15. harm: 
Findings from the National Longitudinal Study on Adolescent Health,'' 
Journal of the American Medical Association, 1997, 278, 10, 823--832.
    \16\ C.F. Elbot & D.V. Fulton, 16. Building an intentional school 
culture. (New York: Corwin Press, 2007).
    \17\ See Lickona & Davidson, pp. 112--114.17.
    \18\ C.S. Dweck, 18. Self-theories: Their role in motivation, 
personality, and development. (Philadelphia, PA: Psychology Press, 
2000).
    \19\ R. Richhart, Intellectual character. (San 19. Francisco: 
Jossey-Bass, 2002).
    \20\ Benjamin Bloom, A20. ll our children learning: A primer for 
parents, teachers, and other educators. (New York: McGraw-Hill, 1981).
    \21\ See, for example, J.H. Block et al., 21. Building effective 
mastery learning schools. (New York: Longman, 1989).
                                 ______
                                 

              Prepared Statement of Jon C. Marshall, Ed.D.

    Chairwoman McCarthy, Chairman Kildee, Ranking Members Platts and 
Castle, and distinguished members of the Committee. Thank you for 
providing me with an opportunity to provide testimony to you today.
    I have been conducting educational research and program evaluation 
since 1967. I have seen many programs come and go. Integrated Character 
Education is the first process that I have seen that has the promise to 
provide optimum school improvement through transforming schools into 
high quality places to be. We cannot teach a student who does not want 
to learn. We cannot stop bullying and other misbehaviors through threat 
and intimidation. These axioms are givens. We know it; we have research 
to ``prove'' it. Yet, in most schools today we still education students 
through rewards for winners and punishment for all others. The top 10% 
get the praise, trophies, certificates and other rewards we bestow on 
the desired behavior. The other 90% are told they are not good enough; 
that they are lazy or somehow too handicapped to reach high levels of 
success. And, then we wonder why we fail. So we pile on more rewards 
for the winners and grater punishment for the losers. And, again we 
fail. This cycle has been the norm for American education for over 100 
years. It is time that it stops.
    Integrated character education is the answer to breaking the 
hideous education cycle by creating schools where teachers and students 
want to be; by developing student character so that they want to learn, 
they feel safe in the learning environment, and know that they can 
succeed. There is room enough at the top for everyone.
    Bullying and similar anti-social behavior is caused by the 
frustration individuals feel when they do not belong to the ``club.'' 
And, for students and teachers, the club is the school and the 
classroom.
    Experimental studies in character education that met the research 
criteria required by NCLB, funded under PCEP, illustrate is point. Two 
of these studies were conducted in Missouri and a third in Alabama. 
Overall, over 150 schools were involved. With the introduction of 
school-wide, integrated character education, student discipline 
problems dropped by 30 to nearly 50% in a very short time. This 
positive change was most prominent in acts against people reflecting 
those behaviors common to bullying. Stopping most anti-social behaviors 
of children and teens can be accomplished through positive character 
development; developing schools of character. And, we now have the 
experimental research to prove it.
    Also, as shown in the Missouri studies, associated with the major 
improvement in student social behavior is a large increase in 
achievement. When character education reaches directly into the 
classroom, up to a 50% increase can be expected in reading and math in 
the percent of student scoring proficient or advanced levels in typical 
schools.
    Integrated character education builds healthy schools. Healthy 
schools have positive environments for students and staff. And, in 
healthy schools there is marked positive student behavior with minimal 
problems like bullying and optimum test scores.
                                 ______
                                 

   Prepared Statement of Mr. Joseph W. Mazzola, Executive Director, 
                    Character Education Partnership

    Chairwoman McCarthy, Chairman Kildee, ranking members Platts and 
Castle, and distinguished members of the Committee, thank you for 
providing me with an opportunity to provide written testimony as a 
follow up to the hearing held on July 8, 2009.
    I present my testimony on behalf of Character Education Partnership 
and, more importantly, the many constituents from across the nation we 
represent. We are a national nonprofit, nonpartisan, nonsectarian 
coalition of organizations committed to leading the nation in helping 
schools develop people of good character for a just and compassionate 
society.
    As you have heard from the other witnesses, we face serious 
problems in our nation's schools. Every single day 160,000 students 
skip school out of fear of getting beaten up * * * 50% of high school 
and 25% of middle school students report the use or sale of drugs at 
their schools * * * 64% of high school students admit to cheating * * * 
every 26 seconds, a young person drops out of school. Regrettably, the 
list goes on.
    To address many of these problems, and create learning environments 
where students (and teachers) will flourish, I urge the Congress to 
mandate specific methods that improve school culture and student pro-
social behavior as part of our national education policy.
    One strategy that addresses these areas is comprehensive character 
education. We know this to be true from over a decade of managing the 
National Schools of Character program. Consider these examples of 
schools that stress respect, honesty, diligence, responsibility and 
more, as part of their core missions:
    <bullet> Waterloo Middle School in NY increased math proficiency 
from 43% to 95% and English Language Arts proficiency from 38% to 85%, 
from 2004-2009.
    <bullet> Newport Mill Middle School in MD dramatically narrowed its 
achievement gap. The number of African American students who scored 
proficient in math went from 34% to 76% in two years.
    <bullet> Ridgewood Middle School in MO went from one of the worst 
performing schools in the state to one of the top 10 most improved. 
Disciplinary referrals went down by 70%, attendance rose to 95%, 
failure rates dropped to zero, and parent conference attendance went 
from 44% to 75%.
    <bullet> Hinsdale Central High School in IL lowered bullying and 
harassment incidents from 50-60 per year to about 10, and reduced 
vandalism incidents by 92%. The school stresses civic engagement and 
service. It was recognized as one of the top 5 high schools in 
Illinois.
    <bullet> Wilton Manors Elementary School in FL raised its state 
rating from ``D'' to ``A.'' This school's disciplinary referrals for 
aggressive behavior decreased by 80%, from 211 cases in 2002-2003 to 
just 14 cases last year.
    I could cite many other examples of schools our organization has 
identified and recognized for excellence in character development. The 
point, however, is that we consistently see that a strong commitment to 
competence and character, coupled with bold leadership, leads to 
improved school culture and climate. When that happens, all important 
indices move in the right direction--which is what you, as leaders of 
our nation, want to see happen in America's schools. Making character 
development a component of your strategy will help ensure success in 
many areas.
    The President has said that we must restore America's moral 
standing and further stated that honesty, tolerance and fair play are 
values upon which our overall success as a nation depends. By 
implementing quality, comprehensive character education in America's 
schools, we can help students reach new heights of achievement and 
develop future ethical leaders of our country.
    Finally, the most important reason for doing what I have suggested 
is because it is simply the right thing to do. Martin Luther King, Jr., 
said, ``Intelligence is not enough. Intelligence plus character--that 
is the goal of true education.'' And Teddy Roosevelt said, ``To educate 
a person in mind but not in morals is to educate a menace to society.''
    I believe that all members of the Committee would agree with both 
of the above quotes. Schools must graduate both smart and good 
students--people who are more apt to become compassionate citizens, 
competent and honest employees, and trustworthy leaders of our 
communities, nation and world.
    Not long ago, our organization sent a letter to Secretary Duncan 
proposing what you have heard in this testimony. Over 40 other 
national, regional and state organizations were official signatories. 
Given the emphasis on positive school reform from the new 
administration, we felt it was important to communicate the potential 
benefits of comprehensive character education, much as I have done 
here.
    In closing, I implore you to restore a minimum of $25M in funding 
for the US Department of Education's Partnerships in Character 
Education Program. The funds will help schools improve culture and 
climate, thus allowing many students to reach their potential. It will 
also lead to positive change on a host of important fronts, to include 
increased academic achievement and decreased bullying. And, it is in 
the best long-term interest of our nation. Thank you for your 
consideration and dedicated service to our great nation.

    ``Within the Character of the citizen lies the welfare of the 
Republic.'' -- Cicero
                                 ______
                                 

    Prepared Statement of Sanford N. McDonnell, Chairman Emeritus, 
                    Character Education Partnership

    Chairwoman McCarthy, Chairman Kildee, Ranking Members Platts and 
Castle, and distinguished members of the Committee: thank you for 
providing me with an opportunity to provide testimony to you today.
    The Clinton Administration initiated the Partnerships in Character 
Education Program (PCEP). During the Bush Administration, approximately 
$25 million annually was devoted to this program, just \1/20\th of one 
percent of the Department of Education (ED) budget. The White House 
FY2010 budget recommends those funds be cut to zero. I understand the 
reason given was that the federal character education program is 
ineffective. However, current ED websites report that evidenced-based 
results for character education interventions showed positive effects 
on both student behavior and academic achievements. Eliminating this 
successful school improvement program seems to be inconsistent with the 
Administration's and Congress's goals for improving our nation's 
schools.
    In Missouri we started an initiative in 1988 in 7 St. Louis County 
public school districts that we now call CHARACTERplus. It has grown to 
51 districts representing over 520 schools and 288,000 students. There 
are an additional 310 schools throughout Missouri, representing another 
112,000 students, and 29 schools in Madison County, Illinois 
representing 21,000 students. Funding for this comes primarily from the 
local districts and from the State of Missouri, a PCEP grant, and 
contributions.
    Evaluation results from these schools show that a quality character 
education program addresses all of the serious youth problems of drugs, 
violence, lying, cheating, stealing, racism, dropouts, and bullying. 
And in the process, it results in improved academic performance and 
greatly improved student behavior. Research in other states also shows 
that quality character education has similar results. The enclosed 
Performance Values position paper of the Character Education 
Partnership explains why a quality character education program is a 
total school reform answer to all the youth problems, not just drugs 
and safety.
    There is not one dollar allocated for character education in either 
the White House $90 billion stimulus package for education or the White 
House recommended $46 billion FY2010 budget for the Department of 
Education. Ignoring the character education of our young people seems 
inconsistent with the Administration's frequently expressed concern for 
the numerous character problems facing the nation in almost every 
sector of American life. Please at least restore the $25 million in the 
FY2010 budget.

    ``Character, in the long run, is the decisive factor in the life of 
an individual and of nations alike.'' -- President Theodore Roosevelt

    Thank you.
                                 ______
                                 
    [Questions submitted for the record and their responses:]

                                       [Via Email],
                                             U.S. Congress,
                                     Washington, DC, July 16, 2009.
Dr. Scott Poland, Associate Professor,
Center for Psychological Studies, Director of Internships Specialist 
        Program in School Psychology, Coordinator, Suicide and Violence 
        Prevention Office, Nova Southeastern University, Ft. 
        Lauderdale, FL.
    Dear Dr. Poland: Thank you for testifying at the ``Strengthening 
School Safety through Prevention of Bullying'' joint Subcommittee 
hearing on July 8, 2009.
    Representative Linda Sanchez (D-CA) has asked that you respond in 
writing to the following questions:
    I understand that bullying and harassment policies are sometimes 
unevenly administered, leaving some of the most vulnerable students 
unprotected. What does practice tell us about the importance of 
explicitly defining bullying and harassment as part of a school's 
school safety policy?
    I believe parental and community engagement is critical to 
fostering a positive school environment. What steps can be taken to 
ensure that parents, caregivers, and administrators/teachers have 
access to information about the incidence of bullying and harassment in 
their schools?
    Please send an electronic version of your written responses to 
Committee staff at by close of business on Wednesday, July 22, 2009--
the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

         Responses to Questions for the Record From Dr. Poland

    Thank you for the opportunity to testify at the ``Strengthening 
School Safety through Prevention of Bullying'' Joint Subcommittee 
hearing on July 8, 2009.
    I compliment Representative Linda Sanchez (D-CA) for her dedication 
on the important topic of school safety and I am pleased to have the 
opportunity to respond in writing to the following questions:
    Question 1. I understand that bullying and harassment policies are 
sometimes unevenly administered, leaving some of the most vulnerable 
students unprotected. What does practice tell us about the importance 
of explicitly defining bullying and harassment as part of a school's 
school safety policy?
    Response: My primary concern has been the lack of commitment that 
many schools have made to school safety. Many times in my 30 years of 
working in and consulting with schools, the response from school 
administration about safety issues and bullying is always, ``We have it 
covered'' or ``It does not happen here'', when I know that is not the 
case at all.
    I strongly support defining bullying and had hoped that the 
testimony on July 8th would have emphasized more clearly the definition 
of bullying. Bullying is emotionally harmful, repetitive and the 
objective is to have power and to humiliate the victim. The result for 
the victims of bullying is most importantly stress and loss of self-
esteem and secondarily bullying interferes with learning. Every student 
has the right to be protected from being bullied at school.
    I focused much of my testimony on making school administrators more 
accountable for school safety planning and bullying prevention. Every 
school needs to enforce the code of conduct that clearly states that 
harassment and intimidation of anyone is not allowed at school. In 
addition many states have enacted laws that address bullying 
specifically and cite the need for more training of school staff to 
prevent bullying. That training must include a comprehensive definition 
of bullying that clearly describes the behaviors designed to humiliate 
the victim and how bullying prevention fits into a comprehensive school 
safety plan. Bullying prevention will only be strengthened when campus 
and district level administrators are held accountable.
    Question 2: I believe parental and community engagement is critical 
to fostering a positive school environment. What steps can be taken to 
ensure that parents, caregivers, and administrators/teachers have 
access to information about the incidence of bullying and harassment in 
their schools?
    Response: The role of students in school safety is the most 
critical component for a positive school environment. I recommend 
utilizing student safety pledges to gain a commitment from students 
about key safety measures and bullying prevention. For example, because 
I am convinced students know the least supervised areas of their school 
where bullying is most likely to occur, I recommend having all students 
review the floor plan of their school to highlight the areas in the 
building where they feel least safe. The wise school administrator 
would increase supervision by adults in those areas.
    Parental input is also essential for school safety planning. 
Principals have stated, ``That parent demanded that I guarantee their 
child's safety at school and I can not do that.'' Any parent who is 
concerned about safety at school needs to be invited to participate in 
the ongoing school safety task force that welcomes parental input and 
utilizes community expertise! One school principal held a highly 
attended safety task force meeting. More than 400 parents participated 
as a result of incentives provided to students for encouraging their 
parents to attend.
    An administrator investigating a bullying incident needs to notify 
the parents of the child being bullied so that support may be offered 
to them. I emphasized in my verbal testimony that the number of mental 
health professionals such as counselors, school psychologists and 
social workers needs to, at a minimum, be doubled in schools. School 
administrators should not hesitate to survey students, staff and 
parents to ask questions about safety and bullying. In my opinion, 
every school board needs to hold their educational leaders more 
accountable for strengthening school safety and bullying prevention.
                                 ______
                                 
                                       [Via Email],
                                             U.S. Congress,
                                     Washington, DC, July 16, 2009.
Kenneth S. Trump, M.P.A., President,
National School Safety and Security Services, Cleveland, OH.
    Dear Mr. Trump: Thank you for testifying at the ``Strengthening 
School Safety through Prevention of Bullying'' joint Subcommittee 
hearing on July 8, 2009.
    Representative Linda Sanchez (D-CA) has asked that you respond in 
writing to the following questions:
    I have introduced two anti-bullying bills, neither of which 
represent an unfunded mandate, the Safe Schools Improvement Act and the 
Bullying and Gang Reduction foe Improved Education Act. Together, the 
bills expand the purpose of the existing Safe and Drug Free Schools and 
Communities Act, an existing program, to be sure that schools prohibit 
bullying, collect data on its frequency and impacts, and are free to 
use the grant funds they do receive in a variety of ways to address 
bullying, harassment, and gang prevention if they so choose. If the 
Safe and Drug Free Schools and Communities Act is not funded in any 
given year, my bills would not require schools to expend any funds.
    Sometimes state anti-bullying policies alone, not backed by the 
threat of the removal of federal funds, are simply not enough. Even in 
California, there have been many incidents where victims of bullying 
have been punished instead of the perpetrators
    For example, a California student, who happened to be a lesbian, 
was recently subjected to verbal harassment and name calling by 
students and teachers, spit on in school hallways, subjected to 
sexually suggestive touching, and even referred to an independent study 
program--as if the bullying and harassment were the victim's fault.
    Not only did the school not protect this young woman from 
discrimination on the basis of her sexual orientation: it condoned 
harassment by teachers and punished her for the crimes of others.
    Given incidents like this, would you agree that efforts to focus on 
bullying as part of an overall school safety strategy are in fact 
necessary? If not, why not?
    Please send an electronic version of your written responses to 
Committee staff at by close of business on Wednesday, July 22, 2009--
the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact the Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Responses to Questions for the Record From Mr. Trump

    Thank you again for the opportunity to testify at the 
``Strengthening School Safety through Prevention of Bullying'' joint 
Subcommittee hearing on July 8, 2009.
    My response to the question from Representative Linda Sanchez is 
below.
    Question: I have introduced two anti-bullying bills, neither of 
which represent an unfunded mandate, the Safe Schools Improvement Act 
and the Bullying and Gang Reduction foe Improved Education Act. 
Together, the bills expand the purpose of the existing Safe and Drug 
Free Schools and Communities Act, an existing program, to be sure that 
schools prohibit bullying, collect data on its frequency and impacts, 
and are free to use the grant funds they do receive in a variety of 
ways to address bullying, harassment, and gang prevention if they so 
choose. If the Safe and Drug Free Schools and Communities Act is not 
funded in any given year, my bills would not require schools to expend 
any funds.
    Sometimes state anti-bullying policies alone, not backed by the 
threat of the removal of federal funds, are simply not enough. Even in 
California, there have been many incidents where victims of bullying 
have been punished instead of the perpetrators
    For example, a California student, who happened to be a lesbian, 
was recently subjected to verbal harassment and name calling by 
students and teachers, spit on in school hallways, subjected to 
sexually suggestive touching, and even referred to an independent study 
program-as if the bullying and harassment were the victim's fault.
    Not only did the school not protect this young woman from 
discrimination on the basis of her sexual orientation: it condoned 
harassment by teachers and punished her for the crimes of others.
    Given incidents like this, would you agree that efforts to focus on 
bullying as part of an overall school safety strategy are in fact 
necessary? If not, why not?
    Response: Congresswoman Sanchez, thank you for taking a leadership 
role in keeping school safety on the Congressional agenda.
    I believe all students and school staff should be safe at school. 
Bullying is one of many issues which must be taken into consideration 
in developing comprehensive safe schools prevention, intervention, and 
enforcement plans. As referred to in your question, school gang 
prevention, intervention, and enforcement strategies and resources are 
also needed as we are seeing increased concerns about gang activities 
impacting a number of school communities across the nation.
    I agree with you that proposed and passed state anti-bullying laws 
are questionable in terms of their effectiveness. Many proposed and 
enacted state anti-bullying laws are unfunded mandates, and are vague 
and/or questionable in defining the actual behaviors that would 
constitute bullying. They also fail to provide any new and/or useful 
tools to support school administrators beyond their already existing 
student discipline codes of conduct and, their school climate plans and 
strategies already in place.
    Behaviors constituting bullying include verbal threats, menacing, 
harassment, intimidation, assaults, sexual assaults, extortion, 
disruption of the school environment, and associated disorderly 
conduct. In defining ``bullying,'' the focus must be on defining those 
behaviors which constitute bullying, not vague, generic, and non-
specific labels or definitions, or definitions based on personal traits 
or characteristics of the victims. The vast majority of schools in the 
nation have disciplinary policies and student codes of conduct to 
address these behaviors. School policies, parent/student handbooks, and 
related student conduct codes typically outline such inappropriate 
behaviors and corresponding disciplinary consequences.
    Schools nationwide also have school climate, prevention and 
intervention, and other school improvement plans to prevent and manage 
bullying behaviors and improve overall school climate. Anti-bullying 
and school climate strategies are referenced in the majority of schools 
we have worked with around the country. Discipline and school climate 
strategies, combined with balanced and reasonable security measures 
targeting ``hot spots'' where bullying occurs, can create a safer and 
more secure climate.
    The focus may then need to be on identifying how we can get school 
boards and administrators to focus on implementing those policies and 
programs already on the books, versus requiring them to create new 
rules and regulations. This is a challenge we face in many areas of 
school safety, such as school crisis plans and planning, and we should 
have the same degree of accountability for school administrators on 
school safety as we are demanding of them for academic performance.
    Having no firsthand knowledge of all of the facts of the case, I am 
unable to opine on the specific California case highlighted in your 
question. Many questions would need to be asked: Were policies in place 
in the district's student code of conduct that were not enforced? Was a 
state anti-bullying policy in place and was it already reflected in the 
local district's code of conduct, but not followed or enforced? What 
training of administrators and staff had been provided on the student 
conduct code, school climate strategies, and school safety? Were 
students disciplined in the case, but the district was prohibited from 
releasing the results of such disciplinary action due to privacy 
obligations under FERPA? Were actions taken against school employees, 
but those actions not made public due to employee personnel record 
privacy?
    Your question also indicates a claim of discrimination in the 
California case. This would raise questions as to whether existing 
federal educational rights laws, and existing federal and state civil 
rights laws, provide already existing avenues for the victim to pursue 
to address discrimination claims in the case? It is also my 
understanding that House and Senate committees have recently passed out 
of their committees bills that provide expanded hate crimes definitions 
to include those victimized because of real or perceived sexual 
orientation, gender, and gender identity. Does this mean that a 
discrimination claim such as that in your California example would be 
best addressed in the future under this federal hate crimes law, if 
passed?
    These and many other questions and firsthand information would have 
to be explored in order to provide a professional evaluation of the 
particular example cited in your question. I do not have such knowledge 
and therefore cannot fairly and objectively opine on that specific 
case.
    Unfortunately, the same ineffectiveness of state anti-bullying laws 
has been found in states where schools are required to have crisis 
plans. We have found outdated plans, plans with inadequate content, and 
other deficiencies in spite of states having requirements to meet 
certain expectations. Typically there is no state auditing or 
enforcement of such laws or requirements, and few incentives or 
resources for schools to implement them. In fact, federal and state 
school safety funds have been on the decline for the past decade, with 
schools competing for both time and money due to the intense and often 
narrow focus on pressures for improving academic performance. A 2007 
General Accounting Office (GAO) report on school emergency planning 
also found deficiencies in school emergency planning in spite of state 
and federal requirements, publicized best practices, and resources 
provided in this area of school safety.
    This leads me to think of other questions: If Congress pursues a 
federal anti-bullying law, will it also pursue federal laws requiring 
schools to have crisis plans? Will a law or laws also be created to 
require local schools to have each and every other component of a 
comprehensive school safety program, such as the more than dozen 
components outlined in my original testimony for this hearing? Efforts 
must not focus on one component such as bullying only or crisis 
planning only, but instead take a comprehensive framework and approach 
to federal, state, and local school safety policy and funding as 
discussed in more detail in my original testimony.
    Enacting such extensive federal school safety laws would, in 
essence, establish national standards for K-12 school safety. Perhaps 
this is timely and worthy of discussion as the Department of Education 
has periodically suggested best practices but stopped short of 
delineating any firm regulations or standards. It would seem difficult 
and somewhat contradictory to establish such federal standards, 
however, at a time when funding to support implementation of such 
standards and mandates has continued to be cut by Congress and the 
Administrations over the past 10 years.
    In fact, in your question, you alluded to the proposed elimination 
of state grant component of the federal Safe and Drug Free Schools and 
Communities (SDFSC) program. I was very disappointed that two days 
after the excellent July 8th, 2009, House Education and Labor joint 
Subcommittee hearing on strengthening school safety, a House 
Appropriations subcommittee approved eliminating the SDFSC state grant 
component funding. It is my understanding that the full House 
Appropriations Committee subsequently approved eliminating this program 
last week.
    Eliminating this program as proposed and acted upon to date results 
in a net reduction of over $180 million in federal school safety 
funding, continuing a pattern in this and other programs of a decade-
long declining o funding for school safety. If I understand your 
question correctly, the cut of the SDFSC state grant component would 
take away the ``teeth'' you referred to in your reference to 
threatening the removal of federal school safety funds. It was clear 
from my testimony and multiple other witnesses at the July 8th hearing 
that school safety resources need to be strengthened, not weakened, as 
would be done by another reduction in safe schools funding. I encourage 
you and your colleagues to continue to advocate for not only school 
safety policy, but also for restoring resources for school safety in 
the federal budget.
    It is my understanding that you have also introduced The Increased 
Student Achievement Through Increased Student Support Act, a bill 
designed to increase the number of school counselors, school social 
workers, and school psychologists in qualified schools in low-income 
communities. I support that bill as I believe the best strategy for 
making a meaningful impact on school bullying would be to increase the 
number of school counselors, social workers, and psychologists. Having 
more of these professionals on the front lines in our schools would 
provide adult professionals who could directly identify bullying 
incidents, provide immediate intervention, and prevent bullying and 
other school violence in our schools. The presence of professional 
adults providing direct services to children will have a much greater 
likelihood of making a meaningful impact on bullying than looking only 
at policies which are often not audited, enforced, or supported with 
resources.
    In closing, I believe all students and school staff should be safe 
in school. Schools must develop comprehensive school safety programs. 
Most of all, resources must be restored to help schools develop and 
implement these programs to deal with the problems raised in the 
policies.
                                 ______
                                 
    [Whereupon, at 12:02 p.m., the subcommittees were 
adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
